<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                   
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Carol Murphy, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 5

                         DEPARTMENT OF EDUCATION
                                                                   Page
 Secretary of Education...........................................    1
 Elementary and Secondary Education, Bilingual Education and 
Minority Languages Affairs and Educational Research and 
Improvement Panel.................................................  127
 Vocational and Adult Education...................................  227
 Office of Higher Education/Office of Student Financial Aid.......  253
 Howard University................................................  321
 Gallaudet University.............................................  355
 Special Institutions for the Disabled............................  375
 Special Education and Rehabilitative Services....................  429
                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 74-834                     WASHINGTON : 2001






                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     

                    James W. Dyer, Clerk and Staff Director

                                  (ii)

 
    DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION 
                        APPROPRIATIONS FOR 2002

                              ----------                              

                                         Wednesday, April 25, 2001.

                        DEPARTMENT OF EDUCATION

                               WITNESSES

HON. RODERICK R. PAIGE, SECRETARY OF EDUCATION
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE

                       Chairman's Opening Remarks

    Mr. Regula. Well, we'll get started this morning. We're 
very happy to welcome you, Mr. Secretary.
    Secretary Paige. Thank you.
    Mr. Regula. We look forward to hearing your testimony. I 
think we all agree that education is the key to success. I was 
at a military base in Italy last week and meeting with the 
wives, and I said, what's the number one issue. I thought it 
would be housing, they said it's education of our children.
    So it's universal, and I think I hear that same litany back 
home. And it's the thing that people are very concerned about. 
I think, Mr. Secretary, it means that your agency has an 
extremely vital responsibility, and I think it's reflected in 
the fact that in the President's budget, the budget for Federal 
funding, elementary and secondary, is up by $2.4 billion in 
fiscal year 2002, one of the large increases that are in the 
budget.
    And I like the fact that the budget puts great emphasis on 
reading and accountability, and that's the bottom line. We hear 
a lot about emphasis on science and math, but to do science and 
math you first have to be able to read. So I think that your 
focus on literacy is very important and very essential if we're 
to have a successful education program.
    Mr. Obey, we're pleased you're here. I don't know if you 
would like to make any opening comments.

               Opening Remarks of Ranking Minority Member

    Mr. Obey. Thank you, Mr. Chairman. First of all, Mr. 
Secretary, you'll find that this Subcommittee has a terrific 
chairman. I've known him for years. We have disagreed often, 
but I think we've always disagreed it in a friendly way. I'm 
sure he'll try to lead this Committee in a way that will 
produce the best answers for all of us.
    Let me say that I, too, share the view that education is a 
top priority. When I came here 32 years ago, there were only 
two things I really cared a hoot about. One was to see that 
every single American was covered by health insurance. The 
second was, that America end the hypocrisy of the difference 
between its self-congratulatory talk about putting education 
first versus actions that would really put it first. I don't 
think this country has put education first. We have in 
political rhetoric on both sides of the aisle for a long time. 
But there's always something else that's been more important, 
whether it was an increase in the defense budget or providing 
bigger tax cuts.
    I welcome you to the subcommittee. I wish you all the luck 
in the world. Your predecessor was a fine man, and everything I 
know about you leads me to believe that you are, too.
    Secretary Paige. Thank you.
    Mr. Obey. I must say that I have great disappointment with 
the budget that you will be testifying on behalf of this 
morning. As you know, in the last five years, we've averaged a 
13 percent annual increase in education funding.
    When you cut through the accounting niceties and compare on 
a program level to program level basis, the President is asking 
for a 5.9 percent increase over last year. This means that 
while education is supposedly being put at the front of the 
line, the budget request is about half the average annual 
increase that we've had over the last five years. I don't think 
that's putting education first.
    I would also point out that over the last five years, the 
average annual increase of 13 percent for education occurred as 
we were coming out of the world of large deficits. Now we're 
entering, if the estimates are right, a more hopeful decade 
with projected sustained surpluses. It seems to me a sad 
shortchanging of education to not at least match the percentage 
increases that we had the last five years on a program basis 
for education.
    I agree with your statement that simply spending more money 
in the same way is not the answer. That's why this subcommittee 
has consistently backed efforts to strengthen teacher training 
and teacher preparation. That's why we have supported the 
research evidence that indicates that kids learn better in 
smaller schools, rather than in these large megaschools that so 
many communities have built over the last 30 years.
    That's why we supported initiatives like comprehensive 
school reform--to give people at the local level an 
opportunity, on a school by school basis, to decide for 
themselves what works best rather than having a one-size-fits-
all dictation from Washington.


                     TAX CUT PACKAGE AND EDUCATION


    In the end, and this isn't your fault, you're simply the 
salesman for the job, as is any Cabinet Secretary. But I would 
draw one comparison if we really want to see who's being put 
first. The tax cuts that this Congress has voted will provide a 
huge amount of tax relief to people who make over $200,000 a 
year.
    If all we did was to limit the amount of tax relief that 
people above $200,000 in income get from the rate reduction in 
the top two tax brackets alone, we would save about $280 
billion over the next 10 years. We could move that money into 
education. We would, in essence, be putting the needs of 47 
million children in public schools ahead of the needs of the 
2.3 million people in this country who make over $200,000 a 
year.
    If we did that, we could provide enough funding to local 
school districts to lower every class size in America to 18 or 
fewer students. Research shows that the smaller the classes, 
thebetter the kids learn. We could close the salary gap between 
teachers and other professionals with a similar four year education. We 
could close that gap by half. We could eliminate the entire school 
renovation backlog in the country and have money left over.
    I think that neither party will be able to credibly claim 
that it is really putting education first, so long as that huge 
tax package hangs out there, providing so much by way of tax 
relief to the high rollers in this society that we are left to 
argue about table scraps with a $2.5 billion increase for 
education, when the increase ought to be $14 billion or $15 
billion if we really mean to put education first.
    Those priorities are not your choice, I know that. But 
we've got an obligation, I think, to try to give you a better 
deal than you're asking for.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Well, Mr. Paige, Mr. Secretary, 
you've heard the challenge. [Laughter.]
    Mr. Regula. We look forward to hearing your comments and 
asking questions. So with that, we will welcome your statement, 
however you want to present it.

                   Opening Remarks of Secretary Paige

    Secretary Paige. Well, thank you so much. I am particularly 
appreciative of the civility of the challenge and how it is put 
to us. For we differ in points of views. It's clear both of us 
are interested in children, and both of us want the same thing, 
and that is providing a high quality education for all our 
children. And we'll have some differences in points of view on 
how to arrive at that important goal. I'm pleased to have the 
opportunity to enter into that important dialogue and important 
debate.

                      Statement of Secretary Paige

    So thank you for this opportunity to testify on behalf of 
President Bush's 2002 budget for the Department of Education.

                  Education is the Number One Priority

    As you know, the President made education his highest 
priority, and this priority is reflected in this 2002 budget 
request. The reason for this is simple: there is no important 
initiative for the future of this great Nation than the 
education of our children. We've made some progress in 
education. This progress has resulted from the hard work of 
dedicated teachers and from parents and administrators and just 
good people all across the United States.

                      Closing the Achievement Gap

    But that progress is still confined to pockets of 
excellence, spotty pockets of excellence across our landscape. 
Pockets of excellence need to be recognized, and we want to 
thank the people that caused them, because they didn't just pop 
up there without effort. They result from facing difficult 
challenges and doing hard work. So we want to recognize those 
pockets of excellence and thank those responsible for that 
work.
    But pockets of excellence leave children behind. That means 
there are other places that lack excellence. That means we 
don't have a system of excellence. And that's what we're 
striving for, a system of excellence, not spotty excellence 
across our Nation that provides excellence for some children. 
We want to leave no child behind.
    So I think we have to face sometimes the difficult truth, 
even if it involves some introspection on our part and 
confession that we have not done it well. It's inarguable, our 
system has failed us. Notwithstanding the spots of excellence, 
the system isn't there.

                          NAEP Reading Results

    Earlier this month, the latest results from the National 
Assessment of Educational Progress showed that the average 
reading performance among fourth graders has not improved since 
1992. Think of the effort, think of the expenditure; yet it has 
not improved. It has not improved.
    President Bush and I are especially concerned about the 
persistent gap in achievement between poor and minority 
students and their more advantaged peers, dividing us into a 
Nation of two parts. For example, the NAEP results show that in 
fourth grade reading, 73 percent of white students performed at 
or above the basic level, compared with just 42 percent of 
Hispanic students and only 37 percent of African American 
students. Clearly, some students are being left behind.
    After almost two decades of national attention on 
education, when we said education is first, and dozens of years 
of rapidly increasing spending, each year, more and more 
spending, performance is flat. We know that simply spending 
more money in the same way is not the answer. And putting 
education first is not the same thing as putting spending 
first.

                      Budget Increase For FY 2002

    We need to do things differently, to adopt a culture of 
achievement in our schools and our school systems and to demand 
results for our growing investment in education. That's why I'm 
especially pleased and proud of the President's 2002 budget 
request for education. It provides a budget authority increase 
of $4.6 billion, or 11.5 percent, the largest increase of any 
Cabinet-level agency, and a $2.5 billion, or almost 6 percent 
increase, over the 2001 program spending level.

                      Closing The Achievement Gap

    Those new dollars are focused on changing the culture of 
our education system and closing the achievement gap. We know 
this can happen, because we have personally been involved in 
making it happen, and we have seen it happen.

                  Principles Underlying Budget Request

    Our budget reflects the principles put forward in the plan 
``No Child Left Behind.'' These are not revolutionary 
principles. They're simple, common sense principles, high 
standards, actually believing that all children can learn, not 
just some of them, all. It's easy to say all children can 
learn. It's a whole different matter of dealing with that 
principle and acting on it.

                 Annual Assessments in Reading and Math

    We are talking about acting on it. Annual testing of 
students in grades 3-8 in reading and math. We know there are 
bad tests out there, we know there are bad uses of tests. 
That's not what we're talking about. We're talking about 
measuring to determine whether or not the standards are being 
achieved. And if they are not, to inform instruction, so we can 
go back and improve the way we do things, so we can make sure 
that the children are not left behind.

                 Accountability for Student Performance

    Increase accountability for students, accepting the 
responsibility for students learning. We know there are 
sociological barriers out there, there are things outside the 
school that impact learning, that make it more difficult. But 
notwithstanding those barriers to education, we believe the 
school can make the difference, and the people in the school 
can make the difference. It's a whole different idea if the 
people in the school accept accountability and accept the 
responsibility for the children learning, instead of putting it 
off on other things outside the school. So we're talking about 
accountability for student performance.

                   Focus on Research-Based Practices

    We must focus on research-based practices. We know there's 
a lot of hard work, there's a lot of hard work sometimes that 
goes lost, because the hard work is not doingthe right thing. 
So we're talking about doing the right thing which includes, focusing 
on research based practices, reducing bureaucracy and providing greater 
flexibility for State school districts and schools, and aligning those 
at the school site, where the teachers' and students' eyeballs connect, 
to make some decisions about how expenditures should be designed and 
what methods should be used.
    It's almost a sense of arrogance for us, for me, and my 
colleagues in the Department of Education and others on the 
Hill to dictate to them specifically how they should do their 
work. We should trust them to do their work and ask them for 
the results of that work. And if the results of that work are 
not right, then we can take action.

                        CHOICE AND SCHOOL REFORM

    We must expand options for parents to make choices about 
children's education. Parents should be empowered to make 
choices about children's education. Parental choice is a 
necessary condition for authentic school reform.

                            TITLE I REQUEST

    President Bush believes that the Federal Government can and 
must close the achievement gap between advantaged and 
disadvantaged students. The primary means toward that goal is 
Title I, the Title I Grants to Local Educational Agencies 
Program.
    We're requesting $9.1 billion for this program, an increase 
of $459 million, to give States and school districts financial 
support to turn around failing schools, to improve teacher 
quality, to ensure that all students meet State academic 
standards before advancing to the next grade.

                 TITLE I ACCOUNTABILITY AND ASSESSMENT

    Even more important than the dollars requested for Title I 
is the President's new framework of accountability, of assuring 
that the Federal investment in Title I actually improves. If 
there is no link between the dollars and the improvement, then 
we have something to be concerned about.
    The foundation of this new accountability system is annual 
assessments in reading and math for all students in grades 3-8, 
instead of the current law which requires testing only twice 
during those critical formative years. The President is 
requesting $320 million to help States develop and implement 
these new assessment tools.
    We'll use these assessments in part to identify low-
performing schools and to provide the assistance that they need 
to improve. Our $9.1 billion request for Title I grants to 
Local Education Agencies includes $400 million, an increase of 
$175 million or 78 percent, to help turn around low-performing 
schools.

                         READING FIRST PROGRAM

    The 2002 budget also supports other proposals in ``No Child 
Left Behind'' that would give State school districts, schools, 
teachers, and parents the tools and flexibility to help 
students succeed. For example, the President's Reading First 
program would help States and school districts implement 
comprehensive reading instruction grounded in scientifically 
based reading research for children in kindergarten through 
third grade. And that's such an important statement, because a 
lot of effort in teaching reading has not been as productive as 
we would like for it to be, partly because it has been using 
methods that are not grounded in research-based practices.

                       READING FIRST STATE GRANTS

    The budget includes $900 million for Reading First State 
grants, more than triple the 2001 level for reading 
instruction. The grants also would provide $75 million for 
Early Reading First, an initiative that would complement 
Reading First State grants by supporting model programs to 
develop academic readiness for preschool-aged children. Over 
five years, the President would invest more than $5 billion 
ensuring that every child in America learns to read by the 3rd 
grade.

                   SPECIAL EDUCATION GRANTS TO STATES

    The budget also would help ensure that students with 
disabilities make progress toward meeting State standards by 
providing a $1 billion increase for the Special Education 
Grants to States, the largest ever requested by a President, 
the largest increase ever. The $7.3 billion request would 
provide an estimated $1,133 for each child with a disability, 
which is approximately 17 percent of the national average per 
child expenditure, and the highest level of Federal support 
ever under the Individuals with Disabilities Education Act.

                    EMPOWERING PARENTS WITH CHOICES

    President Bush and I believe that one of the best ways to 
improve accountability in our schools is to give parents the 
information and options needed to make the right choices for 
their children's education. This is why, for example, the 
accountability proposal in ``No Child Left Behind'' includes 
school by school report cards and gives students in failing 
schools the option to transfer to a better school.

                     CHARTER SCHOOLS HOMESTEAD FUND

    In addition, our budget would increase the choices 
available to parents through a new $175 million Charter School 
Homestead Fund, which would leverage funds to build, lease, 
purchase or renovate facilities for use as charter schools.

                       EDUCATION SAVINGS ACCOUNTS

    The President is also proposing a ten-fold increase in the 
annual contribution limit to education savings accounts from 
$500 to $5,000. Parents would be able to make tax-free 
withdrawals from these accounts to pay for elementary, 
secondary, college or after-school program expenses at both 
public and private schools.

             REDUCING BUREAUCRACY AND EXPANDING FLEXIBILITY

    Other major proposals would reduce regulations, paperwork, 
and bureaucracy, while giving States and communities the 
flexibility to create their own innovative solutions to 
challenges in education. For example, the $2.6 billion State 
Grant for Improving Teacher Quality proposal would combine 
funding from several existing education programs, including the 
Class Size Reduction and Eisenhower Professional Development 
State Grant programs into performance-based grants. The 
proposal would provide a $375 million or 17 percent increase, 
over the fiscal year 2001 level, to help States and local 
education agencies fund their own needs and priorities and 
develop and support a higher quality teaching force.

                        POSTSECONDARY EDUCATION

    No Child Left Behind is focused on elementary and secondary 
education. But the 2002 request also demonstrates the 
President's commitment to preparing low-income and minority 
students for postsecondary education, strengthening financial 
aid programs that help students and their families pay rising 
college costs, and building the capacity of postsecondary 
institutions serving populations of minority students.

                              PELL GRANTS

    For example, we're proposing a $1 million increase in the 
Pell Grant program to support a maximum grant of $3,850, the 
highest ever, and to improve access to post-secondary education 
for economically disadvantaged students.

                      STUDENT FINANCIAL ASSISTANCE

    Overall, the President's budget would support a total of 
more than $49 billion in new student financial aid, an increase 
of $2.2 billion or 4.6 percent over the 2001 level, for an 
estimated 8.2 million students and parents.

                             TRIO AND HBCUs

    To help low-income students prepare for, enroll in and 
complete a college education, we're requesting a $50 million 
increase for TRIO outreach and support services. We also are 
seeking a $15 million increase for our Historically Black 
Colleges and Universities and a $4 million increase for 
postsecondary institutions that serve largely Hispanic 
populations.

                   EXPANDED STUDENT LOAN FORGIVENESS

    We would encourage more college students to pursue teaching 
careers in high-need areas, by proposing expanded loan 
forgiveness from $5,000 to a maximum of $17,500 for math and 
science teachers serving low-income communities.

               COMPREHENSIVE VISION FOR QUALITY EDUCATION

    The President's 2002 budget request for education, in 
tandem with the education reform proposals contained in ``No 
Child Left Behind,'' support a comprehensive vision for closing 
the achievement gap and improving the quality of education for 
all Americans. I urge you to give these proposals careful 
consideration, and I stand ready to answer any questions that 
you might have, Mr. Chairman. And thank you for the opportunity 
to make this presentation.

              PREPARED STATEMENT OF SECRETARY OF EDUCATION

    [The prepared statement of Secretary Paige follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                     Chairman's Procedural Remarks

    Mr. Regula. Thank you, Mr. Secretary. I hope all of the 
members will respect the five minute rule. I want to give every 
member a chance to question and then if need be, we'll have a 
second round of questions.

        EDUCATION ESSENTIALS: GREAT TEACHERS AND READING SKILLS

    I just have a couple. There are two elements that I think 
are essential. One is a good teacher. We all agree in our life 
experience that there have been teachers who were exceptional, 
and it's made a difference. Secondly, of course, is the ability 
to read.
    So my question would be, what do you propose that we can do 
through this Committee's appropriations and through your 
leadership to improve the quality of teacher education and the 
quality of people in the classroom? And secondly, what do you 
propose as part of the new Reading First program, what are the 
elements of making this work, so that literacy does become a 
standard and that no child is left behind in their ability to 
read? You mentioned about how 4th graders have been pretty much 
flat in their literacy ability. What do you propose we do to 
change that, besides just spending money?

               STATE GRANTS FOR IMPROVING TEACHER QUALITY

    Secretary Paige. On your first point about teacher quality, 
Mr. Chairman, we are of the opinion, which is supported 
strongly by all the research that I could find, that the 
highest leveraged point of insertion is the quality of the 
teacher, and that almost nothing can overcome this. So the 
President's proposal providing funding of $2.6 billion for 
teacher quality improvement is critical to the success of this 
program.
    What it does is, rather than narrowly target those 
dollars--so that my colleagues and I in the Department can 
categorically specify how each of the 16,000 different school 
districts in America can improve their teacher quality--instead 
what we do is set broad parameters and say that these dollars 
may be used to improve teacher quality.
    That might involve recruitment, it might involve staff 
development inside a local system. It might involve innovative 
ways that we have not thought of yet. So we do not want to tie 
local hands on how to use these dollars. Bottom line, though, 
is we want to come back at some point and find out that these 
dollars have actually, in effect, improved teacher quality.

          READING FIRST: USE OF SCIENTIFICALLY-BASED RESEARCH

    With respect to the reading, we have evidence that we know 
more about reading instruction now than we did 20 or 30 years 
ago. It's because of the National Institutes of Health 
research, and because of people like Reid Lyon, Doug Carnine 
out of University of Oregon, Barbara Furman in Houston and 
others who have taught us now that there are specific 
strategies that are more effective than others.
    So what we would like to do is to help local educational 
agencies tool up to become stronger in using the strategies 
that are based on sound science and research, and that have 
demonstrated success.

          PARTNERSHIPS TO IMPROVE TEACHER QUALITY, CURRICULUM

    Mr. Regula. Just one follow-up on the teacher education. Do 
you anticipate reaching into the instruction programs of the 
universities and colleges? Because it seems to me that 
management of students is a criteria that has to go along with 
good teaching today, in today's world. And would this program 
that you mentioned about improving teacher quality, reach into 
the education programs for teachers?
    Secretary Paige. Yes. Our funding could support 
partnerships between universities and school districts, to 
encourage school districts and universities to partner in 
solving these difficult problems surrounding not only teacher 
quality but also the effectiveness of the curriculum that we 
use, especially science and math, and also in the strategies 
that we use in the classroom. The universities can be great 
partners, and we solicit their help.
    Mr. Regula. Mr. Obey and I were at a conference sponsored 
by Aspen, and they made a point of that, those partnerships 
between the school system and the universities and colleges in 
improving teacher education.
    Mr. Obey.
    Mr. Obey. Thank you. Mr. Secretary, we have limited time 
and I have to go to hearings with two other Cabinet secretaries 
this morning. So rather than ask you a question, I would simply 
like to raise with you a number of concerns. I hope we can get 
together at some later date and talk about them further.

                        PELL GRANT MAXIMUM AWARD

    First of all, I simply want to make you aware that if we 
accept your budget recommendations for Pell Grants we would be 
providing the smallest increase in the Pell maximum grant, both 
in dollar amounts and in percentage amounts, of any year since 
1996. Given the fact that recently announced surveys 
demonstrate that the bottom 20 percent of earning families in 
this country have actually lost ground in their ability to 
cover the cost of higher education, it seems to me that your 
budget is considerably short of where we need to be.

                  COMPREHENSIVE SCHOOL REFORM PROGRAM

    Secondly, you said in your comments that you believed that 
individual schools make a difference, and that we should be 
focused on research based-practices. I totally agree with that. 
That's why this Committee in years past has supported the 
Comprehensive School Reform program.
    I was disappointed to see that your budget request freezes 
funding for that program because I think that is one program 
that allows local people on a school-by-school basis to put 
together efforts, especially involving parental involvement, to 
change the way they do business. I don't think that the 
problems today exist only in Title I schools. They exist 
outside of Title I schools as well.
    I would point out that a conservative think tank, the 
Thomas Fordham Foundation, said in its publication, ``Better by 
Design, a Consumer Guide to Schoolwide Reform,'' that ``The 
experiment of comprehensive reform will help us come as close 
as we can to knowing what works or what doesn't, or what works 
under what circumstances and with what population.'' I would 
simply urge you, as we move through the process, to consider 
the usefulness of adding additional funds to that program.

                     ANNUAL ASSESSMENTS OF STUDENTS

    I would turn to the issue of testing. Now, I believe in 
frequent testing of children. But anybody who's grown up on a 
farm knows that you don't increase the growth of a chicken by 
weighing it five times a day. And it just seems to me that 
there is no reason----
    [Laughter.]
    Mr. Obey. It seems strange to me that evidently we're 
moving into a situation, if the President's suggestions are 
followed, where all States will be testing kids every year. My 
own State, Wisconsin, already has annual tests at the 3rd, 4th 
and 8th grade levels for reading and at the 4th and 8th grade 
levels for math. The last time I looked, on most major 
education indices, Wisconsin is doing better in educating kids 
than is the State of Texas. I don't know why Wisconsin must 
follow the Texas model of testing when we're already ahead of 
the game in terms of comparisons with Texas.

                 RAND STUDY ON THE TEXAS TESTING SYSTEM

    I would like to submit, Mr. Chairman, for inclusion in the 
record----
    Mr. Regula. Without objection, it will be included.
    Mr. Obey [continuing]. A Rand Corporation analysis of the 
Texas testing system, which points out that there was no 
control for measuring the impact of dropouts on school 
performance. In other words, the more weak students could be 
encouraged to quit school altogether, the better the school 
would perform on the tests. Secondly, the Rand study said that 
students who happened to stay home on test days were simply not 
counted in evaluating how well schools were doing. There was no 
control over the principals or teachers being evaluated by the 
tests to make sure that they were not encouraging weak students 
to skip on test days.
    And third, large amounts were spent by Texas school 
districts on special consultants hired to train teachers on how 
to drill students to pass the test. One consultant told 
teachers, ``ignore kids at the bottom, even if they improve, 
they are starting out so low it will not improve ratings.''
    Another consultant marketed its services to Texas school 
districts by saying, ``Acing this test is very different from 
getting straight As in school. We don't try to teach students 
everything there is to know about math, only what they need to 
know to score higher on the exam.'' And it seems to me that 
it's fair to conclude that the Rand analysis of the Texas 
performance indicates that these numbers have been manipulated 
to indicate that Texas has done far better than is actually the 
case in educating students.

           COMPARISION OF TEXAS ASSESSMENTS AND NAEP RESULTS

    When you compare student performance on Texas assessments 
(TAAS) compared with NAEP tests, those results diverge 
spectacularly. I would simply point out that the Rand study 
says the answers to questions of how much improvement occurred, 
whether the improvement in reading was comparable to what it 
was in math, whether Texas reduced the gap in scores among 
racial and ethnic groups depends on whether you believe the 
NAEP or TAAS results. They tell very different stories.
    I would simply urge the Administration to recognize, as we 
tried to do in programs such as the Comprehensive School Reform 
Program, that there is no one place that has all the answers. 
And I don't want my State, which I think is doing better than 
the national average in a number of areas, to be saddled with 
the prescription applied to a State which isn't doing as well 
educating their kids as is my State.
    Mr. Regula. Mr. Secretary, would you like to respond?

          RAND STUDY FINDINGS CONTRASTED WITH RAND ISSUE PAPER

    Secretary Paige. Absolutely. Thank you, Mr. Obey.
    It is not my intent to defend the Texas system. I came to 
talk about the President's budget. But since you made this 
point, I would like to make some observations.
    First of all, there's a difference between a Rand research 
report and a Rand issue paper. What you quoted from is a Rand 
issue paper. This is the difference. Issue papers explore 
topics of interest to policy making communities. Although issue 
papers are formally reviewed, authors have substantial latitude 
to express provocative views without doing full justice to 
other perspectives. The views and conclusions expressed in 
issue papers are those of the author and do not necessarily 
represent those of Rand or its research sponsors.
    Mr. Obey. Mr. Secretary, if I could interrupt, my staff 
director talked to the head of the Rand Corporation and they 
affirmed----
    Mr. Regula. Hopefully the two of you can have some further 
dialogue on this, but I would like to move ahead, because we 
have a lot of members here that want to ask questions.
    Secretary Paige. I would, thank you. But I would ask the 
Chairman to allow me to make this observation. The difference 
is, there's a difference in a Rand report, a research report, 
and if you want to quote from a Rand research report, we would 
ask you to look at the one that was issued on the 25th of July 
the year before.
    You'll find the results there are quite different from what 
you just described. The paper cites opponents of testing 
toverify findings, Stephen Klein, the lead author of the issue paper, 
and Linda MacNeil, known people who oppose testing, who testified in 
court to that, being paid to do so. A Federal judge has thrown out 
those ideas, as those of people who are self-serving. Those are their 
opinions. It is not research.
    Mr. Regula. I think you both have made your point.
    Mr. Obey. We'll have to continue this on some other date.
    Secretary Paige. I look forward to that, because I know 
what's right on this issue.
    Mr. Obey. We checked with the president of Rand yesterday, 
and he in fact put out a statement to confirm the Rand analysis 
that I will submit for the record along with the Rand research 
report.
    Secretary Paige. I have a copy of the press release that's 
been put out that I will submit for the record.
    Mr. Regula. Maybe we can have this in a separate hearing, 
but I think we have some difference of opinion.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  COMPREHENSIVE SCHOOL REFORM PROGRAM

    Mrs. Northup. Thank you. Welcome, Mr. Secretary, I really 
appreciate your remarks, and can't tell you how relevant they 
are to my district, and how important they are.
    First of all, Mr. Secretary, as somebody who believes in 
comprehensive school reform but does not believe that what we 
did in Congress was a good idea, I'd just like to point out 
that while the idea may have been good, the way it was 
implemented by the Department has meant that decisions have 
been taken out of the hands of parents and teachers and schools 
and instead are made starting with the Department of Education, 
then the State departments of education get into it, then the 
local districts get into it.
    What you have by the time it gets down to the school level, 
is a school that's finding something imposed upon it, rather 
than something that was good for it. All the things Mr. Obey 
talked about, about being good about comprehensive school 
reform, are filtered out of this program before it ever gets to 
the schools. In my district, right now, we have teachers 
complaining, they are part of the teachers union, about the 
100,000 new teachers. Because it came with rules and 
regulations that rather than giving flexibility and a better 
chance to meet the unique needs of each child, it took those 
choices away from those teachers and those schools.
    What I'd like to know is, does the Department intend to 
look at the programs we have that are intended to get money to 
the front line to schools, combine those dollars and make sure 
they get to the front line without all the rules and 
regulations? I say all the time when I'm talking about fund 
raising, ask somebody for money and they'll give you advice.
    Unfortunately, what our schools have gotten with a little 
bit of money from the Federal Government is a lot of advice. 
And the advice comes in the form of red tape, long forms to 
fill out, and limitations on how they can use their talents and 
resources.
    Can we reverse that?

             EXPANDING FLEXIBILITY AND REDUCING BUREAUCRACY

    Secretary Paige. I absolutely agree with your point of view 
on that. For seven years as the superintendent of the seventh 
largest school district in the Nation, I can tell you 
emphatically that nothing is more frustrating than dealing with 
all the regulations that are associated with some of the 
grants. And the 100,000 new teachers that you talk about is a 
perfect example. We spent hours figuring out ways that we could 
use that money to be effective in our classrooms and help our 
teachers in our schools that were sometimes tied up because of 
the regulations and the bureaucracy associated with it.
    In fact, many State departments fund many of their people, 
there are people paid just to deal with these dollars. And many 
of the dollars go to people who are expressly there to deal 
with the bureaucracy that is forced on it.
    I would conclude simply by saying, more specific 
categorical targeting, the response school districts have to 
that is bureaucracy. Bureaucracy builds up to protect itself 
against these types of specific, direct, categorical grants. So 
we are trying to put forward ideas that would eliminate that 
and give more flexibility to the people at the scene to make 
the decisions.

       TESTS AS A BASIS FOR ACCOUNTABILITY AND EMPOWERING PARENTS

    Mrs. Northup. I'd also like to ask about the question of 
testing. I have to tell you, I believe testing is all about 
empowerment. If you test a chicken five times a day to find out 
who needs food, it's probably pretty effective. And if you test 
a student every year to figure out what sort of educational 
needs they have, you're probably going to make a difference.
    The fact is, we test in Kentucky at the 4th grade and 8th 
grade. But what does a parent do when they find out in 4th 
grade their child's behind, if they don't have a test again 
until 8th grade, and they find out that what the plan was 
didn't work? The one thing it will do, I hope we do get choice. 
And I'll do everything I can to support that plan. But in the 
meantime, when parents, every single year, get a report card on 
whether their child's needs were better met each year, you will 
empower parents and get a whole lot more energy locally in our 
schools than we've ever gotten before.

               ALL SCHOOL SUBGROUPS MUST SHOW IMPROVEMENT

    But I am concerned about the students in Jefferson County, 
for example, where we have voluntary busing. Our African 
American community had to go to court and ask for an open 
records report to get a by-race breakdown of the students' 
reading scores. And what you talked about nationally is 
reflected locally. Our African-American ministers and leaders 
are begging for a phonics-based reading program, considering 
that their students are the ones that are being left behind. 
But it's not part of the philosophy of our superintendent that 
they get that.
    So what do we do if they're in a school, they make up 25 
percent of the population, the school is succeeding, but 25 
percent of the kids' needs aren't being met, because there 
isn't the phonics-based system they need? In the President's 
plan, the whole school has to fail before the parents who are 
least able to afford an alternative are empowered.
    Secretary Paige. Thank you. First of all, I would like to 
congratulate the State of Kentucky. They were one of the most 
courageous States in the early part of our reform. Our reform 
now is 10- to 12-years old. They've been fine tuning it and 
working on it for some time and getting great results.
    Students who are not tested don't have an identity. If they 
don't have an identity they can not really be dealt with. 
People talk about tests driving teaching; tests determining 
who's taught, because once these data are present, they can 
show where the deficits are and which should be worked on.
    Schools that claim success because their overall scores are 
high may not necessarily be successful unless they canlook down 
inside the overall scores and disaggregate the data down to the various 
subgroups in the population to see if they're succeeding. I don't think 
you can claim a school is succeeding if only some subgroups of the 
schools are succeeding. That's why we say, no child left behind. We 
want all of the students' measurements to count. I would have to agree 
with what you said.
    Mr. Regula. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman.

          THE ``DON'T LAUGH AT ME'' PROJECT AND SCHOOL SAFETY

    Thank you, Mr. Secretary. I would like to make a 
recommendation to you, and I think my colleague Mr. Obey would 
agree with it. My wife drug me to a gentleman named Peter 
Yarrow, and I thought Peter Yarrow, of Peter, Paul and Mary, 
anti-war, left wing, radical. He was one of the nicest guys I 
ever met. And he's got a very good program, Mr. Secretary, it's 
called, Don't Laugh At Me.
    And he's coming to town, and I'd like to set up a meeting. 
I'm sure David Obey would agree with that. It's a program that 
realizes that children are different, fat, skinny, different 
religions, different ethnic backgrounds. I walked away from 
there walking 10 feet tall after I'd met that guy. I think the 
program that he has for schools would be very noteworthy, if 
nothing else, for you to examine on the safety of the schools 
and those things. I think David Obey would agree with that as 
well.

                     TITLE I HOLD HARMLESS AND IDEA

    One of the things, I'm not going to go through political 
rhetoric today, but I'm going to ask you for some help. Because 
in California schools, we're a donor State for transportation 
for education. Our population growth is rapidly expanding, our 
energy problems are monumental.
    But one of the areas in Title I that we really get hurt is 
in the hold harmless. As populations leave other States and 
come to California, the hold harmless, those students actually 
get more per child than California. And we're suffocating in 
the Title I areas. I'd like you to look into that. It's very 
hard for members, if they're losing population to hold 
harmless, because it means less money for their State, and I 
understand that. But when you look at the money per child for 
children that really need that, of the expanding States.
    The second thing is IDEA. When I was subcommittee chairman 
on authorization before Mr. Riggs, I literally had to set down 
parent groups and schools, put them in a room and threaten just 
bread and water until they came out with an agreement. Those 
agreements, I think, have, especially by the trial lawyers, I 
think rip off the system. For example, I don't think we could 
ever get it through Congress because of the different interest 
groups.
    But I froze, and the only area I believe in caps, other 
than energy sometimes, is froze the trial lawyers' fees for 
special education. We saved millions of dollars and put in 37 
new special education teachers and specialists in Washington, 
D.C. Instead of the money going to trial lawyers, it went to 
the IDEA program.
    But as that money increases, I support increasing IDEA 
money. But I also don't support all that money going off to 
other areas, other than the children. Impact Aid is very 
important, California being a defense State. Not only that, we 
have a lot of Native Americans that reflect to it and be 
specific on it.

                SUPERINTENDENT OF SAN DIEGO, CALIFORNIA

    I also understand you met with Alan Bersin, who was a 
Clinton appointee. I want to tell you, he's got my full 
support. He believes in the same kinds of things that you're 
talking about.
    Secretary Paige. Great guy.
    Mr. Cunningham. He's versus the comprehensive school reform 
program, mostly for what Mrs. Northup has stated. He wants the 
local control. He wants the ability to make the decisions for 
the teachers and the parents. He's fighting the unions that 
want to tie that. They're beating up on him, and he's a good, 
solid Democrat, I want to tell you.
    But he's doing a good job, and I think you need to know 
that. If you want to look at a school district that's really 
trying to do a lot of the things you did in Texas, look and see 
what Alan Bersin is doing in San Diego.
    I'll yield back, unless you have any statements.
    Secretary Paige. I would simply state, Alan Bersin is one 
of the heroes of the superintendents community. I know him very 
well, and I respect his work and I think he's doing a great job 
in San Diego. Any support we can have for him, I would 
certainly make sure we do that. We respect very much what he's 
done.
    I heard you loud and clear about the hold harmless 
situation. I was in California, I did talk to Alan, I talked to 
several other people in your great State. I've heard that 
concern, and we'll give it some consideration. I'd be happy to 
talk to you some more about it.
    Mr. Cunningham. Thank you, Mr. Secretary.
    Mr. Regula. Mr. Miller.
    Mr. Miller. Mr. Secretary, it's a pleasure to have you 
here, someone that's been on the front line of education as a 
superintendent and as a board member. That's probably the 
biggest challenge. That was an elected position, was it?
    Secretary Paige. Yes, it was.
    Mr. Miller. Well, it's a pleasure to have you here, and we 
look forward to working with you.

               TITLE I--EFFECTIVELY A BLOCK GRANT PROGRAM

    Let me first ask a question about Title I. Title I is our 
largest program. That's a true block grant. I've been to a lot, 
probably most of the Title I schools in my district. It pretty 
much gives the local principal lots of flexibility.
    And yet, our system's failed, as you say, but yet most of 
the dollars have been pretty much a block grant program, and 
we've been increasing that very rapidly. How do you reconcile 
the fact that it is a block grant, given that flexibility, and 
how do you critique the Title I program and how is it going to 
change, unless you put, I know the testing is the major 
difference. How would you critique the Title I success we've 
had over the past 10 years that you've dealt with them?
    And it's great, it's exciting, I visit Title I schools, I 
feel they've got some advantages over other schools, because 
they have that extra pot of money to work with. They do some 
really innovative, great things with it.

                     IMPROVING THE TITLE I PROGRAM

    But let me ask you to critique the Title I program, and how 
we can really help it, besides pouring money into it, which we 
have been doing.
    Secretary Paige. Yes. There are some great Title I 
initiatives and some great schools, based on the innovative 
ideas of the people in the system, on their willingness to be 
accountable, on their willingness to measure students so that 
they can be more precise in their pedagogical strategies.
    But in the main, there's nothing there that would tell us 
that the program as a whole is doing what we would like for it 
to do. And you mentioned, and I agree, that the thing wethink 
that will change the culture in Title I schools more than anything else 
is simply the annual assessment and the focus on accountability for 
results.
    And this, by the way, is the same thing that Senator 
Kennedy called for in the initial stages of this legislation. 
When we look back and look at the record, look at the arguments 
that were put forward then, you would find he was a passionate 
supporter of measuring to determine whether or not results were 
being obtained. So our focus is on results, the results based 
on authentic, not bad testing. We are talking about good, solid 
testing that will make a difference, will help to change the 
whole culture of the Title I program.

            STATE ADOPTED STANDARDS AS BASIS FOR ASSESSMENTS

    Mr. Miller. You're from a growth State of Texas, and 
Florida is a growth State, and we've always been a donor State. 
I think we've worked on it some the last year on the 
preparation issue. But you mentioned the assessment tests. I've 
met with a lot of teachers and principals and parents about 
this testing. Florida is going through some challenges on this 
testing thing and some controversy.
    A few years ago, we had a big debate up here in Washington, 
maybe not that many years ago, about testing. How does your 
proposal differ from what was proposed just a few short years 
ago? Because there was real concern about dictating out of 
Washington the testing process, and what's tested, and the test 
in effect can determine what's taught in the classroom and 
such. How do you differentiate what was talked about a few 
years ago?
    Secretary Paige. Our emphasis is on State-adopted 
standards. The individual States would set the standards. The 
individual States would also develop and implement the 
accountability of the assessment tools. We would not dictate 
from Washington what that should be.
    We would look at it at some point to determine whether or 
not these are high standards, and whether these standards are 
the kind of standards that are moving toward the accomplishment 
of the standards that are being set by the individual States.

                  TIMING AND FREQUENCY OF ASSESSMENTS

    The second thing, assessment would be more frequent. We 
think knowing three years later is much too late. Students 
could build up too much of a deficit in that time. We'd like to 
know as early as possible when deficits are being developed, so 
we can attack it, because we believe now it would be easier to 
remedy.
    So the second point would be the frequency. We're talking 
about annual testing, for grades 3 through 8.

           TESTS AS A MEASURE OF SCHOOLS, TEACHERS, STUDENTS

    Mr. Miller. A lot of teachers are concerned that because of 
the flow in and out of the school system, the transition, that 
it's not fair to test once a year. In Florida, they're going to 
eliminate those, then you get a smaller student body to test. 
The testing result is not always a true test of a school. I 
think they're more concerned about the testing of schools 
rather than testing of individuals, the student assessment.
    Secretary Paige. Well, if the State has been careful in the 
development of the instrument, the testing or the assessment 
instrument, then we would take the position that it is a good 
measure of the performance of both the school and the teacher 
and the student. It is a good indication of the progress of all 
three of those entities.
    Mr. Miller. Thank you.
    Mrs. Northup [assuming chair]. Mrs. Lowey.

                 SCHOOL MODERNIZATION AND CONSTRUCTION

    Mrs. Lowey. Thank you. I want to join my colleagues, Mr. 
Secretary, in welcoming you to the Committee. I want to assure 
you that the commitment on both sides of the aisle is to 
improve the education of all of our children. In fact, what I 
have found so frustrating over the years as a parent, as a 
community leader, and as a Congresswoman, is that there are 
spots of excellence, as you call them.
    There are outstanding schools with outstanding teachers who 
are really doing the job. And somehow, it's been very difficult 
to replicate those efforts. I want to assure you, although we 
may have different views, you have people here who are truly 
committed to figuring out how we can replicate these schools 
and not leave any child behind.
    That's why I was so surprised with the portion of the 
budget that dealt with the modernization of our schools. My 
district is Westchester, the Bronx and Queens. I have some 
school districts where every youngster has a computer on their 
desk, for example. Did I say school district? Some schools in 
our school districts where every youngster in that school has a 
computer on their desk.
    I visit other schools where there are sheets of plastic 
holding up the roof, and I'd be delighted to visit them with 
you. When it rains, the kids run from one end to the other in 
the gym. They're lucky if they see a computer once a week. And 
in fact, that school doesn't have the infrastructure to even 
support computers.
    And therefore, several years ago, beginning in 1996, I 
became a strong advocate of school modernization. I know there 
are those who say, leave it to the locals, let them do it. 
Well, we build prisons, we build highways, we get involved in a 
whole lot of other things, but we cannot afford to leave 
children behind.

            ONE-THIRD OF SCHOOLS NEED REPAIR OR REPLACEMENT

    Mr. Secretary, just some numbers. Over one-third of our 
public schools are in need of repair or replacement, one-third. 
It's not just New York, it's all over the country. Eight 
million children attend school in buildings with compromised 
safety and five million attend school in buildings over 35 
years old, that haven't been touched since. I've visited 
schools with coal-burning boilers in those schools.
    And despite these numbers, frankly I was very disappointed 
that the President's budget eliminates all funding for the 
school renovation program in fiscal year 2002. In addition, the 
budget also proposes to retroactively take away school 
renovation money for fiscal year 2001. We estimate that these 
proposals would deny approximately 2,000 schools funding that 
they desperately need, in my judgment, having visited, as you 
have, hundreds and hundreds of schools. Our children can't 
continue to learn in crumbling buildings.
    I visited, as many of us have, schools around the world. 
This is the United States of America. We must, and frankly, we 
cannot leave these children behind and have them go to 
overcrowded classrooms, schools that are crumbling, waiting for 
the local communities to make these decisions. I don't 
understand how the Administration can make such a drastic cut 
when it says our priority is education. And with great respect 
for your leadership and your experience, perhaps you can answer 
that question.

                  COST OF SCHOOL REPAIR, CONSTRUCTION

    Secretary Paige. You could not be more correct in 
describing the conditions of our school facilities as 
dilapidated. All across the Nation, we see this. The $1.2 
billion that was appropriated some time ago for this purpose 
wouldn't even fix the schools in my school district three years 
ago. So the question is, whether or not we even have the power, 
even if we had spent that on schoolconstruction, your 
statements would be no less true, even after that expenditure had been 
made.
    And if we would do that again, and even ten-fold, you could 
still describe the schools across our Nation as in bad shape 
and still be correct.

       HOUSTON EXPERIENCE IN MEETING ACADEMIC AND FISCAL DEMANDS

    The second point is, there are schools where the Federal 
Government has a responsibility that is direct. Those schools 
are schools that are impacted by our military facilities, 
schools on Indian reservations. Those schools deserve our 
direct attention as far as their facilities are concerned.
    As a result of my experience in leading a school system, I 
can say clearly that school systems need help in dealing with 
their facilities. But allow me just to say how we addressed 
that in my own district. We had growth needs, we needed new 
schools, and we had schools where the buildings were just in 
ridiculous shape. We asked the citizens for a bond election to 
support a $391 million bond referendum to fix the schools, and 
it was denied by the public.
    Mrs. Lowey. That's the point.
    Secretary Paige. But here's the other side of the point. 
The other side of the point is, we then fixed the schools so 
that they were producing effective students. We switched our 
emphasis to the academic program and we began to build 
confidence in the public. The public began to feel better about 
the school district and three years later, they approved a bond 
issue of twice that amount, including a five cent tax increase. 
And it's very difficult to get a tax increase associated with 
school construction in my home State.
    So the issue is more complicated than just the buildings. 
If the programs in the buildings are not meeting the public's 
need, the public is not going to be willing to put money in for 
school facilities or anything else. So when we talk about 
improving the program, indirectly, we are also talking about 
providing facilities renovation as well.

                          EDUCATION AND TAXES

    Mrs. Lowey. Mr. Secretary, I see my red light is on, if I 
may just close and say, I hope you would indulge me, and I hope 
I would have the privilege of having a lengthier discussion. I 
certainly am committed to teacher training, teacher retraining 
and so many of the things in your program. But I also think 
that we cannot let this situation continue. This is the richest 
country in the world. We're talking now about a major tax cut. 
If we took some of those dollars and invested in school 
modernization, the emergencies could be taken care of, it would 
lower the taxes for many of our citizens. I would increase 
those dollars, not eliminate them, and lower the kind of tax 
cut that we're offering.
    Thank you for your indulgence. I look forward to continuing 
this discussion. Thank you very much.
    Mrs. Northup. I think Ms. Pelosi is coming back. Mr. 
Sherwood.

                     MAINTAINING SCHOOL FACILITIES

    Mr. Sherwood. Thank you. Secretary Paige, I appreciate your 
contribution to us this morning. I have 20 years on a public 
school board as experience.
    Secretary Paige. Congratulations for surviving 20 years. 
[Laughter.]
    Mr. Sherwood. And I have to take exception to some of the 
things that have been said this morning. Public school boards 
can have new buildings and they can have effective schools if 
someone will just manage the resources. And in Pennsylvania, we 
have a wealth effect, so that if the school district has a low-
wealth factor, they get a little more State aid. And I came 
from one of those low-wealth factor school districts. But we do 
not have a building over 30 years old. We renewed them all, it 
can be done.

                     IMPROVEMENTS NEEDED IN TITLE I

    But what worries me is that we're throwing money into Title 
I. And if I read your chart, we thought Title I worked pretty 
well in our school, but I don't think Title I nationally has 
worked, and we're putting more money in it. That's what 
concerns me, that Washington believes that you can throw money 
at any problem and solve it. I think it takes cultural change 
and management to solve these problems. What's your opinion?
    Secretary Paige. I think the chart speaks for itself. The 
blue is the money, the red is the student growth. This is 
student growth in reading. And it's for a 10-year period. You 
can see there doesn't seem to be any linkage between the 
inclined growth of the blue and the flat situation with the 
red.
    Absolutely, we need additional funding. The President 
supports additional funding. But what he wants is more results 
for the funding that is being provided. So we want to look into 
the system to make sure we've got the right elements to change 
the culture of the system, so the dollars that are being 
provided are being used effectively. We can see clearly that 
that isn't the case right now.

                   EDUCATIONAL IMPORTANCE OF TESTING

    Mr. Sherwood. I couldn't agree more. We're not weighing 
chickens, we're educating children. I don't understand the fear 
of testing. We have to know, in all enterprises, whether we're 
making progress or whether we're staying on the status quo. And 
I can't imagine any qualified professional that would be afraid 
of testing. And of course, what the testing shows us is how the 
children are doing and how the school is doing and necessarily 
how the teacher is doing, in imparting the knowledge. And 
without testing, there is no scale of reference to keep people 
doing their job.
    And so I agree with you, I'm not worried about teaching to 
the test. I think that's unfortunate, but if you don't have 
measurement, I don't see where we're going to make progress. I 
appreciate what you've had to say, and if you'd like to expand 
on that, I'd be delighted.

         Introduction of Tom Skelly, Education Budget Director

    Secretary Paige. I think you've said it very well. I could 
not agree more. So thank you so much.
    May I just apologize for not introducing my colleague here. 
This is Thomas Skelly, who is Director of Budget Service in the 
Department of Education. He has been, certainly, a powerful 
ally and a big help in developing the numbers that we have 
here.

                       SPECIAL EDUCATION FUNDING

    Mr. Sherwood. And if I may, I have one more little piece. 
One of the biggest frustrations of a public school board member 
today is to do the gymnastics of how you put your money in 
special education or the rest of the programs, because we have 
so many mandates on kids with disabilities that have not been 
properly funded.
    So I commend you on increasing that, but I think that's one 
place where we need to do more. School districts are struggling 
to meet their responsibilities under IDEA, and because of that, 
it draws funding away from academic performance in other areas. 
So anything you can do to fund that will be very helpful.
    Secretary Paige. Thank you.
    Mrs. Northup. Thank you. Let me return now to Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Madam Chair.
    Mr. Secretary, congratulations to you, welcome. I wish you 
much success.
    Secretary Paige. Thank you.
    Ms. Pelosi. Hopefully we will have success for all the 
children of our country under your leadership. But we do have 
some questions, all of us.
    Secretary Paige. I understand.

                   BILINGUAL EDUCATION BUDGET REQUEST

    Ms. Pelosi. Mr. Secretary, bilingual education is an 
effective and proven program that is vital for limited English 
proficient students in our schools. This account provides both 
institutional funding, as you know, tailored to the different 
needs of school districts and professional development funds to 
increase the number of fully certified bilingual education 
English as a second language teachers. I represent San 
Francisco as part of the California delegation. You with your 
history in Texas obviously know the need for this, with the 
beautiful diversity in our populations.
    Your budget justification discusses the dramatic growth in 
the number of LEP students in recent years. This is not only 
true for my home State of California and your State, recent 
State of Texas, but across the entire Nation, with growth in 
all 50 States and 10 States seeing increases of over 50 
percent. It is my understanding that to meet this growing need, 
the authorizing committees who are working on the education 
bill are considering an authorization of $1 billion. Yet, the 
President has frozen funding at last year's level of $460 
million.
    How can a need that is increasing so dramatically be met 
with flat funding?
    Secretary Paige. Well, I would call your attention to the 
$2.6 billion teacher quality initiative that is in our budget. 
And what we mean by that is that each individual State, local 
school district, may make decisions on how they spend those 
dollars to improve teacher quality. If there is a need for 
bilingual or ESL teachers, then those local decisions can be 
made at that site, and they can use those dollars to improve 
the quality of teaching for bilingual education and for ESL.
    So where you might not see the categorical targeting of 
dollars specifically for that purpose, what you might take into 
consideration is the $2.6 billion that is there from which 
funds may be drawn to meet the specific language limitation 
needs.
    Ms. Pelosi. Having it compete for funds in that way 
certainly does not ensure that the needs of these young 
children will be met. So I would have hoped that the 
authorizing committee, which again studies this issue and 
presents a very strong justification for funds to the tune of 
$1 billion designated for this purpose, would have been 
reflected in the President's budget, rather than having to 
compete. As you know, sometimes they don't win out, most often 
they don't win out in that competition, especially since it's a 
new and growing challenge to some people and some of their 
States.

                   SCHOOL RENOVATION AND CONSTRUCTION

    I wanted to ask you, certainly associate myself with the 
questions raised by Congresswoman Lowey about school 
modernization. I can't say strongly enough how important the 
concerns she raised are to many of us here. Children are very 
smart. If you say to them that education is important to their 
self-fulfillment, and to their future and to their ability to 
get a job and our competitiveness as a country, education is 
the key, and we send them to a school that is under par, in 
some places not wired for the future, and many cases also 
contaminated and not even good for their health, much less 
their education, children get the message that education must 
not be that important, if we don't place a value on it, to have 
appropriate facilities.

                               CLASS SIZE

    All the research, as you know, Mr. Secretary, tells us that 
children do better in smaller classes, indeed, some of them in 
smaller schools, and that at least the smaller classroom aspect 
does, I think everyone agrees, smaller classes necessitate 
school modernization and school building programs that are not 
funded adequately, I believe, by the initiatives that you're 
bringing forth in this budget.

             CAMP AND 21ST CENTURY PROGRAMS BUDGET REQUESTS

    You might comment on that, but I also want to talk to you 
about the child care access between parents and schools, the 
CAMP program, providing campus based child care service to 
assist low-income parents that attend college. I don't have 
much time, so I'm just going to cut to that. Can you explain to 
the Committee your rationale for freezing these funds, when 
there is such a high level of unmet need? And I also have 
concerns about the 21st Century After-School Program that is, I 
believe, underfunded in the President's budget as well.
    Thank you, Mr. Secretary.
    Mrs. Northup. Mr. Secretary, if you want to take a minute 
to answer, that's great.

                  SCHOOL CONSTRUCTION AND FEDERAL ROLE

    Secretary Paige. We absolutely are concerned about 
facilities. But if you look at the magnitude of the need and 
the facilities, we have to decide, and I think maybe it's a 
good time at some point to have some discussion about what the 
Federal role would be in construction.
    The Federal Government decided back in 1965 to get into 
this business of education to support access and to provide 
equity, so that disadvantaged students can be lifted a little 
bit, roughly to that of their peers. The major tool for that 
was the Elementary and Secondary Education Act. So whether or 
not that should be expanded to become a school construction 
program or not is something I think is worthy of debate.
    I would just indicate to you that the GAO study shows you 
the magnitude of that, and I don't know whether or not we have 
the capability of doing that. But we take the point of view 
that when we improve construction and improve the connection 
between the public and the schools, we also improve the 
possibility for local participation in the infrastructure of 
the schools. It's not that we're not uncaring about it.

              SCHOOL CONSTRUCTION AND THE NEW TAX PACKAGE

    Ms. Pelosi. Mr. Secretary, with all due respect, if I may, 
a part of the school modernization, in fact, a great deal of 
it, is through a tax credit for industry, long on bonds. And 
that was not given a priority in the President's tax proposal. 
As you know, a high priority was given to giving a tax break to 
people who don't really need it, instead of giving a tax credit 
in that tax proposal for school modernization. And that's part 
of the concern, not only as an appropriation but as a value in 
the tax budget reconciliation.
    Mrs. Northup. Mr. Peterson.
    Mr. Peterson. Mr. Secretary, it's a delight to be with you 
today and I look forward to working with you. You have 
certainly one of the challenges in your Cabinet position that 
needs the support of Congress.

                GETTING FEDERAL DOLLARS TO THE CLASSROOM

    I want to take a moment to defend you. I think it would be 
fair to compare Wisconsin or Pennsylvania or Michigan 
withTexas, when we face equal immigration problems that you have. I 
think what Texas did, the progress Texas made is commendable. But these 
northern States do not have, it's not a fair comparison when you look 
at the immigration problem that Texas has.
    Secondly, we also were told earlier that if we had no tax 
cut and we just plowed the money into education, we'd solve all 
the problems.
    Mr. Obey. That's not what I said.
    Mr. Peterson. I didn't quote you, sir.
    Mr. Obey. No, but you referred to me----
    Mr. Peterson. I'm generalizing. I'll soften it a little 
bit.
    But we were told that if we put huge amounts of money into 
the Department of Education, we could really fix things. I want 
to just share with you, if we can figure out a way that it gets 
to the classroom, I might agree with that.
    Several years ago, we had a program here called Dollars to 
the Classroom. Representative Pitts from Pennsylvania proposed 
it. It took 31 programs and allowed you only to use it in those 
31 areas. And this Congress shot it down, too much latitude. 
That was the mistake that we made.

        PERCENTAGE OF FEDERAL DOLLARS IN PENNSYLVANIA CLASSROOMS

    And let me just share with you, at that time, I asked 
Pennsylvania for a printout, because I served on the education 
committee in the Senate. I asked them for a printout of every 
school district in Pennsylvania. We claimed to provide 7 
percent of the money for basic education here in Washington. In 
Pennsylvania, the amount of money on average that reaches the 
classroom is 3.2. In 1997, it was 3.3, in 1998 it was 3.2, so 
we're not even going the right direction.
    The problem is, this complicated Federal system, most rural 
impoverished school districts where superintendents are also 
principals have no time to deal with this complicated 
structure. And it doesn't reach the classroom. Would you like 
to comment on that?
    Secretary Paige. I think I'd just like to agree with what 
you said. You said it very well, and I can't improve on that.
    Mr. Peterson. It's a very complicated system.
    Secretary Paige. Yes.
    Mr. Peterson. So I want to work with you at getting the 
money to the classroom, then will Federal dollars make a 
difference. Currently I don't think they do in many school 
districts. Because that 3.2 average is the urban and the rural. 
And the urban do much better because they have specialists.

            MILITARY SERVICE AS A VALUABLE EDUCATIONAL VENUE

    The next issue I guess that I've been very frustrated with, 
a change in this country, when we went to a full time military 
and went away from the draft, in my view, the draft was one of 
our major educational facilities, the Army. Young men 
especially were civilized in their first year, I always use the 
term, and then after that were given a class and were taught a 
trade.
    So the poorer people in America who went to the military 
because they couldn't get a job came out of the military with 
measurable skills. Most of our technical workers came out of 
the military. Our pilots came out of the military. Many of our 
health care workers were medics and worked in the military.

            NEED FOR INCREASED VOCATIONAL TECHNICAL TRAINING

    With that change, this country has never filled that gap. 
We are on an overall academic model, graduate education, and 
that's all wonderful stuff. But I want to tell you, when you 
get below the 50th percentile, young people have few options in 
this country. I guess one of my disappointments in the area, I 
want to say it in a positive vein, though, I want to work with 
you on it, no President has proposed any increase in 
vocational-technical education in this decade that I'm aware 
of. It's always flat funded.
    So for some reason, it's highly under-valued. The problem 
with that is that our poorer districts cannot afford the high 
cost of technical classrooms. If we don't somehow pump money 
into the technical classroom, we're just not going to have 
them. In my district, the work force development money often is 
squandered, because there's no local classroom to teach people 
what they really need, whether it's a high school student or 
whether it's an adult.
    Our young people in this country are not going into the 
technical fields. And I'll just list a few. Health care, the 
number one issue in health care institutions is nurses, LPNs, 
nurses aides and all the technicians that treat us in our 
hospitals. The information age technology, companies are still 
stealing their specialists from each other. Machinists, tool 
and dye workers, pilots, auto mechanics, jet engine mechanics, 
plumbers, welders, electricians.
    All those fields are void of workers. We have to somehow 
change our emphasis in this country to technical, or we're not 
going to have anybody to run anything. We're going to have 
everybody on an academic model. When you get below the 50th 
percentile, we really don't have a track for them.
    I would like to say, I would like to work with you at 
resolving this whole issue, because I think this whole country 
needs to be refocused on where the jobs are, and the jobs that 
aren't being filled, and most of them are technical. Would you 
like to respond to that?
    Secretary Paige. I think those are great remarks, and I'd 
be happy and pleased to have an opportunity to have some 
further discussion with you on it.
    Mr. Peterson. Thank you very much.
    Secretary Paige. Thank you.
    Mr. Regula [resuming chair]. Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.

           TEACHER TRAINING AND CHILD DEVELOPMENT IN SCHOOLS

    Welcome, Mr. Secretary. It's a delight to have you here 
this morning.
    Let me lay out two or three things and ask you to respond, 
and maybe one piece or two pieces in which you can just respond 
subsequently. On the issue of teacher and teacher quality, I'm 
sure you know Dr. Jim Comer, who is the Falk Professor of 
Psychiatry, child study. He is a wonderful man who has come 
here many times to talk to us about children and child 
development.
    He recently has an article that is out, in which he talks 
about needing schools that develop children and that teachers 
need to have child development training. I'm going to ask the 
Chairman if I can put that article in the record.
    Mr. Regula. Yes, without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   FY 2002 Education Budget Increase

    Ms. DeLauro. Then I would like to get it to you, Mr. 
Secretary, and I would love to have your views on what Jim 
Comer is talking about.

                        FY 2002 Budget Increase

    Secondly, let me address the issue of the 11.5 percent 
increase. I'm a little bit confused. So either today or 
subsequently if you can respond to this. That 11.5 percent 
increase in education doesn't quite jive with what was in the 
Administration's budget book in February or from what the OMB 
has said. If you take a closer look, the more accurate increase 
in education funding is about 5.9 percent. It would appear that 
$4.6 billion, which is what the 11.5 percent increase is based 
on, includes $2.5 billion of what is regarded as advance 
appropriations. And that in fact $2.1 billion of the apparent 
increase that the President says is there for 2002 was in fact 
enacted by the previous Congress and signed into law by the 
previous President.
    The 2/28 Administration's budget book bears this out. They 
talk about the increase when you correct for the advanced 
appropriation. That in fact the dollar amount is $2.5 billion 
and not $4.6 billion. If you then account for inflation, you 
bring that number down to 3.7 percent.
    And if you account for an increase in school age 
population, you're looking at in fact the real per capita 
increase is about 2.9 percent, which quite frankly, would make 
this amongst the lowest amounts of funding for education that 
we have had in our country, going in 1998 from 12 percent, 
1999, 12.4 percent, 2000, 6.3 percent, 2001, 8.3 percent, and 
those numbers, I might add, do adjust for the advanced 
appropriations process.
    So I would like to get you to comment on that. Obviously, 
2.9 percent is troubling in terms of leaving no child behind.

                   Special Education Full Funding Act

    My last question is about IDEA, special education. Last 
year we had 421 members of the House vote to pass the IDEA full 
funding act, to set the target so that we have full funding by 
2010.
    Last year's bill did not contain the necessary increase. 
This year's budget would bring us nowhere near our full funding 
obligation, funding only 17 percent contribution. When can we 
expect to reach our full 40 percent?

                 Percentage Increase In FY 2002 Budget

    There is a bit of time left, if you can answer the question 
on the 11.5 percent increase, which seems not in fact by OMB, 
by the Administration budget document and that's page 103 of 
the document, in fact, is not an 11.5 percent increase in 
education.
    Secretary Paige. Yes. There is an 11.5 percent increase in 
budget authority relative to last year. However, the program 
level translates into a 5.9 percent increase on a program 
level. Both figures are correct. If you wish to look at it from 
the program level point of view, and use the 5.9 percent 
increase, you would be correct in looking at it that way. That 
still would be the largest increase of any agency, Federal 
domestic agency, in terms of this year's budget. That is 
correct.
    Ms. DeLauro. But if you take a look at all of the 
opportunities for education being funded, it brings it down to 
5.3. And in fact, $2.1 billion of that amount of money was 
passed by the prior Congress and signed into law by the prior 
president. So you can't count the money twice.
    That's why I said, we can't fully get into that. I truly 
would love to have a picture of that. Because by the book 
itself, by the Administration's book itself, it says that there 
is a discrepancy here, and a distortion. So I only want to hear 
back in terms of how you lay that out, from 11.5 down to 2.9, 
including increases in school age population and including the 
money that you have to deal with, as we all have to deal with, 
with inflation.
    Secretary Paige. We would only say that there is an 11.5 
percent increase in budget authority. However, if you look at 
it from a program level, it translates into a 5.9 percent 
increase, which is a large increase.
    Ms. DeLauro. But you had budget authority from the prior 
time when the $2.1 billion. That's why we can't--the Chairman 
is being helpful here and allowing us to go on, but I know he 
doesn't want to. So if you can get back to me in terms of 
laying it all out, I'd be delighted to take a look at this and 
have further conversations. And if you can get back to me about 
the other two issues, I thank you very much, Mr. Secretary.
    Mr. Regula. Mr. Secretary, I think you wanted to finish 
something.
    Secretary Paige. Mr. Chairman, I would only say that I 
suppose I was growing and learning how to present myself and 
operate in this environment, but I've noticed that there's a 
strategy of those who would put out wild, hard charges, and 
then when you try to explain it, they interrupt you so you 
don't get a chance to get your explanation out.
    So the only point that is heard is the charges that are 
made. I don't know how to handle that.
    Mr. Regula. We're going to give you lots of opportunity to 
get your point out.
    Ms. DeLauro. Mr. Chairman, I would just say this. Mr. 
Secretary, truly, with all due respect, and I have a great deal 
of respect, I think there are many areas on education in which 
we agree, the reading initiatives, etc., worked long and hard 
on those efforts, and I view education in fact as the great 
equalizer in this country. I think you have that same feeling 
about it.
    I am truly quoting back to you directly from pages 103 and 
104 in the Administration's February 28th budget book. I asked 
you to take a look at those. If you can bring some clarity of 
thought as to what is listed here and in terms of correcting 
for the distortion of advanced appropriations, that is what I 
am asking about, and to help us figure this out in terms of 
what is the dollar amount that we are talking about for what we 
both believe should be our highest priority in this country, 
and that's our kids' education.
    Mr. Regula. Ms. DeLauro, I hope you can stay, we're going 
to have another round here. I want the Secretary to have a 
chance to respond. I'm going to try to get the other members 
in.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman, and thank you, Mr. 
Jackson, for turning on my microphone.

                Safe Schools/Healthy Students Initiative

    Mr. Secretary, congratulations on your appointment. I look 
forward to working with you. I've discussed in many of these 
hearings with the Chairman and with others the fact that we 
need to do more in the area of addressing the fact that the 
Surgeon General's landmark report on mental health points out 
that the largest provider of mental health services to children 
and adolescents is our school system.The same report notes that 
only one in five of America's children and adolescents have some type 
of mental health impairment or diagnosis.
    So with that understanding, I would like to work with you 
to try to see what we can do to improve the Safe Schools/
Healthy Students initiative, because this as you know provides, 
among other things, screening and assessment in a school-based 
setting, and appropriate, scientific tested school-based mental 
health prevention early intervention services. It's also helped 
in that idea of bringing everyone together in a collaborative 
manner, in which HHS, Justice and Labor and Department of 
Education all work together.
    So if you can make a note on that, I'd like to have you 
address these questions after I've finished with my five 
minutes, so I get to maximize my time.

                21st Century Community Learning Centers

    So that would be of real interest. The same idea of 
addressing children's mental health in the early school period 
is also complimented by the 21st Century Community Learning 
Centers. In my State, we've integrated those with State 
legislation which is called Child Opportunity Zones. But again, 
we're facing some questions about whether those 21st Century 
Community Learning Centers are going to have enough money to 
continue to do the job they need to do to tie the families into 
the schools.

                       At-Risk Children and Youth

    And in that regard, as you know, the profile of an at-risk 
student is well documented and researched. Parental education 
achievement, students living in poverty, minority status, 
limited English speaking proficiency and inadequate health care 
are all predictors. So if we know all this, why don't we work 
more closely with families themselves, the parents, to make the 
parents, who are the first teachers, better teachers by having 
more adult literacy in the schools?
    That goes directly to the children, because as we know, the 
correlation between adults abilities and educational abilities 
and the child are on par. So we need to address that. 
Unfortunately, we need to look at the funding levels for that 
as well.

             Special Education Infants and Families Program

    Also, Mr. Secretary, let me conclude with this notion of 
helping the kids get screened and helping the parents get the 
education support services they need. We obviously also need to 
address the whole idea of the infants and toddlers program in 
IDEA. Because we need to fund that more than it is currently 
being funded, because as we know, it's a great way to prevent 
special education-- a whole host of remedial problems down the 
road--if we invest in it. In my State, they're all telling me, 
we need to do more to reach out to the kids in this early 
toddlers program, because we know which ones are the kids that 
need the support, and we just need to act on it.

           Americans With Disabilities Act/Olmstead Decision

    So with that, I'd like to conclude by asking you your 
opinion of the President's implementation of the Olmstead 
decision with regard to disability. The new freedom initiative 
which he's talked about to a great extent calls for swift 
implementation of the Olmstead decision. I'd like to hear what 
your answer is and how that will apply to children with mental 
illness.
    Secretary Paige. Mr. Kennedy, I'm not prepared to respond 
to that right now. But I would like to have an opportunity to 
do so, after thinking about it. So if you'll permit me, I'll 
give your office a call and we'll set up a time when either I 
can come by or have somebody on your staff talk to my staff.
    Mr. Kennedy. I appreciate that. Mr. Chairman, as you know, 
this is something I've been staying on repeatedly. Because 
bringing the families into the child's education, as you know, 
Mr. Secretary, is crucial to the success of the child. We need 
to support these 21st Century Learning enters, we need to 
support the early child screening and the toddlers for Part C 
of the IDEA. We need to do the after-school programs, all of 
these things we know are very effective. So I'd like to work 
with you to make sure that we can make sure they continue to be 
effective.
    Mr. Regula. Mr. Secretary, if in the short term you'd like 
to put something on the record, we'll have it open for the next 
couple of days.
    Secretary Paige. Well, I certainly do have something I'd 
like to put in, on both the Speical Education Infants and 
Families program and the Olmstead decision. I appreciate the 
opportunity.
    Mr. Regula. If you'll get that to the staff, we'll put it 
in the record at this point.
    Mr. Kennedy. That would be great. I'd like to submit my 
questions for the record, and I know that the Secretary and I 
will have a chance to discuss it later in time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
              CONGRATULATIONS EXTENDED TO SECRETARY PAIGE

    Mr. Regula. Okay, Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Let me also congratulate you on your new post as the 
Secretary of Education.
    Mr. Chairman, I have five questions that I wanted to ask 
this morning, all of which I'm going to ask your permission to 
submit for the record.
    Mr. Regula. Without objection.

           EDUCATIONAL QUALITY: SHARED GOAL WITH VARIED PATHS

    Mr. Jackson. I've been on this Committee now for almost 
three years, and this Committee, Mr. Secretary, has gotten off 
to a very good start under the present Chairman's leadership. 
But for the first time since the Chairman has been our new 
Chairman, there's clearly an undercurrent in this particular 
hearing. And almost a hostile undercurrent. But I'm more 
convinced than ever that the strength of our individual and 
personal relationships can obviously survive it.
    But there's also the sense, Mr. Secretary, that because you 
showed up, the relationship has only become slightly 
exacerbated and even more hostile. And let me say what I think 
I believe it is. All of us have a genuine interest in the 
condition of our children in public schools, both Democrat and 
Republican, the liberals and conservatives. Some of us believe 
that more money should be spent, others of us believe that less 
money should be spent. Some of us would like to see that money 
tied to academic improvement, credibility and accountability in 
the process.
    But I think all of us have a genuine interest in ensuring 
that our children are the byproduct of whatever takes place. So 
rather than ask my five questions, which I think will only 
exacerbate tensions during your first hearing, I want to try 
and approach what I perceive the problem to be from a 
philosophical perspective, and maybe get some of your comments 
with that.

                   HISTORICAL INEQUALITY IN EDUCATION

    At least the facts that we have received in this Committee 
is that there are 53 million children in our public school 
system, soon to be 60 or so million children, that they are 
located in 85,000 public schools across the country in 15,000 
local school districts. That they receive their primary power 
source obviously from the Tenth Amendment, since there has been 
significant objection to the Federal role in the process of 
educating our children. You quoted not long ago that elementary 
and secondary education is a 1965 construct which is really an 
increased Federal role in that prior to 1965, from 1896 to the 
present, the States had been practicing a system of separate 
and unequal education, as evidenced in the decision of Plessy 
v. Ferguson. 

                      BROWN v. BOARD OF EDUCATION

    The Brown v. Board of Education decision of 1954 overcame 
the principle of Plessy by establishing the principle of equal 
protection under the law for all Americans. But Brown did no go 
so far as to establish a system of equal and high quality 
education for every single American. The byproduct of it is 
that yes, Brown desegregates the schools and begins a process 
of busing, as one of my colleagues indicated in their question, 
25 percent of students in one school are the byproduct of that 
busing, they also have the lowest test scores, while 75 percent 
of the students in that school are performing well, there seems 
to be some association that somehow busing is bringing that 
school system down or that schools need to fail in order for 
those 25 percent to receive an equal, high quality education. 
She seemed to have been promoting vouchers with her approach.

         FEDERAL ROLE IN REMEDYING INEQUALITY OF STATE SYSTEMS

    My question for you, Mr. Secretary, is actually an 
interstate question. On the south side of Chicago, we formerly 
had an industrial-based economy, where our local governments, 
and I represent 30 cities outside of the city of Chicago, used 
to tax the industrial-based community for local education. That 
was also shared by local property tax burdens.
    Now, most of those industries have now closed. The top 11 
businesses in my entire district only employ 11,000 people, so 
there are 60 people in my entire district for every one job in 
my entire district. With the advent of the information age, 
Silicon Valley and other technology corridors, obviously those 
public education systems, which are now funded by those high 
tech industries, are now the beneficiary of great tax 
resources, because the economy has shifted from an industrial-
based one to an information-based one.
    I'm interested in how, Mr. Secretary, you see the 
Department of Education as an instrument or a vehicle in 
remedying unequal education between States, let alone between 
rural and urban areas, if in fact, for example, the State of 
Mississippi is not the great beneficiary of the information-
based economy, how is it possible that children in Mississippi 
will not be left behind if in fact some States are the 
beneficiaries of the information-based economy? Because those 
companies chose to locate in those areas, and therefore, their 
taxable revenue ends up benefiting those public schools as 
opposed to, say, a school on the south side of Chicago, or 
schools in Mississippi or Alabama or any other southern States, 
for that matter.
    My question, Mr. Secretary, is an interstate question, and 
that is, how does your Department see its role in remedying 
between State inequality?
    Secretary Paige. First of all, our view is that public 
education is primarily a State function. The Federal Government 
has a role, a very limited role, a limited role which we would 
like to make more effective. We would like to take the limited 
role that the Federal Government has--education is a State 
responsibility under the constitution and to make sure that the 
limited role that we have is very effective. We think each 
State should decide on what a young boy or girl who resides in 
that State should learn from that State's system.
    The Federal fiscal contribution for education averages 7 
percent, more in some places. In Chicago, you've mentioned 
about 12 percent of the dollars come from the Federal 
Government. We want to make sure those dollars are used in a 
way that would effectively provide greater access for 
disadvantaged young people and toalso provide a higher quality 
of education for all students. The President's plan, ``No Child Left 
Behind,'' tries to balance off State's differences, or tries to 
identify State differences through administering the NAEP tests. Then 
our Department will look at the NAEP data or its equivalent to 
determine if the standards in the various States are equal or 
consistent across the States.
    That will be only one indicator. And we'll look at other 
indicators. And the professionals who reside in our Department 
will make an analysis of the State standards and the State 
assessments to assure that these are equal across the States, 
there is no big inequity across the States.

         CONSTITUTIONAL LIMITATION ON FEDERAL ROLE IN EDUCATION

    Mr. Jackson. Mr. Secretary, you argued, and I realized my 
time has expired, you argue for a limited role of Government. 
But if in fact you look at 50 different State systems, how is 
it that no child could be left behind if there are 50 different 
schemes in 50 different States? How do you close the gap, if 
one State, through its State legislature, doesn't choose to 
prioritize education in a way that a State with the revenue 
does choose to prioritize education?
    Secretary Paige. It is incorrect to say I argued for that. 
I'm operating in an environment that is like that. The 
Constitution is there as it is. I'm not arguing for that, I'm 
confined, I'm constrained in my efforts through that system, 
which I approve of and think it's the right one.
    But we will try to assure that there are no big inequities 
between States by looking at the State performance using the 
NAEP tests or their equivalent, as one yardstick. We'll use 
other yardsticks as well. Then the people in our Department 
will analyze this data. And where we see there's some inequity 
between States, we'll address that, without being specific 
about the how we will address it or what we will do. But we 
will take action if some States are not performing in a way 
that is serving children well.
    Mr. Jackson. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wicker.

                         FY 2002 BUDGET REQUEST

    Mr. Wicker. Thank you very much, Mr. Chairman, and Mr. 
Secretary, congratulations on your appointment and 
confirmation, and on your budget, which no matter how you 
figure it, does represent a substantial commitment to increased 
funding for the Federal role of education, not only in terms of 
dollars, but also in terms of substance and quality. So 
congratulations, and let me just say that as a Mississippian, 
I'm proud of you.
    Secretary Paige. Thank you.
    Mr. Wicker. You and I have a lot in common, and I want to 
get back to that in a minute. That will be my question.
    My friend, Mr. Jackson, mentioned an undercurrent or a tone 
in this hearing which might make one think that there is no 
bipartisan support for this program, when in fact, as we've 
heard since the beginning of the Bush Administration, there is 
substantial bipartisan support for what you're trying to do. I 
commend you for that.

                  SCHOOL CONSTRUCTION AND FEDERAL ROLE

    In the budget submission to the Congress, President Bush 
stated that ``School facilities are a State and local 
responsibility.'' Now, you've responded to questions by at 
least two members of the Subcommittee since I've been here. 
Unfortunately, I had to be in another subcommittee meeting. And 
I think you've responded well and correctly.
    I would simply say to you, Mr. Secretary, that I hope 
you'll stick to your guns on that. I think there are better 
ways for the limited Federal role to be manifested than to get 
into the business of creating a hope out there that eventually 
more and more schools are going to be able to be built with 
Federal appropriations or Federal tax expenditures.
    So I commend you and the President for making that 
statement, and I hope you'll stick to your guns. I also commend 
you for saying that maybe we need to have a national debate 
about this. There are some people in this country, and perhaps 
some people on this Subcommittee, who fundamentally feel that 
we are in a national economy, that every American is in it 
together to such an extent, that we travel to such an extent 
and move about to such an extent that really, the Federal 
Government is the proper level of government to begin to make 
significant decisions, more and more significant decisions 
about public education. And maybe we need to have that debate.
    I would simply say to you that if we move to that, if 
Americans are eventually convinced of that, it will be a grave 
mistake. Because I think we will find that the Federal 
Government will not manage education any more efficiently than 
it has managed any other number of huge projects that it has 
tried to. So I hope we'll stick to our guns on the issue that 
State and local officials that know communities are better 
able, and that we need to do, as you said so ably, make the 
Federal role better and more efficient with the money that we 
do spend.
    So that's my statement, and here's my question, Mr. 
Chairman. I've got something that I want to enter into the 
record.
    Mr. Regula. Without objection.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
            EARLY EDUCATIONAL EXPERIENCE OF SECRETARY PAIGE

    Mr. Wicker. It's an article from the Clarion Ledger in 
Jackson, Mississippi, dateline Monticello, Mississippi, talking 
about a hero's welcome for U.S. Secretary of Education Rod 
Paige, when he was able to go home again. I want to 
congratulate you on that great return home to what was 
previously Monticello Junior High. My colleagues, it has now 
been renamed Rod Paige Middle School.
    I think you're a quick study. I think the folks down at 
Monticello aren't too shabby themselves in jumping right on 
that bandwagon. [Laughter.]
    You obviously got a good education somewhere, Mr. 
Secretary.
    Secretary Paige. Monticello, Mississippi.
    Mr. Wicker. Did you get a good one there in Monticello, 
Mississippi? And tell us, what were the good things about that 
little rural school, in a community much like Pontotoc, 
Mississippi, where I was reared? And what were the negative 
aspects of that education in that little school?
    Secretary Paige. I think the positive aspects of that 
education were caring teachers that I remember even now. A 
caring community, the extended family. Specific emphasis from 
my family about education. An insistence that we pay attention 
to our teachers and do our homework and basically conduct 
ourselves in an appropriate way. Monitoring, notallowing us to 
make other decisions.
    I don't remember ever having a chance to make a decision 
whether I was going to college or not, I was going all along, I 
suppose. So I think the community, the teachers, and my parents 
were the key elements of the success of education in that 
community. And by the way, I think there were others from that 
same community.
    Mr. Wicker. And then I wanted to ask you about equipment.
    Secretary Paige. The equipment was substandard. Usually we 
had hand-me-down equipment, such as science equipment. We went 
to college without experiencing science laboratories, things 
like that, textbooks, and the exposure to a more wide range 
subject matter element from education.
    It was narrower, but I would suggest it was much deeper 
than what we have now.

            EFFECT OF SCHOOL SIZE AND STRUCTURE ON STUDENTS

    Mr. Regula. Very interesting observations. I have a couple 
questions, and I know Mr. Obey has some additional. You touched 
on school size. I live on a farm and at the end of a lane there 
is a restored little brick school house, where they had eight 
grades and one teacher. And I knew some of the people that went 
through that, and they did pretty well. In fact, Ben Fairless, 
who was a key player in the steel industry in the Fairless 
works, I think it's up in the East somewhere, went through that 
environment.
    Is there a possibility that schools are getting too large? 
Because it seems like that might generate these personal 
problems. You mentioned, I don't know about the program, what 
was that called, Mr. Obey, where they talk about not picking on 
other students?
    Mr. Obey. The Peter Yarrow program?
    Mr. Regula. Right.
    Mr. Obey. ``Don't Laugh At Me.''

                 SMALLER IS BETTER: SCHOOLS AND CLASSES

    Mr. Regula. Well, that's probably part of a feature of size 
a little bit. Do you have any observations on school size 
beyond what you made in your testimony?
    Secretary Paige. Absolutely, Mr. Chairman. Smaller is 
better.
    Mr. Regula. Very interesting.
    Secretary Paige. In fact, I think smaller schools would be 
an even stronger element for change than smaller class size. 
The small school is better.
    Mr. Regula. Very interesting, because the trend has been 
the other way. Up where I am, they want to consolidate, 
consolidate.
    Secretary Paige. It has been, because it's economically 
more advantageous. What we see across the Nation is tradeoffs 
between the effectiveness and the wherewithal to build 
buildings.

           VALUE OF STRONG TEACHER RELATIONSHIP WITH STUDENT

    Mr. Regula. You were superintendent, I'll follow up on 
that, and I was an elementary principal. We had one teacher who 
taught all day in each classroom, as opposed to having a 
multiplicity of teachers for fourth graders and fifth graders.
    Do you have any opinion on that? My prejudice was that that 
teacher would bond with those students, and they needed that in 
the early grades.
    Secretary Paige. I think the greatest determinant of 
success or failure of a young student is the quality of the 
adult relationship in their lives. At a time when families are 
under such stress, or there is less cohesion there, it is very 
important that schools be organized and run so that students 
have an opportunity to have quality adult relationships with 
quality adults.
    So when you have big classes, or are rotating teachers, 
where a student is not known well, where an adult doesn't know 
that student well, I think that that system is providing 
opportunities for failure, as opposed to the system you spoke 
about. Where schools are organized so teachers have an 
opportunity to know students well, it seems to be very 
advantageous as far as student growth is concerned.
    Mr. Regula. It's an interesting observation, and I think 
one that deserves more discussion in the world of education.

              IMPROVING LOW-PERFORMING AND FAILING SCHOOLS

    One last one. In your remarks, you said we would give 
assistance where it was needed to improve schools, in your 
opening statement. Enlarge a little bit on that as to what you 
mean by that.
    Secretary Paige. The President has set aside in his budget 
dollars to improve failing schools. A school would be 
identified as not doing well through annual assessments. And 
once the school is identified as not doing well, the President 
believes that the first approach should be to provide 
additional resources and to provide additional technical 
assistance.
    If after that fails, if in the second year, a school is not 
performing well, then the President believes that we should 
repeat our additional resources and additional technical 
assistance, with some changes inside the school. But if the 
school for three consecutive years performs poorly and is 
refusing to change, the President and I agree or feel that the 
emphasis now should be shifted to the individual students who 
are sitting in the building, and that we now should provide 
opportunities for these students to find the wherewithal or 
places where they can get the kind of education that they're 
failing to get in that school, whether that is in a public 
school or a non-public school.
    The emphasis then ceases to be on the system but on the 
child. The President and I agree it would not protect the 
system at the sacrifice of the child.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.

                            TEACHER TRAINING

    Mr. Secretary, again, in the interest of time, no 
questions. A number of observations. First of all, you talked 
about the need to improve teacher training in your statement. 
And yet I note that your budget cuts the one program that goes 
to colleges for improvement of teacher training. You cut the 
Teacher Quality Enhancement Program by 45 percent, from $98 
million to $54 million.
    I know that you have block grants to States and the school 
districts for teacher training. But the fact is that, as I 
understand it, those aren't likely to go to the universities. 
And it seems to me that universities have a long way to go in 
improving their track record in actually connecting with school 
districts to produce the kind of teachers they need to produce.

                    MEASURING THE SUCCESS OF TITLE I

    Secondly, it was asserted by one of the members of this 
subcommittee that Title I has failed. I think we need to 
recognize that from 1993 until 2000, Title I investments per 
child dropped by 17.5 percent from a little over $1,000 to $875 
per student. And secondly, I would point out that if you take a 
look at NCES evaluations of NAEP scores, they point out that 
the composition of children taking NAEP test has changed since 
the 1980s. More minority students with educational difficulties 
are taking the tests. For example, in NAEP's 2000 reading 
assessment, the percentage of Hispanic students increased to15 
percent from 9 percent in the NAEP 1992 reading assessment.
    Before we say something has succeeded or failed, we need to 
recognize there are a lot of other variables at work here. I'm 
not convinced that just looking at the numbers or percentages 
in a test tells us much until we understand the underlying 
factors.

                           DEBATE ON TESTING

    Thirdly, I can't help but be amused by the fact that we've 
had this ideological debate for several years now on testing. 
And I can recall a time when President Clinton was pushing for 
testing, and Bill Goodling, the authorizing chairman, didn't 
want the Federal government to be doing what the President was 
talking about. Now some folks have flipped roles.
    I don't care whether you test or not. I don't have a 
commitment either way. I think some testing is useful. My only 
question on testing is whether it is essential to provide a 
national model that requires a test every year. In the end, if 
you want to do it, go ahead. It will cost more money that we 
won't be able to devote to other educational improvements. I 
don't care if you test until the cows come home, so long as 
we're doing something else with the kids besides testing.

               LIMITED FEDERAL ROLE IN EDUCATION FUNDING

    And that gets to my main question. And let us put it in 
perspective. Somehow we're being told that Federal money has 
failed in education. And we look at what has happened to test 
results remaining largely static.
    I would point out that the Federal government spends less 
than 5 cents out of every dollar in the Federal budget for 
education--less than a nickel goes to education out of the 
Federal budget. Less than 7 percent of local school budgets on 
average come from the Federal budget. I find it quaint that 
somehow it is a Federal responsibility. We all do hosannas, 
hosannas to the local school districts and local power, those 
are the folks that have been largely running education for the 
last generation.
    And if you take a look at the numbers, this year you have 
approximately $400 billion being spent on elementary and 
secondary education. The Federal government supplies about $33 
billion. States supply about $190 billion. The locals supply 
$176 billion, and somehow it's the Federal government that has 
failed? Give me a break.

                    TAX CUTS AND FUNDS FOR EDUCATION

    That's not the way I read it, with all due respect to 
people who do. And it was asserted earlier, without mentioning 
me by name, that I had said if we didn't have any tax cuts, we 
could do lots of stuff for education. I will be very exact in 
what I said earlier. We have a lot of tax cuts on the Floor. We 
have passed the marriage penalty correction. We have provided 
the estate tax relief. Let's leave all of that just the way the 
majority party passed it. All I suggested was one change.
    In the rate change portion of the tax package which the 
President has proposed and which the Congress has considered, 
he reduces taxes on all five brackets. All I suggest is that we 
not reduce the tax rate on the top two brackets. That would 
have a practical impact only on people who make more than 
$200,000 a year. They would still get everything they're going 
to get on the estate tax reduction, they would still get 
everything that they're going to get under the marriage penalty 
fix. All that would happen to them is that on the narrow 
question of rate tax cuts, they would be limited in size to 
$6,700 per year in tax cuts.
    Now, I would think most people in this room would be happy 
to settle for a $6,700 tax cut. I don't know if you would. I 
certainly would. But if you did that over 10 years, you would 
save $280 billion. And all I said is that with that money, you 
could, by the year 2006, essentially raise the Federal 
contribution to about double what we provide now. And that 
would, among other things, help local school districts hire 
another 540,000 teachers, which would reduce class sizes in the 
country to 18 students.
    That's what I think we ought to do. Now, if we want to 
divvy it up some other way within the education area, fine. 
I'll be happy to deal. But it just seems to me that rather than 
getting into these side debates about whether we should test 
every other month or every other year or every other decade or 
every other century, I think we should say, okay, let's do some 
testing, but then let's put some real money into the product. 
If Ford Motor Company is going to produce a car, I want them to 
do more than run it around the test track. I want them to 
actually put more value into the product. To me, that's what we 
would do if we were really serious and added a significant 
amount of money to education, which we certainly aren't going 
to do under your education budget, with a $2.5 billion 
increase, providing less than half the average annual 
percentage increase we've had the last five years.

                   SMALL CLASSROOMS, QUALITY TEACHERS

    And with respect to small schools, I very much agree with 
you. I don't know if I think small schools are more important 
than small classes. I don't know how to measure that stuff. I 
think they're all important. I think the most important thing 
is the quality of the teacher in the classroom, if you want my 
honest opinion.

           UNIFORMITY IN TESTING, EVALUATING SCHOOL PROGRESS

    I would point out that we have a lot of problems in 
defining tests. Just one example. In 1998, Texas reported only 
1 percent of its Title I schools as low performing schools. 
North Carolina reported 4 percent. Maryland reported 6 percent. 
Michigan reported 76 percent. Kentucky reported 71 percent. 
Georgia reported 49 percent.
    It seems to me that disparity across states raises some 
severe questions about the uniformity and fairness in any 
national accounting system that would be adopted. And so all 
I'm suggesting is that we can have all these debates around the 
edges on testing and evaluation. Do whatever you want on that. 
I really don't care. What I do care about is whether in the end 
we also put enough money in to actually do something once we do 
get the test results back. And the problem is similar to what 
this budget does for the space station. The budget lets us put 
the space station up, and then it cuts back by one-third the 
research we can do when we get that bird flying. That doesn't 
seem to me to make very much sense.
    So end of speech. Feel free to make whatever comments you 
want to make. My only point is, I would like to see us really 
put education first. This budget ain't doing it. It certainly 
has put tax cuts for the wealthy ahead of a real investment in 
education. I don't think we'd be picking on the wealthiest 1 
percent of people in this country if we told them that from the 
rate cut, they're only going to get $6,700 smackeroos back. 
Boy, that's really being mean to them.
    Mr. Regula. I think, Mr. Secretary, you have a plate full 
there, and probably you are going to have to stick with 
education.
    Mr. Istook.

                  EDUCATION FUNDING AND ACCOUNTABILITY

    Mr. Istook. Thank you, Mr. Chairman.
    Secretary Paige, I'm happy to be with you. I regret that I 
was chairing a different hearing and wasn't able to be here for 
all of your testimony.
    There are a couple of things that I'd like to bring up and 
hopefully then follow up outside of this hearing separately on 
these things. Some of it of course is the big picture item. I 
realize there's a lot of debate regarding the President's 
budget, because it provides additional funding for education, 
but as you state in your testimony, simply spending more money 
in the same way is not the answer.
    I looked through, for example, the report that was issued 
about a week, 10 days ago, talking about the absence of that 
much correlation between the amount spent per pupil and the 
performance of those pupils, going through all the different 
test scores that are available out there, and finding that what 
determines whether students learn is not the extent of the 
financial investment. You had to have a certain level of 
investment. But beyond that, paying more doesn't really get you 
a better outcome.
    So the first thing I wanted to ask you about is recognizing 
that the President has put just as much emphasis on standards 
and providing an opportunity for parents, if they feel their 
child is in a school that is non-performing and is not 
providing them what they need, providing parents the ability to 
get a child into a different school, that seems to be the heart 
of the matter.
    So my question is, as far as the Administration is 
concerned, do these things go in tandem? If you don't have a 
level of reform that's sufficient, does that mean that the 
President would not be asking for spending increases to go into 
what is essentially the same program?
    Secretary Paige. I'm not sure I understand.
    Mr. Istook. It's the degree to which the President's 
request for increased spending in education is conditioned upon 
adopting the reforms that he hopes to put in place.

               EDUCATION FUNDING SHOULD MAKE A DIFFERENCE

    Secretary Paige. The President believes that we should 
increase funding for education. But the President believes this 
funding increase should make a difference. And if the funding 
is not making a difference, it is not the funding that we want 
to accomplish. What we want to accomplish is improved student 
achievement. And what we see now is that there seems to be 
little connection between these two things.
    And many who want to say that we need more funding, and we 
agree we need more funding, we don't want to be accused of not 
wanting more funding, we want more productivity from the 
funding that we're getting. And we think probably, instead of 
us having to defend the fact that we want more productivity 
from the funding that we are providing, it may be that those 
who are proposing more funding should be able to defend their 
spending money without getting results.
    Mr. Istook. I appreciate that, because I think that's the 
heart of the debate. I think your testimony stated it very 
clearly.

                PROGRAM CONSOLIDATION AND SIMPLIFICATION

    I want to express my appreciation for the efforts to 
consolidate many programs, as well as to simplify, and to 
increase the amount of options that people have at the State 
and local levels. There was one thing that relates to the 
technology that I certainly wanted to bring up--technology in 
the classroom. I think a lot of the emphasis on getting the 
benefits of technology, which has been behind so many increases 
of productivity in the U.S., which has pushed the economic 
progress that we've been making in recent years, but yet I feel 
that in many cases in education, some people are looking at 
yesterday's technology as opposed to tomorrow's technology. 
Putting in yesterday's technology won't get you ahead. You have 
to be looking at tomorrow's.

                      TECHNOLOGY FOR EVERY STUDENT

    With that in mind, and knowing of the great emphasis on 
getting computers in the classroom, I was looking at one report 
in Oklahoma recently, analyzing whether every classroom had 
computers and internet access. But I think we're getting to a 
point where really the question is not every classroom, but 
every student. As things go more portable, along with a great 
many people, I've begun carrying a handheld with me. There are 
some that have it with the Palm operating system, this 
particular one is the Windows CE operating system.
    I just find the education potential is enormous. And I want 
to follow this up with you, to what extent your department is 
working with the things for tomorrow. For example, textbook 
publishers are looking at going the e-book route. They've begun 
doing so already. It certainly saves a lot if you don't have to 
ship tons and tons and tons of heavy books across the country 
if you have it available electronically.
    This particular thing, you can tell the type on there is 
the same as the other pages in front of me. And it also has the 
advantage of making people not just generally familiar with 
technology, but when every person has this, they are 
comfortable with it. There are some schools in Illinois where 
entire high schools have gone handheld. Every student, every 
teacher. They didn't stop to wait and have a learning curve, 
they jumped right in. Because that's what the private sector 
has been doing, and finding the productivity. You not only have 
your books, but thousands of programs. Mr. Secretary, I can 
show you a very brief video of my granddaughter taking her 
first steps on this.
    Again, it's having technology where it's with you, not just 
something that is situational, if you happen to be in the 
classroom, if it happens to be connected, but what's going on 
with tomorrow's technology I think has enormous implications 
for education. You never forget your books. They're all here in 
one thing, as well as your notes. You can exchange assignments 
readily. But I'd like to discuss with you further some of the 
implications and what's being done to make it happen.
    Secretary Paige. Thank you. I would like to have that 
discussion.
    Mr. Istook. And I want you to see the video of my 
granddaughter. [Laughter.]

                            Closing Remarks

    Mr. Regula. Well, Mr. Secretary, I understand you have 
another appointment, and you've been very patient and we 
appreciate the time you've given us. If any members have 
additional questions they will be submitted for the record. We 
may or may not want to have another visit with you, depending 
on how our time and circumstances would permit.
    Mr. Kennedy. Mr. Chairman?
    Mr. Regula. We do appreciate--Mr. Kennedy.

         COGNITIVE AND SOCIAL-EMOTIONAL DEVELOPMENT OF A CHILD

    Mr. Kennedy. I gave you about 15 questions or comments in 
the course of my thing, because obviously we didn't have enough 
time to get the answers. But the thrust of it is I know the 
Administration has put a lot on cognitive development. But the 
programs that I mentioned all deal with the social-emotional 
development of a child, which are critical for the child to 
have a cognitive development.
    All those programs, IDEA, the family centers and the like, 
so I just wanted to make that point, because I don't think I 
delivered as well as I would have liked.
    Mr. Regula. Well, as you can see, Mr. Secretary, you are 
dealing, as we are, with a very important facet of American 
society. We appreciate your dedication. I know I have a number 
of things I'd like to discuss with you. And Mr. Wicker wants to 
take some pride in his hometown, so Mr. Wicker, we're going to 
give you a couple of minutes to shake his hand.
    Mr. Wicker. Wonderful. My home State.
    Mr. Regula. Our home State. That's close enough.

                     SHARED COMMITMENT TO EDUCATION

    Secretary Paige. May I just make one statement? We 
appreciate your interest in education. I know that you have 
great interest, all of the members of the Committee are as 
interested in education as we are. We have some differences in 
points of view. Our point of view is not to be hostile or to 
trash any particular State or anybody else because there are 
wonderful people all over this Nation doing good work in 
education.

                 MAKING THE FEDERAL ROLE MORE EFFECTIVE

    Our goal is to try to make the Federal role more effective. 
We believe that the Federal Government has done a great job in 
providing resources and we want to increase those resources 
that are being provided. We simply want to provide a structure 
and a culture through which those resources that we are 
providing are actually doing what we want to have happen. We 
can't measure our success by the amount of dollars that we put 
into the system. We can only measure our success by the way 
students are growing.
    And we believe that together we're trying to do the same 
thing. We just want to make that point of view clear.

                         COMMITTEE ADJOURNMENT

    Mr. Regula. And on that very positive note, the Committee 
is adjourned.
    [The following questions were submitted to be answered for 
the record.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 26, 2001.

                   ELEMENTARY AND SECONDARY EDUCATION

                               WITNESSES

THOMAS M. CORWIN, ACTING DEPUTY ASSISTANT SECRETARY FOR ELEMENTARY AND 
    SECONDARY EDUCATION
ARTHUR LOVE, ACTING DIRECTOR, OFFICE OF BILINGUAL EDUCATION AND 
    MINORITY LANGUAGE AFFAIRS
SUE BETKA, DEPUTY ASSISTANT SECRETARY FOR PROGRAM POLICY AND PLANNING, 
    OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT
THOMAS SKELLY, DIRECTOR, BUDGET SERVICE
LONNA JONES, ACTING DIRECTOR, DIVISION OF ELEMENTARY, SECONDARY, AND 
    VOCATIONAL ANALYSIS, BUDGET SERVICE
CAROL CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. Let us get the hearing started this morning.
    We are pleased to welcome all of you and we will hear about 
a variety of subjects, elementary and secondary education. You 
are the only elementary person?
    Mr. Corwin. I am representing the Office of Elementary and 
Secondary Education.
    Mr. Regula. I was an elementary principal once upon a time 
and went to law school at night for seven years, taught sixth, 
seventh and eighth graders. The last three years, I had a 20 
room school. It was great fun and I enjoyed it a lot.
    Mr. Corwin, you are going to introduce your panel? I look 
forward to hearing from all of you. I might have a few 
questions. Mr. Corwin?
    Mr. Corwin. With me today on my left is Arthur Love, our 
Acting Director of the Office of Bilingual Education and 
Minority Languages Affairs, who will be discussing the budget 
for his office; Sue Betka, the Deputy Assistant Secretary for 
Program Policy and Planning, Office of Educational Research and 
Improvement, who will discuss the budget for OERI.
    Also at the table are Tom Skelly whom you know is our 
Budget Director in the Department; Carol Cichowski, Director, 
Division of Special Education, Rehabilitation and Research 
Analysis in the Budget Service; and on my right, Lonna Jones, 
Acting Director, Division of Elementary, Secondary and 
Vocational Analysis in the Budget Service.
    Mr. Regula. A couple of you were here yesterday. Take a 
message to the Secretary that I tried to call last night and 
you close at 5:30 p.m., I found out. Tell him he did a great 
job. I was very impressed with his testimony. I thought he 
handled the questions well and I really look forward to his 
leadership in this field.
    I was for five years with the State Board of Education in 
Ohio, so I have a long time involvement in education. It is 
something of real interest to me and a great opportunity to 
make a difference in this Nation if we do it right. There are a 
lot of challenges out there.
    With that, Mr. Corwin, you are going to lead off? I will 
let you call the panel members as you choose.
    Mr. Corwin. If it is agreeable to the Chairman, I would 
like to submit my full statement for the record.
    Mr. Regula. All statements will be made a part of the 
record. You can summarize as you see fit.

                 Opening Statement by Thomas M. Corwin

    Mr. Corwin. I appreciate the opportunity to appear before 
you to discuss the President's 2002 Budget for the programs 
administered by the Office of Elementary and Secondary 
Education.
    President Bush has made improving the quality of our 
Nation's elementary and secondary schools his top priority. 
``No Child Left Behind,'' the President's framework for reform 
would apply proven strategies to strengthen Federal support for 
State and local efforts to improve our schools.
    These strategies include high State standards, annual 
testing of all students in grades three through eight in 
reading and math, increased accountability for student 
performance, reduced bureaucracy and greater flexibility for 
States, school districts and schools, and expanded options for 
parents to make choices for their children's education.
    For OESE programs, the 2002 budget request is $18.6 
billion, an increase of $562.1 million over the fiscal year 
2001 level.
    Mr. Regula. Do you do Title I?
    Mr. Corwin. Yes, sir.
    Mr. Regula. That encompasses all of your disciplines?
    Mr. Corwin. Yes, sir.

                      CLOSING THE ACHIEVEMENT GAP

    This request would fund the first year of a reauthorized 
ESEA and in particular target resources on closing the 
achievement gap between disadvantaged students and their peers.
    One of the primary means of closing the achievement gap is 
to spend the Federal investment in Title I more effectively by 
demanding greater accountability for improved student 
performance. To help districts and schools respond to this 
demand, a $9.1 billion request for Title I Grants to Local 
Educational Agencies would provide $459 million over 2001 to 
turn around failing schools, improve teacher quality and ensure 
that all students achieve to the standards at their grade 
levels.
    To give parents the information needed to know how well 
their child is doing in school and to measure the progress of 
schools in closing achievement gaps and helping all students 
reach high State standards, the request provides $320 million 
to help States develop and implement the additional State 
assessments that would be needed to test annually all students 
in grades three through eight in reading and math. States would 
design their own assessments which must be in place by the 
2004-05 school year.
    One of the keys to closing the achievement gap is improving 
the reading skills of our Nation's school children. This is why 
the President's budget includes $900 million for a new 
``Reading First'' State Grants Program to help States and 
school districts implement comprehensive readinginstruction, 
grounded in scientifically based reading research for children in 
kindergarten through third grade.
    In addition, a $75 million ``Early Reading First'' Program 
would support model programs that use scientifically based 
strategies to enhance the pre-reading skills and school 
readiness of pre-school aged children.
    The President's budget also would help close the 
achievement gap in high poverty schools by providing $846 
million for 21st Century Community Learning Centers, our after 
school program, which would be converted to a State formula 
grant program in reauthorization.

                 OTHER HIGHLIGHTS OF THE BUDGET REQUEST

    Our $2.6 billion State Grants for Improving Teacher Quality 
proposal would combine funding for Class Size Reduction, the 
Eisenhower Professional Development Program and a few other 
programs into a single performance-based grant designed to 
strengthen teacher quality at $375 million, or a 70 percent 
increase over the current level.
    The budget request also includes $817 million for a 
proposed Educational Technology State Grants Program that would 
consolidate existing educational technology programs into a 
single grant and $472 million for Choice and Innovation State 
Grants which would consolidate certain other activities.
    Other priorities in the President's budget include $644.3 
million for a streamlined Safe and Drug-Free Schools Program.
    Mr. Regula. Are most of these programs designed or are you 
just allocating by title at the moment and the way in which 
they will be implemented will be put together later on?
    Mr. Corwin. Currently, the Elementary and Secondary 
Education Act is in reauthorization. Actually, it ran out a 
couple of years ago. The authorizers tried to complete work on 
a bill in the last Congress but didn't quite get there. The 
appropriators had to go ahead and appropriate fiscal year 2001 
funds under current law.
    Our proposal for fiscal year 2002 assumes completion of 
reauthorization in time to take effect for fiscal year 2002.
    Mr. Regula. But the reauthorization would not have the 
mechanics of Reading First, and it doesn't include mentoring 
for example. The authorizers have maybe a framework but do you 
have specifics you can tell principals and teachers by which 
they can accomplish these goals?
    Mr. Corwin. There would be considerable flexibility at the 
local level. The Reading First initiative and some of the other 
initiatives emerging through the reauthorization do include 
specifics. For instance, in reading, there is now a strong body 
of research incorporated in a major report that came from the 
National Academy of Sciences (NAS) last year on reading--about 
what really works. There have been reading wars back and forth 
among different parties. The NAS put together a lot of experts, 
synthesized the research and made very powerful 
recommendations.
    The thrust of the bill coming through the authorizers now 
is to get those recommendations out into the field, take care 
of problems where reading isn't being taught well for all 
students.
    Mr. Regula. Thank you.
    Mr. Corwin. Back to Safe and Drug-Free Schools, the 
reauthorized program would more effectively provide students 
with drug and violence prevention programs and help schools 
implement strategies to improve school safety.
    The budget also maintains support for programs serving 
student populations with special educational needs. For 
instance, the request for Indian education is $116 million, a 
small increase over the current level.
    I should mention that the President's budget maintains 
level funding for the major Impact Aid programs while providing 
$150 million for Impact Aid Construction, a $137 million 
increase over the previous year.
    That concludes my summary. I would be happy to answer any 
questions you may have after my colleagues give their 
testimony.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                    Opening Statement by Arthur Love

    Mr. Love. Thank you for the opportunity to address you 
today on the issue of fiscal year 2002 appropriations for 
bilingual and immigrant education programs. I also would like 
to submit my prepared remarks and summarize them for you now.

                     History of Bilingual Education

    Mr. Love. I think it is particularly appropriate that you 
are chairing this hearing as Ohio was among the earliest States 
to establish bilingual schools in this country. They emerged as 
part of the rise of public schools in the 1830s. So this issue 
has been around for many, many years.
    Ever since then, there has been a long history of concern 
for what we now call the over 4 million limited English 
proficient (LEP) students. LEP is actually an inelegant term. 
English language learners, ELL, is much easier on the ear and 
appreciated by most of the people in the academic community who 
study this issue, but we have become so attached to LEP in 
legislation and court decisions that it is hard to get away 
from it.

                          No Child Left Behind

    President Bush specifically addressed LEP issues in his 
policy statement, ``No Child Left Behind.'' In it, he calls for 
all LEP students to achieve English fluency in three years. 
This issue is a critical one in today's schools and also in our 
society. We are concerned that some children might not receive 
the full benefits of the educational opportunity we wish for 
all our children. LEP students need to learn English quickly in 
order to obtain a good education which is the key to the door 
of opportunity in our society.
    There are no simple answers to the questions that surround 
bilingual and immigrant education issues which is why we 
support a reform that allows careful fashioning of strategy 
suited for particular situations in communities. For example, 
Latino growth has increased due to high birth rate and 
immigration, whereas Asian growth is attributed mainly to 
immigration alone. Two-thirds of the immigrant population are 
Hispanics but different ethnic groups of Hispanics have settled 
in different geographical patterns. Hispanics share the same 
language but have very different customs. Asian groups have 
distinctly different languages. These is no one-size-fits-all 
when discussing immigrants and LEP students and Washington does 
not have all the answers.

                     Change In Immigration Patterns

    For a solution, we need collaboration, we need our programs 
to be research-based and data-driven. We need new ideas and the 
dedication of effectively trained teachers. Just this week, the 
Brookings Institution released information concerning 
immigrants and patterns of growth in the Washington area. For 
example, this study reports that immigrants are settling in the 
Washington area not in concentrations but they are dispersed 
all over the geographical region and beyond the Beltway, 
creating ``melting pot'' suburbs.
    Historically, immigrants often settled in concentrated 
communities in the inner city but now nearly every school in 
this entire metro region, as well as all around the country, 
needs to be ready to deal with issues resulting from immigrant 
settlement.
    In the past, LEP students may have been concentrated in 
enclaves but now LEP students may be found anywhere, anytime, 
in any school, and schools that have never thought about this 
issue must now face how they can effectively teach English to 
these students and help them achieve at a high competency level 
in all their academic subjects.
    Our desire is to work collaboratively with States, schools, 
communities, bilingual and immigrant advocacy groups, educators 
and parents to promote solutions to help LEP students achieve 
English fluency. To help us achieve the goals of ``No Child 
Left Behind'' we are requesting $460 million as the Federal 
share for this immense task for fiscal year 2002.
    I would be pleased to answer any questions you may have at 
the appropriate time.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                     Opening Statement by Sue Betka

    Ms. Betka. I am pleased to be here to discuss the 
President's budget request for the Office of Educational 
Research and Improvement.
    The President and the Secretary firmly believe that in 
order to improve student achievement, educators must seek out 
and use effective research based practices and programs. In 
addition, reliable data and statistics are essential as 
policymakers at all levels make any number of decisions about 
education improvement efforts.
    Without question, research and development, statistics and 
assessment, and dissemination and technical assistancecomprise 
a vitally important Federal role as the Nation works to improve the 
quality of teaching and the level of student achievement.

                Research, Development and Dissemination

    For research, development and dissemination, we are 
requesting $188 million. This funding would support the 
research activities of OERI's five national institutes, 
interagency research efforts, regional educational laboratories 
and various dissemination activities. The request constitutes 
an increase of only $2.5 million.
    I would like to highlight six of the specific activities 
this $188 million would support. First are the sustained 
research programs carried out by university R&D centers in 
important areas such as early childhood development, testing 
and assessment, education policy, adult learning and literacy.
    Second are field initiated research studies that address 
topics individual investigators consider worthy of study and 
that peer reviewers find of high quality.
    Third is a collaborative effort of OERI, the National 
Science Foundation and the National Institute of Child Health 
and Human Development (NICHD). Its purpose is to support 
rigorous, large scale studies that attempt to bridge research 
and practice by learning how to take highly promising 
educational interventions to scale, to improve teaching and 
learning of reading, math and science.
    Fourth is another collaboration between OERI and NICHD. It 
is designed to help us understand factors that influence the 
development of English literacy in children whose first 
language is Spanish. With additional funds in 2002, we intend 
to expand this initiative to include other language groups.
    Fifth is the development of new models of comprehensive 
school reform and research on the effectiveness of existing 
models.
    Sixth are the regional educational laboratories, which play 
a role in linking research, policy and practice. The labs 
develop products and strategies and provide training and 
technical assistance to help schools in their regions improve 
student achievement.

                       Statistics and Assessment

    We are requesting $190 million for the statistics and 
assessment activities of the National Center for Education 
Statistics (NCES) and $4 million to support the National 
Assessment Governing Board. NCES helps the Nation gauge the 
condition and progress of education by collecting, analyzing 
and reporting data on all levels of the enterprise, from pre-
primary education through graduate study and adult education. 
The policy issues addressed by its data collections are equally 
wide ranging.
    We are requesting a $5 million increase for NCES exclusive 
of the National Assessment of Educational Progress (NAEP). This 
increase is needed for the national assessment of adult 
literacy which will be conducted next year. Without the 
additional funds, NCES will not be able to report results from 
important subgroups of the population.
    The major increase requested by the President for this 
account for fiscal year 2002 is an increase of $69 million for 
the National Assessment of Educational Progress. The national 
assessment is the only nationally representative and continuing 
assessment of what American students know and can do. 
Currently, nationally representative data are collected every 
two years for students in grades four, eight and twelve and 
State representative data are collected for students in grades 
four and eight in States that wish to participate.
    As Mr. Corwin mentioned, the President's ``No Child Left 
Behind'' plan requires States to participate in these State 
representative assessments on an annual basis. As is now the 
case, the assessments would involve only samples of students in 
each State. These students in fourth and eighth grades would be 
tested in reading and mathematics. The results would be used in 
conjunction with results from the States' own assessments to 
determine which States would receive rewards and sanctions 
under the ESEA. While States would be required to participate, 
the Federal Government would assume all costs associated with 
this annual testing. The increase in our request represents the 
increase in costs associated with these annual State 
representative assessments.
    That concludes my statement. My colleagues and I will be 
happy to respond to any of your questions.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T4834A.091
    
    [GRAPHIC] [TIFF OMITTED] T4834A.092
    
    [GRAPHIC] [TIFF OMITTED] T4834A.093
    
    [GRAPHIC] [TIFF OMITTED] T4834A.094
    
    [GRAPHIC] [TIFF OMITTED] T4834A.095
    
    [GRAPHIC] [TIFF OMITTED] T4834A.096
    
                       Standards and Assessments

    Mr. Regula. Mr. Corwin, you mentioned high standards. Who 
develops the standards, who is to say what is a high standard 
in elementary education?
    Mr. Corwin. The way the Title I statute works now--and this 
would not be altered under reauthorization--each State has to 
develop challenging content standards and challenging 
performance standards. The standards are supposed to reflect 
what children should know and be able to do at different stages 
in their education, and each State has to determine a basic 
level, a proficient level and a higher level--an advanced 
level. They are then to align their assessments with that and 
hopefully their curriculum and so forth.
    The Act is very clear that the Federal Government does not 
determine the standards and, in fact, the Department is 
prohibited from reviewing and approving the standards.
    Mr. Regula. That is what bothers me a little. You are going 
to say to either an individual school system or a State system, 
you are not measuring up but if the State sets the standard and 
they are at risk for losing Federal money, what is to prevent 
their standard from being substantially lower than the standard 
of State B? There are some dangers ofinequities resulting from 
that in the distribution of Federal assistance. How do you address 
that?
    Mr. Corwin. There would be dangers. That is why the 
President's proposal calls for each State to participate in the 
National Assessment of Educational Progress, which is one 
common standard across the different States.
    Mr. Regula. Is that done by testing?
    Mr. Corwin. That is done by testing, administered by our 
National Center for Education Statistics.
    Mr. Regula. So the State would have two sets of tests, 
their own for assessment and also test them on this national 
test?
    Mr. Corwin. The States would administer their own tests at 
grades three through eight for all of their students with their 
own test. NAEP comes in on a sampling basis and hits grades 
four and eight.
    Ms. Betka. Grades four and eight, 2,500 students at each 
grade for each subject, so about 10,000 students.
    Mr. Regula. In the whole State?
    Ms. Betka. Yes.

                DIFFERENCES BETWEEN STATE TESTS AND NAEP

    Mr. Regula. I will yield to you.
    Mrs. Northup. Let me go back. Basically, as I understand, 
right now the State does it child by child, third through 
eight, and the President's proposal is to give each parent and 
each child an idea of how that child is measuring up every 
single year.
    NAEP in a sense audits the results at fourth and eighth 
grade to see whether or not on a national standard the children 
are learning at a higher level, like we are doing now. 
Unfortunately, right now, how many States do not partake, is it 
eight?
    Ms. Betka. In the most recent assessment, ten States did 
not participate.
    Mrs. Northup. So it is like the accountants at a bank who 
check every account and monitor it and give you an idea of how 
every account is moving, but at the end of the year, the 
auditors come in and pull out a sample to say, yes, the 
standards are being met or no, they are not. The goal every 
year is to see how your child is moving through school each 
year in terms of these key subject areas.
    If you set low standards, it is true, the fourth grade is 
not going to measure up on national standards to higher levels 
and the State will be held accountable.
    Mr. Corwin. The State would not receive a bonus from the 
Federal Government for making progress when the NAEP shows they 
are really not making progress.
    Mr. Regula. How is this information transmitted to the 
parent?
    Mr. Corwin. To back up a bit, the Administration has not 
set forth a bill but we are working closely with the committees 
in both the House and Senate. The bills emerging from the 
authorizing committees would require the test results to be 
sent home to the parents, they be put on the Internet, and they 
be made broadly available to the public through the Internet 
and other means.
    Mr. Regula. Wouldn't the fourth grade be a little late 
though? My own experience is the lower the grade, the more 
important is the experience.
    Mr. Corwin. It would actually start in third grade in the 
States. Below that, there are a lot more issues in testing as 
the students are just beginning to read, it is harder to test 
them in the other subjects and so forth. There may be some 
language in the bill about diagnostics but not the sort of 
rigorous publicly accountable testing we are talking beginning 
in grade three.
    Mr. Regula. Mr. Hoyer, do you have anything on this 
subject? I thought it would be interesting to take it subject 
by subject.
    Mr. Hoyer. Can you describe how the President's proposal 
differs substantively from the proposal that President Clinton 
made for voluntary testing?
    Mr. Corwin. There isn't a proposal for a voluntary national 
test. President Bush's plan would have the States devise their 
own tests for grades three through eight in reading and math 
and also require the States to participate in what we call 
State NAEP.
    Mr. Hoyer. So the answer to Mr. Regula's question is there 
would be different standards?
    Mr. Corwin. Yes, there would be different standards.
    Mr. Hoyer. So the parent in Mississippi whose child 
probably will work someplace other than Mississippi, the nature 
of America, would not know whether or not his or her child was 
competitive with the child from New York or California, Florida 
or Wisconsin?
    Mr. Corwin. That is the purpose of the requirement for 
their participation in NAEP so that you would be able to make 
those State-by-State comparisons.

                  PURPOSES OF THE STATE TESTS AND NAEP

    Mrs. Northup. I think one of the things with testing that 
is a difficult concept is there are some tests that give you 
insight about what every single child has done. Generally, that 
is what parents are interested in. They even break it down, do 
they add, do they subtract, do they multiply, all but guess 
what, they can't do fractions. It is that specific, what you 
get from CTBS. That would be the every year test.
    There are other tests designed to give an idea of what the 
overall educational picture looks like. In Kentucky, which has 
been praised by both Secretary Riley and Secretary Paige, we 
have a couple of problems and testing is something we have 
learned about the hard way.
    One of those is that it is one thing to judge student by 
student; it is another type of test that you take to judge the 
overall school population and the overall State population. For 
example, someone mentioned yesterday that had these concepts 
confused, what about a child that changes from one school to 
the next, what about the school population that has a higher 
number of children with learning disabilities? How is it fair 
to judge the school by the child?
    The answer is that when you have each child taking the 
test, the child with the learning disability still should 
progress but they shouldn't be judged against the student in 
the other school that may be a magnet for advanced placement. 
So there is one type of test you give that is for each child 
and what they have learned and it is a different type of test 
you give to survey whether or not the overall system is 
progressing.
    If we had passed the compulsory test or the national test 
the previous President and Administration supported, that 
wouldn't have done away with the need for NAEP because you get 
a different type of information with the individual test by 
test, child by child, year by year than you get when you are 
trying to survey about whether a system is working.
    Mr. Hoyer. Will you yield?
    Mrs. Northup. Sure.

                           H.R. 1 AND TESTING

    Mr. Hoyer. It is my understanding that your answer was 
correct, Mr. Corwin. You are in a difficult position, all ofyou 
are, you are acting so you really cannot articulate the policy other 
than to say what it is. Your answer was correct, that is the 
President's proposal but I understand that is not what is in H.R. 1 
which is the reauthorization bill that has been introduced by Mr. 
Boehner, who in H.R. 1 does not mandate the use of NAEP and States have 
the option.
    If you do not have a national participation, H.R. 1 
apparently does not require NAEP----
    Mrs. Northup. I thought it did. I was under the impression 
that it did.
    Mr. Hoyer. Apparently it does not. It says States have the 
ability to use another test.
    Mr. Corwin. H.R. 1 was something of a placeholder. 
Considerable negotiation has gone on since that bill was 
introduced. At this point I think the Secretary is saying that 
if there is another ``gold standard'' out there, that is not 
NAEP but would be the second opinion needed on whether the 
State is actually making progress, we are willing to look at 
it. Maybe the State could come in with that other second 
opinion. The one we know of right now is NAEP.
    Mr. Hoyer. That is not the one Mr. Bonior knows of, my 
point being that at this point in time, apparently there is not 
agreement--the Secretary says if there is another national 
standard out there, but what President Clinton proposed was 
having a national standard that was voluntary, that the States 
did not have to use but that was voluntary so that the parents 
in Mississippi or Wisconsin or Maryland could say--they want to 
know yes, it is nice my school system has a standard and are 
meeting that standard but as the Chairman points out, if that 
standard is way below three or four other States, that is a 
problem.
    Mrs. Northup. There are a couple of problems here. First of 
all, let me reiterate, it is two different things when you want 
the information about every year, what does a child know, do 
they add, do they subtract, they are weak on fractions, they 
are great on multiplication. It is that detailed what you get. 
That is something that is child by child.
    If you decide you will go from advanced program to 
mainstreaming every child, you won't change what a school looks 
like because basically, the test follows the child's progress. 
It is an entirely different thing to survey whether or not the 
State is moving towards higher standards.
    Whether it is the NAEP test or something else, like you 
said, H.R. 1 is just a placeholder but whatever we come up 
with, it will not be a test that every child takes. It will be 
a test that 2,500 children take that gives you the survey of 
the schools, the audit.
    The final thing is when you have one test, the political 
pressure on the deliverer of the test is to show that the 
students improve from year to year. In fact, that is what 
happened in Kentucky. We spent over $100 million being the 
leader in the country, but what did that test deliverer 
understand? That the governor's success would be relative to 
whether or not the students improve from year to year. So the 
test got slightly easier.
    Finally, when it became sort of palpable was what was going 
on, they required everybody to take CTBS, a national test off 
the shelf and nobody had improved.
    The problem with one national test is that it is subject to 
political influence whereas if you have CTBS, no one State 
controls the mix. It is much less likely to be politicized, to 
be written in a way to make a specific political group be 
better.
    Mr. Regula. I think this debate illustrates what confronts 
the authorizers in trying to structure it.
    Mr. Sherwood, we are kind of going informal, subject by 
subject but this is important stuff. Since there aren't that 
many here, I don't know if you would like to weigh in on 
testing and then we will move on to some of the other topics?

                             READING FIRST

    Mr. Sherwood. I believe in testing but what I am interested 
in is your Reading First proposal and how it is going to work. 
In my 20 years in public education, I thought the Title I money 
was not real effective. I am wondering what is different. Mr. 
Paige showed us the very dramatic graph of how performance 
stayed stable and funding rose dramatically.
    Specifically, how are we going to change that, how are we 
going to break that cycle, what is going to make Reading First 
work?
    Mr. Corwin. That is a good question. We are getting it from 
different parties.
    Reading First is going to build on what we have been doing 
the last three years through the Reading Excellence Act 
Congress passed in 1998, and which said that you get this money 
at the State level competitively only if you can come in with a 
proposal that really reflects the latest research on teaching 
children to read effectively by the third grade. At this stage, 
I believe only 27 States have passed that threshold and 
received a competitive grant.
    While we haven't scientifically evaluated it, the initial 
results seem very promising. A lot of good things are out 
there. I think enough people have determined that it is not a 
mystery about how to teach children to read, the research is 
there, and the instructional practices are there.
    The intent of Reading First is to expand it to all States. 
We would still have to get peer review, still not pass out the 
formula grant until they could show us that they will follow 
the intent of the law and implement programs that reflect 
scientifically based reading research.
    Through the State, they will have competitions for 
districts, particularly those that lag and have concentrations 
of poor kids that tend to show up poorly on State assessments, 
and bring them up to speed in reading.
    We don't really discuss this but my personal hope is that 
those same practices get embedded in Title I so you begin to 
see more broadly the kind of results you feel you haven't seen 
yet from Title I.
    Mr. Sherwood. Do I understand that for an individual school 
district to receive one of these grants, the State has to 
qualify first?
    Mr. Corwin. The State would receive a formula grant but 
there would be rigorous review of that formula grant 
application. The individual school district would have to 
compete for the money within the State on the basis of quality.
    Mr. Sherwood. The individual school district can't go to 
the dance unless the State meets certain overall requirements?
    Mr. Corwin. Yes, sir.
    Mr. Sherwood. Isn't that going to defeat our ``No Child 
Left Behind'' because suppose you have a school district that 
is pretty heads up and wants to do things, knows they have 
problems but can't get by the fact their State didn't perform 
as a whole?
    Mr. Corwin. Unlike current law, where only 27 States have 
received these grants, we hope all States would come in. They 
may not come in the first day, may take a couple of months to 
work with the experts on their proposals but they would all 
participate--not every school district, you can't do that.
    Mr. Sherwood. I understand not every school district. What 
I was concerned about was a school district that is willing to 
all they need to do to improve but if the State hasn't 
satisfied the requirements, they won't be able to participate.
    Mr. Corwin. Again, perhaps not in the first month but our 
intent is to get all States participating in this one.
    Mr. Regula. I think what we will do is move on and then 
come back because these are two extremely important topics.

                 POLITICIZATION OF THE TESTING PROCESS

    Mr. Hoyer. Ms. Betka, the concern Mrs. Northup raises is 
the politicization of the testing process to show good 
political results as opposed to academic or intellectual 
results. I understand what you are saying.
    It is my understanding that NAEP was started in 1971. Has 
there been an allegation that test has been politicized ever?
    Mrs. Northup. No one said the word politicized; I said it 
turned out the results were not legitimate. In fact, the 
contract in the end was canceled.
    Mr. Hoyer. This is Kentucky's experience presumably, not 
related to NAEP but related to the test you used in Kentucky. 
My point was in terms of assessment from State to State so that 
I know my child is being educated in a way they will be able to 
compete with students from California, New York and Florida as 
well as with kids from Japan, China, West Germany and England, 
but some way a parent knows my child is being educated 
competitively so they will be able to compete in the 
marketplace.
    I don't know of any allegations that NAEP assessment 
testing has been politicized in any way other than to try to 
reflect nationally a standard of accomplishment which I 
understood the President to say in his State of the Union 
address where we need to determine whether or not kids can read 
and write.
    Mrs. Northup. No, it is actually the NAEP audit that gave 
Kentucky parents the insight that the individual tests their 
children were taking which showed improvement, wasn't really 
showing up on an audit. The State's overall results were 
improving dramatically while our scoring on NAEP stayed level.
    Mr. Regula. So you are saying NAEP was legitimate?
    Mr. Hoyer. My question was with respect to Clinton's 
voluntary program, he said we ought to have some way a parent 
and a State can voluntarily participate in an assessment 
program which tells them where their child is vis a vis other 
children in the country. Is that correct?
    Mr. Corwin. That is my recollection.
    Mr. Regula. I think we need to move on.
    Mr. Hoyer. There was opposition to that obviously.
    Mr. Regula. There is some challenge to all the things 
transpiring in H.R. 1.
    Mr. Hoyer. I am trying to figure out the difference in what 
we are now trying to accomplish.
    Ms. Betka. NAEP does not provide individual student 
results.

                            ENGLISH FLUENCY

    Mr. Regula. When you use the term English fluency are you 
talking about using proper English grammar or students who are 
not proficient in English because they speak another language? 
I was talking with a group of lawyers and their big complaint 
was they get young lawyers who cannot construct a complete 
sentence; their grammar is deficient. I was curious as to 
whether or not when you talk about English fluency, are you 
talking about the ability to use the language properly or are 
you talking about where people have a language other than 
English?
    Mr. Love. It is not a simple question. It is much more than 
simply to be able to order a hamburger in English. The key is 
that we want these students to be able to achieve at a high 
academic level in other subjects, to be able to master 
education and all the other subjects they have to have a 
command of the English language.
    Mr. Regula. You are talking communication.
    Mr. Love. Both. We find there is research data showing two 
different levels to this. You could say a child can learn to 
communicate well at the playground level and be able to get 
along, to have communication, to have social relations, yet not 
have a command of the English language. We say you have to have 
both, that ability to communicate but also the higher level 
skill to be able to achieve in all academic subjects.
    Mr. Regula. Mr. Hoyer?
    Mr. Hoyer. No.
    Mr. Regula. Mrs. Northup?
    Mrs. Northup. No.
    Mr. Regula. Mr. Sherwood?

                   PERCENTAGE OF STUDENTS WHO ARE LEP

    Mr. Sherwood. I think you answered the Chairman's question 
but where are we statistically? How big a problem is this? What 
are the demands on our resources? I want a better handle on the 
percentage of elementary students in the country we think are 
deficient in English. I don't mean deficient in being properly 
instructed in all the grammar; I mean deficient in being able 
to communicate in society, that is where you have to start.
    We know this is a very big problem in pockets of the 
country. I want an idea of how big a problem it is on a global 
scale. Is this 20 percent of our students, 12 percent or 38 
percent?
    Mr. Love. I don't know what the total population is.
    Mr. Skelly. We think the LEP population is over 3.3 million 
students. On a percentage basis, and this is a little old, but 
in 1994, LEP students represented between 6 and 8 percent of 
students enrolled in public schools. That varied by State. Some 
States such as California, New York and Texas had a larger 
percentage.
    Mr. Sherwood. I will bet we have a lot bigger percentage 
than that nine year old data.
    Mr. Love. In my opening comments I mentioned there are 
currently over 4 million LEP students. There is a lag time with 
the reporting of actual hard data, which are about three years 
old and show that it is about 3.7 million. We know for the 
school year, 2000-2001, there are well over 4 million LEP 
students. We know what the population is. The definitional term 
is basically LEP students lack enough English skills to be able 
to achieve well in academic subjects.
    It is not something you can approach with scientific 
precision. It is a changing thing over the past decade.

                      LIMITED ENGLISH PROFICIENCY

    Mr. Corwin. We should clarify that limited English 
proficient refers to students whose proficiency is based on 
their comingto English as a second language, not any student 
who has trouble with grammar.
    Mr. Sherwood. I understand that. My personal experience is 
this is a rapidly rolling phenomena across the country. Ten or 
twelve years ago we thought elementary students where English 
was a second language were relegated to certain pockets of the 
country. My experience is with economic changes and so forth, 
that is not true. In all the rural school districts in the 
northeast, there are some kids that have English as a second 
language and we were not used to that.
    Mr. Love. You are exactly right. One comment I made was any 
school, anytime. This is a phenomena that is basically 
nationwide now. We have to be ready--every school has to be 
ready--to address this problem. We have lots of cases, lots of 
anecdotal information, particularly in the south that supports 
this.

                         LEARNING TWO LANGUAGES

    Mr. Sherwood. It is a great opportunity if it could be 
managed. It is a great opportunity for the rest of the students 
to be exposed to a second language. I imagine that takes a 
great deal of management in the school district. In a school 
district with resources and forward thinking, I could see that 
could be incorporated in the curriculum wonderfully. I will bet 
we are just putting out the fires rather than seeing where we 
could use the heat.
    Mr. Love. We tried to promote the idea that basically any 
higher level educational experience, like learning another 
language, is basically good for children. We have to make sure 
we achieve the fundamental which is if a child doesn't learn 
English, they are not adequately prepared. We have to keep an 
eye on the fires, but try to use the opportunity to make sure 
we create opportunities where we can for this higher level 
functioning for students to allow them to not just get by but 
to actually excel in their educational experience.

                   NCES DATA COLLECTION AND ANALYSIS

    Mr. Regula. We will move on to Ms. Betka. You are in the 
statistics field and I have a couple of questions.
    Who uses the statistics? Do you try to avoid duplication of 
universities or State boards of education or departments of 
education in gathering statistics so we don't just get 
statistics for the sake of statistics?
    Do you do any statistical analysis of school size? 
Yesterday the Secretary testified that school size can become a 
problem. That is happening in a lot of areas where they are 
consolidating schools and this may not necessarily be the best 
management practice for the student.
    Have you done any statistical analysis on the school size 
versus class size in the elementary grades as to what the 
social impact as well as the educational impact is on the 
student?
    Ms. Betka. I will start with who uses the data. That varies 
a lot. Members of Congress and congressional staff use them, 
associations, policymakers at all levels, and even 
practitioners. I think the NCES data are widely used.
    Mr. Regula. Do you interpret the data as you share it with 
these groups or say here are raw numbers, you decide what it 
means?
    Ms. Betka. NCES analyzes the data and provides correlations 
and those sorts of analyses. NCES does not attempt to explain 
why. Their data are not adequate to establish cause in most 
cases. Certainly the data they provide illuminate problems and 
indicate how students are doing, the size of school districts, 
enrollments, the number of teachers and salaries, student/
teacher ratios, a wide variety of data.
    Regarding duplication, NCES collects data through the 
States to a large extent. The Common Core of Data are data 
collected from State administrative records. The data originate 
at the school level and are aggregated at the district and 
State level and reported to NCES. Certainly we attempt not to 
duplicate the data collection efforts of others. It is very 
important to NCES that their data be nationally representative, 
so we cannot just rely on others to collect and analyze all the 
data.
    Regarding the size of schools, I will need to get back to 
you about that.
    [The information follows:]

                              School Size

    NCES does collect data on school size and does some statistical 
analysis based on school size. For example, the Digest of Education 
Statistics provides trend data on school size, with data from 1982-83 
to 1998-99. The Common Core of Data captures school size data by State 
and local district, race, and free lunch eligibles. The 1993-94 Schools 
and Staffing Survey (SASS) has teacher characteristic data by school 
size, and the 2000 SASS will contain information on school 
characteristics, teacher characteristics, and principal characteristics 
by school size. SASS doesn't collect data on achievement or school 
crime by school size. The National Assessment of Educational Progress 
has produced some special tables on achievement and school size.

    Ms. Betka. I'm not sure we have data on the size of all 
U.S. schools. Certainly we have information about urban and 
rural schools and sample data, but I don't know that we have 
comprehensive data on school size.
    Mr. Regula. You don't try to evaluate the value of the 
education in the large versus smaller school environment?
    Ms. Betka. That would be more of a research study than the 
kind of analysis NCES would conduct.
    Mr. Regula. Mr. Hoyer?

                         COMPREHENSIVE SERVICES

    Mr. Hoyer. We have level funded 21st Century Schools but it 
is my understanding the Administration's plans are to also 
block grant that?
    Mr. Corwin. Not to block grant it but to convert it to a 
State formula program. It grew from $1 million maybe half a 
dozen years ago to over $800 million now. It is past the point 
where it can be effectively managed through national 
discretionary grants. We do not have the people to do that, so 
we would propose to turn it over to the States.
    Mr. Hoyer. As you know from a lot of hearings on this, I am 
very interested in comprehensive schools, full service schools. 
We are pursuing that in Maryland. One of the things we are 
doing are the Judy centers which are one to five.
    What in this budget will be available to encourage andhelp 
the consolidation of services to maximize results and maximize the 
ability of parents and students to access services at an elementary or 
middle school in a comprehensive way?
    Mr. Corwin. There is not a specific line item focused on 
that, but there are a number of programs under which districts 
and schools can do it. I think 21st Century Schools is a good 
example. You use the school building. The way it has evolved, 
it is an after-school program. There is a focus in the program 
on academic enrichment but there are a lot of other services 
that get delivered through the 21st Century as well--
recreational, social services and so forth. It is going to 
vary, but every one of those 21st Century grants provides a 
number of services--none are just doing one thing. I think the 
law says they have to have at least four.
    I think Title I clearly focuses on the academic, but there 
is also room in there and encouragement in the statute to bring 
the other services into play, because the academic is not going 
to do it by itself.
    I think our migrant programs are very strong on 
coordination and services. The kids are in the camps, maybe 
they need homework and academic enrichment and they frequently 
need basic health care. We are not going to pay for the basic 
health care most of the time but can ensure they get to the 
dentist or physician and the family can get other social 
services they need.

                         COMPREHENSIVE SCHOOLS

    Mr. Hoyer. Do you know what the Secretary's view is? Texas 
has a number of comprehensive schools, multiservice 
availability within the framework of schools. Do you know 
whether there is any discussion looking at that?
    I can't believe there is anybody that doesn't agree with 
the President that we ought to have policies and programs 
designed to leave no child behind. One of the concerns I have 
is we have a Head Start Program that President Reagan said 
works, President Bush said works, President Clinton said works 
and I presume this President Bush believes it works. If that is 
the case, we are providing somewhere in the neighborhood of 50 
percent seats for the children that are eligible to 
participate. Only about half of the eligible children have 
seats in Head Start.
    The greater utilization of comprehensive services and co-
location, the better investment we will make in a school 
building. We can utilize that more fully--Head Start, child 
care, health services. The irony is dental service. There is 
only one program at the Federal level that requires children 
from economically disadvantaged to have their teeth checked. It 
is their baby teeth. There is no availability once you get 
permanent teeth. Obviously oral health is very related to other 
kinds of health.
    That is one example of if we co-located some of the 
services, we utilize our schools better, we make them more 
accessible for families who have trouble accessing services.
    It seems to me if we are going to leave no child behind, we 
know a child's education is related to the child's health and 
other services as well as family stability. To the extent we 
have full service schools, we will maximize our ability to 
leave no child behind.
    I wish you would take back my focus on that. I want to 
discuss it with him and would like various department heads to 
discuss it also. Obviously statistically that is important.

                            READING RESEARCH

    We have had some very compelling testimony from Dr. 
Alexander with reference to success and Mrs. Northup is 
familiar with this that implementation of an NICHD program in 
the District of Columbia has had dramatic results. Can any of 
you comment on that? Do you know what I am talking about in 
terms of the ability to read, how reading is taught, NICHD 
research then applied where you can get teachers in the 
classroom in a relatively short period of time with a program 
apparently having dramatic results in the District among 
educationally deprived, economically deprived children?
    Mr. Corwin. I am somewhat aware of the NICHD reading 
research. I am not aware of the project.
    Ms. Betka. I am aware of the project but I don't know 
specifically about the results.
    Mr. Regula. I think the school the President visited in 
D.C. was the one that NIH worked with on this program. It 
seemed to have had some dramatic results.
    Mr. Hoyer. I would yield to Mrs. Northup.
    Mrs. Northup. I cannot tell you how depressing it is to see 
sort of blank faces. The reason this even happened was NICHD, 
the first year I was elected, testified about their 20 years of 
research. I never heard that in Kentucky all the years I was on 
the education panel on implementation of school reform.
    Two weeks later when the Secretary testified, that was my 
first question to him, what are you doing to connect what we 
know through research to the classroom? There was everybody 
looking around at staff like, what research? I have never heard 
of it. I don't blame anyone, it is just the right hand not 
knowing what the left hand is doing.
    That is why we wrote into the budget bill and funded the 
National Reading Panel. There was some reluctance by the 
Department of Education to collaborate in appointing people to 
it. To the Department of Education's credit, they did invest 
and did become involved. It did its work and reported last 
year.
    Here we are four years later asking--are you aware? All 
along last year the question was, how are we going to connect 
this research to the classroom? We now have the National 
Reading Panel. Everybody is looking around like vaguely that 
rings a bell.
    Mr. Corwin. The reading proposal in the President's budget 
is based on NICHD work.
    Mrs. Northup. These are the departments that are going to 
implement it.
    Mr. Corwin. We wouldn't have expertise on the one school in 
D.C. I personally couldn't cite chapter and verse on the NICHD 
research, but I try to stay on top of those things.
    Mrs. Northup. It is not one school, it is nine schools. 
They have been extensively written up in magazines and papers.
    Mr. Hoyer. The entire committee found Dr. Alexander's 
testimony compelling. Both Mrs. Northup and I had been involved 
before that so we knew something about it, but those that did 
not know something about it were very taken by it because the 
results are so dramatic and because the need is so great and 
leaving no child behind, we know if a child cannot read well, 
they are going to be left behind, they will drop out of school 
and will be in trouble. If they can read, they will feel 
involved and able. So it is the critical nature of leaving no 
child behind that this program deals with.
    I would urge you to take back to the Secretary that we 
pursue this. Our staffs are working on this and I would like to 
put some substantial money in this bill to see adissemination 
of this program. We are not going to administer the program but we need 
to teach people around the country what this research is, the effects 
it has, so they can implement it because it works.
    Ms. Betka. We have an early reading research center we are 
funding out of OERI and it is working with the National 
Institute for Literacy and NICHD to develop a guide for 
teachers to help them implement the reading panel findings. We 
are working on a product right now to share widely with 
teachers.
    Mr. Regula. Mr. Sherwood?
    Mr Sherwood. No thank you.
    Mr. Regula. Mr. Jackson?

                    INEQUITIES IN EDUCATION FUNDING

    Mr. Jackson. I wasn't going to ask a question but I do want 
to apologize for being a bit late. My colleague, Steny Hoyer, 
has mentioned leave no child behind so many times this morning 
that I feel compelled to at least ask the Secretary a question 
or two about the goal of leaving no child behind.
    One of the questions I asked the Secretary yesterday is it 
appears the goal of leaving no child behind is indeed a lofty 
one and all the more complicated in that we have 50 different 
States, 50 different systems, with 50 different State 
legislatures who have prioritized education somewhat 
differently in their States. Some have a debt reduction 
priority, others have deficit reduction priority, others have 
infrastructure priorities which means in the 50 States, 
education is going to take a slightly different priority than 
education and the priority for education in Illinois based upon 
the revenue that a State can spend on education is slightly 
different in the State of Mississippi or Alabama.
    I shared with the Secretary my district was formerly an 
industrial based one and we drew most of our revenue from 
industrial based steel mills no longer in our district. The 
economy shifted from an industrial based economy to a service 
based economy--hotels, Hyatt, Fairmont in downtown Chicago 
which is the primary economic generator then service based--and 
now it is information based. There are very few information 
based entities in our district from which we can draw taxable 
revenue to fund our local schools. Many of these industries 
find themselves in the west. So the economy at that level has 
moved from the southside of Chicago to downtown Chicago and on 
to the West Coast in Silicon Valley. Clearly public education 
in Silicon Valley is different than an agriculture based 
education system where their revenue comes from agriculture. 
Taxing Microsoft and taxing these entities is different than 
taxing corn to provide children with an education.
    Here is the size and scope of the problem. There are 53 
million kids in our public schools across the country in 50 
States and 85,000 public schools and 15,000 local school 
districts. If our goal is to leave no child behind, I am 
interested in how you can provide an equal, high quality 
education for every child without overcoming the limitations of 
State centered federalism on many of the questions that can 
close the gap when we have an agriculture economy that cannot 
possibly fund schools like the high tech economy or like the 
service based economy does that.
    I asked that question yesterday and I am interested in your 
answer. I might also add I am also interested in whether or not 
you have indicated to the President that State centered 
federalism is indeed a barrier to trying to achieve the lofty 
goal of leaving no child behind?

                           FEDERAL ASSISTANCE

    Mr. Corwin. I did hear your dialogue yesterday. There is 
not a lot I can add to it. I am acting in the position now, I 
don't get into the situation where I can bring things directly 
to the President but these are things we do discuss in the 
Department.
    There is probably not a lot at the Federal level we can do, 
with our 7 percent of the money, to make up for all of the 
disparities and inequities embodied in school finance at the 
State level, including differences in resources and wealth 
levels among the different States. To me what we ought to be 
doing is putting into the law and implementing formulas that 
try to overcome, to the extent we can, the disparities with our 
Federal money. We do better than the States. The Federal money 
is something like 2-1/2 times better targeted on poor districts 
than State money is nationally. We still don't do well enough.
    Briefly, yesterday, there was dialogue about Title I 
formula and the hold harmless. Title I money ought to at least 
be going to the districts that have the major concentrations of 
poor kids based on the best and most recently available data. 
Currently the Title I money doesn't do that because nobody is 
allowed to lose and other things like that.
    Basically whatever Administration I have worked for, one 
thing we have said year after year was let us do a better job 
targeting the Title I and other resources.
    Mr. Jackson. I have no doubt you guys are doing an 
exceptional job given the limitations. I guess where I am going 
with is your predecessor and Secretary Paige's predecessor said 
at best the Federal Secretary of Education is a cheerleader 
unless we are able to overcome the limitations that the 
Secretary of Education needs in order to step into these 
districts and close the gaps where these disparities exist.
    We acknowledge the resources are limited but what enhanced 
role for the Secretary can we expect if these limitations 
exist?
    Mr. Corwin. I think the changes being considered for ESEA 
right now, implicitly provide for something of an enhanced 
role. In Title I right now, the districts and then the States 
identify low performing schools. Those aren't just schools in 
which students in general are not achieving but, as I think the 
law is going to be reauthorized, there are schools in which 
particular sub-groups are not achieving as well and the gap is 
not being closed.
    Basically I think the new law will have a message that says 
if you don't bring up achievement and bring up the achievement 
of all groups, there are going to be some consequences. A lot 
of issues come into play around that on how you measure it, 
what the consequences are. Those types of issues are being 
argued night and day in other rooms in this building and across 
the way in the Senate as well. It gets complicated quickly.
    Once you put into law and implement an expectation of high 
achievement for all students and hold schools accountable for 
it, then I think you are holding policymakers accountable for 
ensuring the resources are there for the schools to achieve. I 
think that is part of the message too.
    Mr. Regula. Mr. Peterson?

                   FUNDING FOR RURAL SCHOOL DISTRICTS

    Mr. Peterson. I apologize for being late and hope I am not 
redundant in asking what has already been asked.
    I come from a rural district, 50 some school districts. I 
have the most rural district east of the Mississippi in 
northern tier Pennsylvania. I laud all the goals thePresident 
has outlined.
    Yesterday I shared with the Secretary that though as a 
Federal Government we claim to provide 7 percent of basic 
education, in Pennsylvania, a typical industrial State, pretty 
strong State government, bureaucracy, and I served for 19 years 
so I know them fairly well, only 3.2 percent of the money 
actually gets into school districts. That is the printout I get 
from the Department. Last year it was 3.3, in 1997, it was 3.3, 
in 1998, it was 3.2. That is how much money gets into school 
district budgets, less than half of what we claim actually gets 
in.
    When you look at Washington bureaucracy, 50 State 
bureaucracies, almost everybody that works at the Harrisburg 
bureaucracy is on the Federal payroll, dealing with Federal 
programs. Then you have your regional bureaucracies, most of 
those are federally funded. I think that is something you need 
to be aware of, dollars that get to the classroom.
    Most of my rural districts do not worry about you, you are 
irrelevant. To impact them, we have to change that. We have to 
figure out how the Federal Government becomes relevant to small 
rural school districts.
    Picture a superintendent who is also a principal. He 
doesn't have time to be a grantsman, to apply for your 
complicated programs. We don't have local consultants available 
and affordable to these poor school districts, so they are kind 
of not players. My largest school district only gets 1.3 
percent of their budget from the Federal Government. I have 
many school districts around 1, 1.5.
    I think you use the States as your implementer. I will tell 
you that system doesn't work. That is not a bureaucracy they 
look too either. That is the enemy too.
    I think you can raise awareness, become the educator and 
have a positive impact but I am tending to be a doubter here of 
how we can change it with dollars. We had a proposal several 
years ago that Joe Pitts from Pennsylvania proposed where we 
were going to take 31 of your programs and simply allow the 
school districts if they applied for that money to use it for 
any one of those 31 objectives. This Congress turned that down, 
too much latitude.
    Maybe things have changed since then and I hope so. I just 
want you to know the hurdles you face. How many members of 
Congress really believe in local control?
    How can you become relevant in the role of school boards, 
principals and superintendents in rural America where they need 
just as much help as urban and suburban America, if not more, 
in helping to improve the educational process and leaving 
nobody behind?

           EXPLANATION OF FUNDING FOR RURAL SCHOOL DISTRICTS

    Mr. Corwin. You bring up a number of different points. On 
the first, the amount of money that actually gets through to 
the school district or the school, it might be useful for some 
of us to sit down with your staff and look at the data because 
often we get these stories that only half the money is getting 
through. In our own Department of Education for our ESEA 
programs, we are thinking about less than half of one percent 
is used to administer the programs. We are pretty lean we 
think.
    At the State level in Title I, they only get a percent so 
we are at 98.5 percent going through. If a particular district 
is getting less than that 7 percent, it is probably because 
they don't have the concentrations of poverty that Philadelphia 
or Pittsburgh have. They may not feel wealthy, but don't have a 
high enough poverty level. I know that is often the case in 
agricultural districts where the farm families are not counted 
as in poverty. You can't tell them that, they work 18 hours a 
day on the farm and are not making too much, but they are not 
counted by the Census as poor so that will affect the 
allocations to those districts.
    Regarding your bigger question on how can we become 
relevant, I think the basic theme is we become relevant by 
getting out the message that no child is left behind, that the 
districts are going to enable all their kids to achieve to high 
standards and they are going to be held accountable, and hold 
their schools accountable if that doesn't happen.
    I think that is as relevant a message for the northern tier 
as for the urban areas in your State. It ain't that easy, I'll 
give you that. There has to be a State role. We don't want to 
be the enemy. I hope Harrisburg is not always the enemy either 
because I think they have the interest of the child at heart 
too. They may get tangled up in their regulations at times but 
they come in to meet with us and we try to work out things in a 
way that works for those districts. I think we have to continue 
to do that.
    As you may know, a rural education piece passed in the 
Omnibus bill in 2001 that allows those tiny districts that get 
a few dollars for the Safe and Drug-Free Schools program, can't 
do that much with it, a few dollars for professional 
development, can't do that much with it, a couple of other 
things, to consolidate those dollars and do one thing well. I 
think that will help that kind of district. It has to be 
reauthorized in ESEA but both the House and Senate have it in 
their bills and I think something like that will happen.
    Mr. Peterson. What percent of your money is where you have 
to apply for, fill out an application and apply for it?
    Mr. Corwin. Basically all of our money has an application. 
It is usually an application once every five years or once for 
the length of the reauthorization. In the 1994 bill, they put 
through a change that allows them to consolidate all the 
categories and provide one single application. We do get new 
programs in the department. In my office, OESE, we have 
something like 13 new programs in fiscal year 2001. Frankly 
most were things the previous Administration didn't request but 
they came out of the bill. They are going to require new 
applications. For that kind of reason, we are looking to 
consolidate a lot of these programs. We deeply hope that 
happens.

               FEDERAL DOLLARS IN RURAL SCHOOL DISTRICTS

    Mr. Peterson. You will have my support but you need to look 
at being able to deal with the weakest, the smallest rural 
districts with a system that is not intimidating. You are 
intimidating currently. Not you, you have inherited this. Rural 
school superintendents don't look to you for much. The theory 
is that 70 percent of the paperwork comes from the Federal 
Government and 7 percent of the money but in reality, 7 percent 
doesn't get there.
    I will share with you my printout from the Department of 
Education and you can challenge it to them. They give to me 
reluctantly each year because they don't like it. They think I 
am going to do bad things with it but we sent it back a couple 
of years ago and had them redo it and make sure all the money 
was included but those are the numbers we come up with, that is 
how much of the money actually reaches the school districts.
    There may be services provided for the school districts not 
in their budget that you pay for but money that allows 
superintendents to hire teachers, buy books, fix the classroom, 
Federal money is minuscule in rural America, between 1 and 2 
percent is the common factor of the moneymaking up their 
budget. I think you need to be aware of that because the problems in 
education in rural are equally as vital as those in urban.

              EDUCATING STUDENTS WHO ARE NOT COLLEGE BOUND

    The lower 50 percentile has the potential of being left 
behind. The top 50 percent of our kids are college bound, their 
parents are motivated, they are on their way. When you get 
below that, a lot of kids are not academically turned on but 
they can be technically turned on. They like to do things, make 
things, like to work with their hands. Later on in life, they 
may get academically turned on and I have seen that happen.
    We have totally walked away from technical education in 
this country. We have totally not valued it. The former 
Secretary of Education argued with me that everybody should get 
an academic education and then get a technical education. I 
said that was fine in theory, I didn't disagree, but that isn't 
how it works. If a young person is not turned on academically 
and isn't interested in learning a lot of data and information, 
but is interested in doing something with his or her hands, we 
are leaving that child behind today. Our technical emphasis in 
this country has been flat funded nationally for years and 
years and years, decades.
    There has not been a President asking for an increase in 
technical education money in this country in my memory. That is 
a mistake. The military used to train our technical workers. 
The volunteer Army has changed that and that is not happening. 
It is half as big as it used to be. I would be interested in 
your response on that.
    Mr. Regula. Let me interject. Mr. Peterson, that will be on 
this afternoon's agenda.
    Mr. Peterson. I know that but I don't miss the chance.
    Mr. Corwin. I have worked on the budget on elementary and 
secondary education and on vocational education for years and I 
know the debates about that. I think in the Perkins Act, as it 
now exists, there is an intent to see that the child gets both 
academic and technical education because I think we have had 
too many years in the past where they got a low level of 
technical skill, the skill became obsolete later on and they 
didn't have the academic background to fall back on.
    We have pursued tech-prep and we have sort of taken the 
tech prep notion and expanded it to the rest of the Perkins 
Act. I don't think it is an either/or and I think there are 
different ways to pursue the academics. People have argued to 
me for years, and I think compellingly, that what the 
contextualized approach, learning a little differently for the 
child who thinks he wants to work with his hands than 
traditionally college bound, is going to work.
    I think what Secretary Riley used to argue was that 12 
years of school probably wasn't enough for many students and 
that you needed to connect the secondary schools with the post-
secondary. That's a little different than saying everybody just 
gets an academic education.
    I think Secretary Paige is also committed to that. I think 
we need to pursue more of that.
    Mr. Sherwood. If you don't engage these kids by eighth 
grade in technical, they don't get engaged. They aren't even 
interested in going on to school afterwards. I asked a private 
technical school operator what we could do to help him. He 
said, just get me students. Young people are not even being 
told about the potential of the technical education field. If 
you don't have the classrooms, the expensive technical 
classrooms, that is what we don't have. We are not investing in 
the expensive technical classrooms that are the alternatives. 
When young people go into them and see high tech equipment, 
they can get turned on and get turned on to academics too.
    In my view, we are totally missing the field and we are 
going to export jobs, processing, manufacturing, if we don't do 
it because are not going to have the work force and our 
companies will go overseas to make products they should be 
making here.

                      TITLE I SCHOOLWIDE PROGRAMS

    Mr. Regula. One of the criticisms of Title I I get from 
teachers is there is so much red tape, so much time spent on 
filling out forms, so much time going to meetings outside the 
building that they don't really have the time to teach. My 
question is as you restructure these programs are you trying to 
make them less time consuming so that teacher can spend time 
with the students? Title I is designed to take this child that 
needs help and bring him up to speed or meet whatever 
deficiencies they have in their educational background.
    Mr. Corwin. I am a little surprised because I think in 
Title I we have made some pretty good moves away from the 
paperwork over the last decade. I think about half our schools 
do the Title I schoolwide approach, which means if their 
poverty is at a certain level, generally 50 percent and it 
looks like in reauthorization, it will come down to 40 percent, 
they can take the Title I money, blend it in with the rest of 
the money in the school and use it to improve the whole school 
program.
    Mr. Regula. Is that a temptation for them to supplement 
their general budget at the expense of helping those students 
who should be getting hands on, mentoring and some of the 
things they need if they are Title I eligible?
    Mr. Corwin. The theory is if the school is at that poverty 
level, most of the students will need some help. You really 
need to bring up the whole program rather than separating out 
student by student and having to keep pretty careful records to 
make sure you are not spending the Title I money on the other 
kinds of things. We have come pretty far on that and we may go 
further in this reauthorization.
    Mr. Regula. Could a school with 800 students that had 10 
below the poverty level be eligible for Title I?
    Mr. Corwin. Right now in law, you either have to have ten 
poor students in the district or two percent. A school with 800 
and only 10 is probably not going to be in the program.
    Mr. Hoyer. The pullout program was a disaster and the 
reason was because the program where they had to finitely 
segregate Title I from every other. Judy was involved in early 
childhood and it drove teachers bonkers.
    The theory of the percentage was that if you have a school 
with a certain percentage of poor children, it needs more 
resources. The way to help them is to make that entire school 
able to help them as opposed to pulling out each one. You don't 
want to segregate the children.
    Mr. Regula. That is the old red birds, blue birds reading 
classes.
    Mr. Hoyer. If you have 8 children out of 800 in a school 
from a poverty environment, presumably that school has enough 
resources to deal with those eight children. On the other hand, 
if you have 320 that becomes a much greater challenge and 
therefore that entire school needs more help. I think it was a 
good theory and it was trying to get to what Mr. Jackson was 
raising, in a rural school that may not beperceived as a 
poverty school, where if you go to high poverty schools, they have 11 
percent on average in Federal funds in their schools.

          Federal Government's Role in Addressing Inequalities

    Why? Essentially the Federal Government in education has 
done two things, spent a lot of money on higher education and a 
lot of money trying to overcome this gap with respect to poor 
and educationally challenged children, and special education.
    I think that is why Mr. Peterson thinks in some schools it 
is a low percentage because we have targeted the most needy 
children in America because they are the biggest challenge of 
leaving no child behind which I think was right for us to do 
and we have to debate how to reformulate to do it better.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Mr. Chairman, I wasn't going to comment but 
since Steny took that time, let me just add to it.
    That analysis fits in the overall context of a separate and 
unequal system that existed in the States, codified in 1896 in 
Plessy v. Ferguson, overcome in 1954 with Brown v Board of 
Education with the equal protection decision and it is out of 
the equal protection decision that this particular Act comes 
before the Congress in 1965, and Title I has its genesis in 
trying to overcome the history and the legacy of separate and 
unequal institutions within the States.
    So there is this question as to whether or not this 
department is merely going to play the role of a cheerleader or 
whether this Congress is going to give you the authority to go 
and get those children who have been left behind because the 
States have not done historically, for more than 100 years, a 
good job of closing the gaps we are talking about. This is a 
vital and very important piece of the last 100 years of work in 
this country.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Sherwood, have you been inspired with 
anything additional? This is what a hearing is all about and I 
think you sense our frustration. We want to spend the money, 
have the programs, but we want results and our constituents 
want results. I have a couple of teachers in the family and 
they get frustrated just like Mr. Hoyer was saying. It is such 
a big country, so many State agencies to measure whether or not 
it is making a difference. I think sometimes I am not sure that 
the laudable goals we want to achieve or objectives are 
necessarily what happens. We need your help to tell us how we 
can make sure these programs do change the child's experience 
for the better.

                               Head Start

    Mr. Hoyer. Jesse mentioned 1965, from 1965 to 1995, I am 
not sure how many Head Start programs there were in that period 
of time but in those 30 years, we never canceled one for 
nonperformance, not one. Judy had Head Start so I was exposed 
to this on a regular basis, and she also met with some of the 
national organizations. I started asking pretty early on in the 
first Bush Administration exactly the question you are asking, 
Mr. Chairman, what works.
    We all think Head Start as a concept generally works but 
let me tell you we know there were some Head Starts that were 
dismal failures and frankly, Jesse, were used as patronage 
programs in some areas, not as kids programs.
    Donna Shalala was the first Secretary to cancel--not your 
department, HHS--any Head Start programs in America for 
nonperformance. You are right, we have to have the guts because 
the people who lose are the kids. That is who loses when we 
don't shut down programs that aren't working. We ought to shut 
down programs that aren't working so we can put more money into 
programs that are working. In every one of our States if you 
say we are going to shut down a program, then somebody comes to 
Jesse and says, Sally and Johnny are not going to get any 
services and Jesse says, that is wrong, these kids have to have 
services. The problem is the services they are getting are 
illusory, they go someplace, sit in a chair and they go home 
and nothing happens.
    It is tough to get at but we have an opportunity I think to 
do that if we work together and have the same criteria in mind.
    Mr. Regula. That is what we are trying to do, work as a 
team to make sure the money reaches the child. I know in my 
district, the Head Start is off in another building totally 
removed from the education system.
    Mr. Corwin. That is very typical.
    Mr. Regula. Seventy-five percent, Mr. Chairman. Only 25 
percent of Head Start programs in America are under the 
education system. There are some others who have cooperative 
but in Charles County, Southern Maryland that I represent, Head 
Start is run by a community action committee. In Prince 
George's County, it is run by the Department of Education.
    They had some co-located facilities in Charles County that 
worked very well and as Charles County has grown, the Head 
Start programs have been pushed out of the school buildings, 
which is very unfortunate because it not only worked better, 
but you shared janitorial services, cafeterias, gymnasiums and 
recreational facilities and you had an articulation between 
Head Start, kindergarten and first grade teachers so that Sally 
and Johnny would have a continuum of people who knew about 
them.
    Mr. Regula. I think that is a subject we need to explore 
since we have responsibility for all these programs, to have 
some coordination.
    Mr. Sherwood. Your point, Mr. Hoyer, is well taken. So many 
of the Head Start programs became political programsrather than 
educational programs. It has had a wonderful record where it worked but 
sometimes it was run by the wrong people for the wrong reasons.
    Mr. Hoyer. I don't know whether you knew the fact but 
Secretary Shalala, to her credit, was the first Secretary of 
Democrats or Republicans to look it in the eye and say, we are 
going to assess whether you are performing and if you are not, 
we will shut you down. It was not until 1995, 30 years with the 
program, that we shut down the first one for nonperformance.
    Mr. Regula. Thank you all for coming. We hope we have given 
you some challenges and you have given us some.
    We are recessed until 2:00 o'clock.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 26, 2001.

                VOCATIONAL AND ADULT EDUCATION PROGRAMS

                               WITNESSES

ROBERT MULLER, DEPUTY ASSISTANT SECRETARY FOR VOCATIONAL AND ADULT 
    EDUCATION, DEPARTMENT OF EDUCATION
LONNA JONES, ACTING DIRECTOR, DIVISION OF ELEMENTARY, SECONDARY AND 
    VOCATIONAL ANALYSIS, BUDGET SERVICE
    Mr. Regula. Okay, Mr. Muller, we are ready for you. Your 
statement will be put in the record and we'd appreciate your 
summarizing for us.

                   Opening Statement of Robert Muller

    Mr. Muller. Great. Good afternoon, Mr. Chairman, members of 
the Committee. It's really a privilege to be here and have the 
opportunity to talk about some of the highlights of the 
President's fiscal year 2002 request for vocational and adult 
education. I'd like to provide a brief summary.
    In ``No Child Left Behind,'' the President articulated an 
education agenda based on high standards and expectations for 
all learners, accountability for results, flexibility at the 
local level and research-based practice. Our career and 
technical education and adult education investments support 
these goals.
    At the secondary school level, our investments help prepare 
youth for both postsecondary education and careers, helping 
them meet State academic standards in addition to providing 
career exploration and preparation. At the postsecondary level, 
the career and technical education investment supports 
community colleges and other postsecondary institutions to 
deliver high-quality programming. The adult education 
investment provides older youth and adults opportunities to 
build their numeracy and literacy skills, complete their high 
school education or learn English. These funds also support 
family literacy.

                          STATE ACCOUNTABILITY

    Let me turn briefly to accountability and the emphasis on 
high standards. Both the vocational and adult education 
statutes have strong accountability provisions. These were 
among the first education programs for which Congress enacted 
rigorous accountability requirements, requirements that focus 
on student achievement and educational outcome.
    For the Perkins Act, States must track academic and 
technical skill achievement, graduation and degree completion, 
and further education and employment, which includes non-
traditional employment. For adult education and literacy 
programs, the States must collect information on improvement in 
participants' literacy levels, high school or GED completion, 
and employment as well. We feel this focus on accountability 
has been very important to building strong programs and will 
continue to be so.
    With these laws, the Congress also authorized incentive 
grants to States that exceed their performance targets. One 
thing to note about our budget request is that it proposes 
language to give the Secretary flexibility to reserve the same 
percentage of funds for incentive grants from vocational and 
adult education so that no one program contributes a 
disproportionate share of funding to the incentive grant 
reserve.

                          VOCATIONAL EDUCATION

    Let me turn for a moment to our investment in career and 
technical, or vocational, education, where our total request is 
$1.2 billion. The primary component of this is $1.1 billion for 
the Vocational Education State Grants, the same as last year. 
These grants support improvement in career and technical 
education through curriculum development, teacher training, the 
introduction of new technology and student support services in 
high schools, community colleges and regional vocational 
technical institutes. About 62 percent of these funds go to 
high schools, the remainder to community colleges and other 
postsecondary institutions.
    Our budget request also includes $106 million, the same 
level as last year, for tech prep education. Tech prep, as you 
may know, supports consortia of high schools, colleges and 
technical institutions working with employers and others in the 
community to build strong articulation between secondary 
schools, and two- and four-year postsecondary institutions, and 
to integrate academic and vocational education.
    Our national programs request, which supports research and 
dissemination on effective programs and practice, is $12 
million this year, a decrease of $5.5 million from last year's 
budget. These funds support accountability, teacher development 
and preparation, and efforts to improve programs, particularly 
in high schools.

                            ADULT EDUCATION

    Turning to adult education and family literacy, our request 
for Adult Education State Grants is $540 million, basically to 
contribute to nationwide improvements in adult literacy and 
high school completion. Adult education and literacy programs 
serve an estimated 3 million adults.
    Adult literacy is critical, as well, to children's academic 
success. We know that parents and caregivers have the largest 
impact on children's school readiness. Many adults in basic 
education, English literacy and GED programs are better 
equipped not only to meet their own life goals but also to help 
their children succeed in school.
    These investments can also impact areas such as health 
literacy. We're seeing, for example, growing costs associated 
with low level literacy among seniors, and they can help ease 
transition from public assistance to work. The basic grant 
continues to set aside $70 million for English literacy and 
civics education. This program, the English Literacy and Civics 
Education State grants program, was created in fiscal year 2000 
to direct funds to States based on the size of their immigrant 
population to support English instruction in the context of 
civics and citizenship skills.
    Our national leadership activities request for adult 
education is $9.5 million, a $4.5 million decrease from last 
year. These activities focus on identifying and promoting 
effective research-based programs and practice, enhancing 
teacher quality, improving instructionaltechnology, and 
continuing improvement in data and accountability systems across the 
Nation.
    Our request for the National Institute for Literacy is $6.6 
million. NIFL focuses on creating national networks for 
communicating about literacy issues and effective programs.
    We also have small programs for corrections education and 
tribally controlled institutions. We are requesting $17 million 
for Grants to States for Incarcerated Youth Offenders, the same 
level as 2001, and $5 million for Literacy Programs for 
Prisoners. Also, our request is $5.6 million, the same as last 
year, for Tribally Controlled Postsecondary Institutions. 
Adults and youth who participate in the correctional programs 
in particular are often educationally disadvantaged and lack 
the skills they need to secure jobs upon release.

                               Conclusion

    In conclusion, let me just say that taken together, if you 
look across these programs, they address diverse needs of 
learners to meet demands they encounter at work, at home, and 
in every day life. The challenge of the 21st century economy, 
the pace of technological change, and the demographic shifts in 
today's society require that all Americans have educational 
opportunity. Every youth must be prepared for postsecondary 
education and career. Adults of all ages require basic numeracy 
and literacy skills and opportunities for further education.
    By building strong accountability systems and providing 
flexibility and choice at the State and local level, we believe 
these programs will continue to prepare individuals for 
employment, further education, and for their responsibilities 
as parents and citizens.
    Mr. Chairman, that concludes my prepared remarks, and I'd 
be happy to take any questions.
    [The prepared statement follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. I'll defer my questions, because 
some of you may have plane schedules, as do I. But let's try to 
keep it reasonably short.
    Mr. Kennedy.

                FAMILY LITERACY AND CHILDREN'S LEARNING

    Mr. Kennedy. Mr. Chairman, after that, I don't know what I 
can do. All I can say is I look forward to working with you on 
this issue. I plan to be a big supporter of adult education on 
this Committee, and look forward to supporting the family 
literacy as key, because we can't talk about kids' literacy 
again without talking about the adult literacy. That's why it's 
a ``twofer,'' for us to get good adult literacy. That's why I'm 
a big proponent.
    We have a big immigrant population in my State. We have 
among the highest adult illiteracy rates in the Nation in my 
State. So we're very conscious of the importance of the 
programs that you are all working on, and we want to see an 
increase, even over and above what has been requested by the 
Administration.
    So we look forward to working with you on that.
    Mr. Muller. Thank you.
    Mr. Regula. Your comment made me think about Time Magazine 
this week, it has an article entitled, ``So You Want to Raise a 
Superkid.'' They're saying that family is extremely important. 
I find that grandmothers are more important than grandfathers, 
but that's life. [Laughter.]
    Mr. Regula. Okay, Mr. Sherwood.

                           TECH-PREP PROGRAMS

    Mr. Sherwood. I'd just like to tell you how impressed I've 
been with the tech-prep programs. We instituted one in our 
school district several years ago. Shortly after I had just 
really gotten to know that as a board member, what we were 
doing, we were interviewing an architect to build a new school. 
I started to talk to him about CAD, computer aided design, 
because we had a course in that. I found out that we had more 
talented computer aid design people in our school than he did 
in his architectural firm, and obviously, we hired a different 
firm. [Laughter.]
    Mr. Sherwood. But we're graduating young men and women now 
that can get jobs with the CAD, they can get jobs in automotive 
technology, they can get jobs in electronics and graphic 
design, or they can take that basic skill and go on to a 
technical college. And it just integrated the system and it 
took the stigma a little bit off the old industrial arts. It's 
been a great program, and continue to work it hard.
    Mr. Muller. I think one thing you might be interested in is 
we're finding the principles of tech-prep are becoming 
increasingly prevalent, not just in that specific part of the 
budget, but more broadly across career and technical programs 
as well. One of the reasons for the success is that not only 
are they focusing on articulation and transition from secondary 
school to two- or four-year postsecondary institutions and 
career, but also that they're learning to the same academic 
standards as the rest of the high school students, basically 
the same as all other high school students in the State.
    Mr. Sherwood. We did that in a comprehensive high school in 
a small town, it worked very well. Thank you.

                       NEED FOR HIGH-TECH SKILLS

    Mr. Regula. Mr. Peterson, your moment has arrived.
    Mr. Peterson. You may have to cut me off, because I may 
take more than a moment.
    Welcome. Take none of my message personally. I may share a 
little frustration from time to time, but would you agree that 
this country is an unparalleled technology explosion?
    Mr. Muller. Yes. I think I would. And I'm wondering where 
I'm going to get led here. [Laughter.]
    Mr. Peterson. There's a cliff out there----
    Mr. Muller. I haven't read the Time Magazine article, I was 
cramming for this hearing.
    Mr. Peterson. We'll catch you, we won't run you off of it. 
But would you agree that manufacturing and processing that's 
being successful today is done in a very high tech measure, 
with less employees but with lots of technology?
    Mr. Muller. Right.
    Mr. Peterson. A moment ago we were talking about vocational 
rehabilitation. And a lady just came up to me, was shocked that 
70 percent of our students in my vocational schools are special 
ed. She was shocked at that. Another 10 or 20 percent are 
troubled kids. In my State, vocational technical education 
isn't the priority that I think it should be. So it's a very 
small number that actually get into prep.
    I guess the question I'm leading to is how, in the area of 
technology explosion, everything we're doing today that's 
competing in world markets and high tech, we are just now past 
the era where the military trained a lot of our technology 
people. That's not the case today, with the draft, every young 
person had to go to the military, and if they behaved 
themselves, they usually came out of there with a skill and a 
trade. And that's over. We've never replaced that.
    How do we flat fund something that's happening right in 
front of our eyes for a decade, year after year after year, 
that it doesn't get on the priority list? I mean, flat funding 
after a decade is a huge decrease in effort. That was happening 
in my State until I changed it. It was happening, it's 
happening here. Every year we've had to fight, since I've been 
here there's not been one proposed increase of a penny for 
technical education.
    How did we get there? I mean, how is it so undervalued, I 
guess is--and I'm not blaming you. You're not the bad guy. But 
how is it so undervalued?
    Mr. Muller. Well, I think part of the answer is that these 
are really, really tough decisions. With a limited pot, the 
Secretary and the President's priorities were found in ``No 
Child Left Behind'' in the emphasis on early reading and ESEA 
reauthorization. That's not to say that these aren't really 
important programs. I think they are, and that the Secretary 
would agree.
    Your comments about technology and the demands of the new 
economy I think are exactly on target with the way we see the 
field of career and technical education moving, to basically 
acknowledge that the nature of the high school experience that 
might have worked 20 years ago just doesn't work today.

                 TECHNOLOGY IN THE VOCATIONAL CLASSROOM

    Mr. Peterson. For the top, let's say 60 percentile, most of 
those going to college, academic oriented, but the next 40 
percent, in my view, a lot of those, and some of the top 60 
percent should be into technology, because that's their natural 
skill level, but it's available to such a paltry few. The 
expensive technology of today is an expensive classroom. And 
you can't build a classroom with flat funding.
    In my view, this is my view, if we don't change this 
dynamic, we are going to export the next level of processing 
and manufacturing jobs in this country. Because that's how 
we're competing today. The plants in my district that are 
prospering have a computer hooked to everything, robots in 
between. They're using less people, but if they're successful 
they're hiring more people, because they're in the global 
marketplace, because they're making the best products in the 
world because of technology.
    Now, the technology information thing happened here. At the 
high end, we're bringing HB1 visa students in to fill it. At 
the low end, we're not filling it and we're going to ship those 
jobs offshore unless we give our manufacturers and our 
processors these technically skilled people that they so 
desperately need.
    Just 20 years ago, 50 percent of our students needed to 
show up for work, just a body. It's at 10 percent and down 
today. We have not filled that gap. And I'm going to tell you, 
as I listen to the President, I really appreciate how 
impassioned he gets with kids. But I'll tell you, we can't 
serve the needs of our employers and we can't help the poor 
kids. The poor kids used to get it in the military.
    And I want to work with you, I don't want to be all 
negative today, but I'm going to be presenting you with a 
proposal to fund the technical classroom. Because that's why 
schools aren't doing it. They will teach the classes, they will 
furnish the space, if they have the equipment to equip. This 
high technology education is more expensive than academic.
    And we have not made, we thought when we funded computers, 
there's a whole lot about technology other than computers. 
There may be computers hooked to it. But the whole technology 
need out there is some very expensive equipment that kids can--
and I want to tell you, some of these unmotivated kids, as far 
as academics are concerned, will get motivated with technology. 
When they start to do things with their hands, and they become 
creative, they'll be academically interested later down the 
road.
    But I think this ``No Child Left Behind,'' there's nothing 
much more important than having the technology classroom 
equipped for our kids, in my view. And I hope you'll work with 
us.
    Mr. Muller. Thanks, we will. As you may know, the President 
has expressed his intent to nominate Carol D'Amico from Ivy 
Tech Community College in Indiana to be the Assistant Secretary 
for Vocational and Adult Education. I'm sure she'll be weighing 
in on these issues.
    Mr. Peterson. I'd love the chance to meet with her when she 
comes. I hope you'll take that message back. I don't hold any 
administration, Congress has bumped it up the last few years a 
little bit.

                OHIO AND VOCATIONAL-TECHNICAL EDUCATION

    But in my view, the Chairman comes from a State that's a 
leader. Your State's a leader in the country. It's why your 
economy is more vibrant than western Pennsylvania. That's the 
difference. Ohio has one of the best vocational technical 
education systems in the country, the best adult education 
system in the country, and one of the stronger community 
college systems in the country. That's where the rubber hits 
the road.
    Mr. Regula. That resulted from my 8 years in the State 
legislature. [Laughter.]
    Mr. Regula. Just to verify what Mr. Peterson said, I was 
responsible for starting the technical institute in our county. 
It started out at about 2,000 students, it's up to 5,000 now. 
Ninety-six percent placement rate of their graduates. They make 
their programs fit what the community needs are. They do dental 
technicians, they train firemen for the small villages that 
have volunteer fire departments, whatever the community's needs 
are, they can do it.
    And I think the technical programs are vitally important 
because it gives people a skill that's marketable. What Mr. 
Peterson said is absolutely correct.
    Now, having said that, I talked to the president of the 
institution the other day, and I said, do you get any of the 
Federal money. He said, very, very little, because our money 
goes to the States, I assume, in a block grant for 
vocationaleducation. The State department of education, in their 
wisdom, they funnel the money out to the vocational schools and give 
the technical schools very little.

                         TECHNICAL INSTITUTIONS

    Now, do you think that we should, in our support, break 
this out so we have some assurance it will get to technical 
schools as well as vocational?
    Mr. Muller. You're right, it is a State decision. The 
Federal funds are distributed to States based on population and 
per capita income, and for vocational education there's a 
formula in the law which distributes funds sub-State.
    A good portion of those funds can go to vocational 
institutions, they can go to comprehensive high schools for 
vocational programs. So there's an enormous amount of variance 
across the system. I would commend Ohio, I do think Ohio is an 
example of a State that really has thought differently about 
vocational education and figured out ways to integrate what you 
need to do for training in your technical areas with strong 
academics, so irrespective of where you're going right after 
high school or several years out, you're prepared, basically, 
for postsecondary education and career.
    Mr. Regula. Both are very important, and we have vocational 
programs at post-high school and at the technical institute 
programs. They are tailored to what the marketplace is in the 
community. That's the beauty of it. And interestingly, they get 
a number of students who catch fire and transfer into the 4-
year program at the local State university.
    But I'm wondering if our experience is that the tendency, 
since the vocational money goes to the State departments of 
education, which are not, in charge of the technical institutes 
in our State; those are under the board of regents. And so the 
money goes to the State department of education. Their 
prejudice is toward the vocational schools.
    And perhaps we should split this money in the grant process 
to ensure that the technical schools get their fair share.
    Mr. Muller. We could look at the experience across States 
and get back to you for the record.
    Mr. Regula. If you can find any empirical evidence on that, 
I'd like it, so we can help make a priority judgment.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. I'll yield to Mr. Peterson.
    Mr. Peterson. Before we split, let's grow it.
    Mr. Regula. I'll concede that, too.
    Mr. Peterson. Because it's a short pot, as it is. Let's 
increase the pot a lot, and then we'll let everybody have their 
shot at it.
    Mr. Regula. I'm for that. I was interested, you said it 
goes to community colleges, which normally, a community college 
is a little bit of both. Many community colleges offer a 2-year 
track leading to a bachelor's degree, and they offer the 2-year 
associate degree. Now, when you make the grants, do the grants 
go for just the vocational side of a community college?
    Mr. Muller. Towards a terminal 2-year degree, or for a 
certificate.
    Mr. Regula. Okay, well, then that avoids getting it into 
what would be a 4-year academic track. And you do fund adult 
literacy programs?

                            ENGLISH LITERACY

    Mr. Muller. Right. And that would be out of Adult 
Education, WIA title II.
    Mr. Regula. Yes, GEDs. I was interested, you mentioned 
literacy for immigrants. This morning we had the witness on the 
program, sounded the same.
    Mr. Muller. It's children versus adults, I think.
    Mr. Regula. And you do the adult side, and the other office 
does the children's side.
    Mr. Muller. I think one of the important things to note 
about adult education and English language education is that as 
a part of the entire system, the demand for English language 
instruction has really been growing. Up to probably about 37 
percent of the population that we serve need English as a 
second language; another 37 or 38 percent need adult basic 
education, and the remaining 25 percent need adult secondary.
    But what we hear from States is, number one, this has 
become a generalized need, whereas when this program was first 
put into place three years ago, only 33 States were eligible. 
That was expanded to include all 50 States. Not only are you 
seeing--it may be tapering off--an increase in the total 
numbers, but also demographic change that is resulting and is 
becoming an issue for a much larger part of the country.

                    POSTSECONDARY REMEDIAL EDUCATION

    Mr. Regula. Well, that raises one other question. Do you do 
anything on compensatory education? I hear, talking with 
college presidents, they complain that they get these students 
that their grammar skills, their math skills are really not 
adequate for the program that they embark on in post-high 
school, even though they have a diploma. Is that any of your 
area of concern?
    Mr. Muller. I'd like to get back to you officially for the 
record. I think your adult education investments could be 
targeted for those purposes, someone who is not currently in 
school without a high school diploma or GED--basically the 
eligible population is over 16. So those could be individuals 
who have remedial needs, or are trying to get their GED, for 
example.
    [The information follows:]

 The Role of Adult and Vocational Education in Postsecondary Remedial 
                               Education

    Adults can prepare for postsecondary education through adult 
secondary education programs that help them attain high-school level 
competencies and credentials necessary to enter postsecondary 
education. With Adult Education funding, 250,000 to 300,000 adults 
complete their GED or high school equivalency credentials each year. It 
is not likely that an individual would be jointly enrolled in 
postsecondary education and adult basic or adult secondary education. 
However, many community colleges operate adult education and English 
Literacy programs, and can enroll students in these courses as part of 
their course of study. Other community colleges may refer applicants to 
adult education to improve their skills or complete their GEDs prior to 
college entrance.
    Perkins Vocational Education has always funded supplemental 
services for vocational education students who are educationally 
disadvantaged, limited English proficient, and/or disabled. For 
students in postsecondary vocational programs, this support may include 
remedial studies, including tutoring. The 1994 National Assessment of 
Vocational Education (NAVE) found that in the early 1990s, 
postsecondary institutions offered many supplemental services, 
particularly for disabled and disadvantaged students. These services 
are offered to students regardless of their major or planned course of 
study. The most commonly offered services are guidance, counseling, and 
assessment, along with remedial instruction and tutoring for disabled 
and disadvantaged students. Perkins funding appears to promote the 
availability of supplemental services; the NAVE also found, as of 1991, 
that Perkins-funded postsecondary institutions offered more services 
than unfunded institutions.

             WEB ACCESS TO VOCATIONAL EDUCATION INFORMATION

    Mr. Regula. Do you have a website?
    Mr. Muller. We do.
    Mr. Regula. And people who want to know about technical ed 
or vocational ed could go there and get information or ideas?
    Mr. Muller. Probably more than they would like. There's a 
ton of stuff on it. If it's not on our website, we're trying to 
provide links to organizations that can get you, for example, 
information about teacher development. We fund a number of 
projects in contextual teaching and learning with teachers 
colleges, where we're finding out some really interesting and 
useful information about how to prepare teachers to teach in 
career areas where the demands of the economy are really 
changing. We're trying to get that out there more broadly.
    Mr. Regula. Do you get a lot of hits?
    Mr. Muller. Not as many as we'd like, but I think we're 
doing okay.
    [The information follows:]

            Office of Vocational and Adult Education Website

    The Office of Vocational and Adult Education's website is located 
at: www.ed.gov/offices/OVAE/
    The homepage was accessed about 62,000 times during the month of 
April 2001.

    Mr. Kennedy. Mr. Chairman?
    Mr. Regula. Yes.

                  PROBLEMS ASSOCIATED WITH ILLITERACY

    Mr. Kennedy. It really highlights the problem here to the 
people that you're trying to reach. Obviously literacy is going 
to be crucial, and technical literacy, to their even being able 
to learn more. If they don't have that initial facility, they 
really have great barriers. The notion of your medical literacy 
is just incredible, $73 billion it costs every year for people 
who can't read their prescriptions or follow basic medical 
advice that's written down.
    So any of us who go to some of these fast food restaurants, 
there's a reason they put pictures up on the board and say 
number 1, 2, 3 and so forth. It's because there is a good 
percentage of our population that can't even read the basic 
menus in many restaurants. So let's keep that in mind when we 
think about this problem. You can't get to address it if you 
first don't address, so many other problems if you don't 
address the literacy to begin with.
    Mr. Regula. Questions?

                      THE NEW ASSISTANT SECRETARY

    Mr. Peterson. I'd like the chance to meet with the 
Secretary, if you can arrange that when she's available. When 
will she be aboard?
    Mr. Muller. She started on a consultant basis last week. 
Confirmation hearings haven't been scheduled. She's in town 
basically part-time.
    Mr. Peterson. Is she refraining from meeting with members 
prior to her confirmation?
    Mr. Muller. Well, she's been here one day, and is back next 
week, so I'd be happy to talk with her tomorrow.
    Mr. Peterson. We're in town next Monday for the President's 
luncheon and then will be available thereafter.
    Mr. Muller. Confirmation hearings haven't been scheduled 
yet. So she's working on a consulting basis until that happens.
    Mr. Regula. Well, thank you very much for coming. As you 
can see, there's a lot of interest in this subject. And it's 
going to grow as the industrial world needs skilled people. I 
think that's the key to our being able to compete in the world 
of tomorrow.
    Mr. Muller. It's a privilege to be here.
    Mr. Regula. Thank you very much. Hearing is adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 1, 2001.

   POSTSECONDARY EDUCATION PROGRAMS AND STUDENT FINANCIAL ASSISTANCE

                               WITNESSES

MAUREEN A. McLAUGHLIN, DEPUTY ASSISTANT SECRETARY FOR POLICY, PLANNING 
    AND INNOVATION, OFFICE OF POSTSECONDARY EDUCATION
GREG WOODS, CHIEF OPERATING OFFICER FOR STUDENT FINANCIAL ASSISTANCE
ROBERT L. BELLE, JR., DIRECTOR, OFFICE OF TRIO PROGRAMS
THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. Okay, we'll get the Committee hearing started. 
We're happy to welcome you today and hear your testimony on the 
postsecondary education programs and student financial 
assistance. I think we'll lead off with you, Ms. McLaughlin, 
and you're going to tell us about postsecondary education, am I 
correct?
    Ms. McLaughlin. I am.
    Mr. Regula. And your whole statement will be made a part of 
the record, and you can summarize however you choose.
    Ms. McLaughlin. I will summarize. Could I introduce my 
colleagues?
    Mr. Regula. Certainly.
    Ms. McLaughlin. To my far left is Bob Belle, who runs the 
TRIO programs in the Office of Postsecondary Education. Greg 
Woods, I think you know, heads the Performance Based 
Organization (PBO) for Student Financial Assistance. And Carol 
Cichowski and Tom Skelly from our Budget Office.
    Thank you.
    Mr. Regula. I met with the TRIO folks, a great number of 
them. Go ahead.

                           Opening Statement

    Ms. McLaughlin. Thank you, Mr. Chairman. I am delighted to 
be here today to discuss with you the Department of Education's 
postsecondary education budget for fiscal year 2002. Our budget 
in postsecondary education complements the Administration's 
request for elementary and secondary education and supports the 
President's commitment to providing access to high quality 
education at all levels of education for every American.
    Our budget for postsecondary education would support 
Federal programs that help prepare low income and minority 
students to go to college, student financial aid programs that 
help students and families to pay for college, and programs 
that strengthen postsecondary institutions that serve large 
proportions of minority students.

                      Student Financial Assistance

    The President is committed to making sure that every 
student has the opportunity to attend college through increased 
financial aid for students and for their parents. We are 
proposing an increase of $1 billion for the Pell Grant program, 
to increase the maximum award by $100 to $3,850. This is the 
highest maximum award ever in the Pell Grant program, and would 
provide Pell Grants to about 4 million undergraduate students.
    The Pell Grant program is the foundation of Federal 
assistance in student aid, and has helped many low income and 
middle income students finance their college educations over 
the past couple of decades. My written statement provides a 
detailed explanation of how the additional $1 billion will be 
spent.
    New borrowing in fiscal year 2002 under the Federal Family 
Education Loan Program and the Direct Loan program is estimated 
to be approximately $36.5 billion, an increase of $1.8 billion 
compared to the previous year. Students and families are also 
expected to consolidate approximately $10.3 billion of prior 
loans.
    As the Secretary indicated during his confirmation 
hearings, the Administration is committed to supporting both 
student loan programs. To encourage more students to enter math 
and science teaching, the Administration is also proposing to 
substantially increase the amounts of loan forgiveness 
available for students who teach at qualified low income 
schools in math and science, increasing the amount of loan 
forgiveness from $5,000 to $17,500.

                       HIGHER EDUCATION PROGRAMS

    To complement the significant investment in student aid, we 
are also proposing to increase assistance to institutions of 
higher education that serve large proportions of low income and 
minority students. Our budget includes additional support for 
Historically Black Colleges and Universities, under Title III, 
and for Hispanic Serving Institutions, under Title V, to help 
those institutions meet the growing demands for their services.
    We are proposing to increase funding for strengthening 
Historically Black Colleges and Universities by $12 million, 
and strengthening Historically Black Graduate Institutions by 
$3 million, for a total of $197 million and $48 million, 
respectively, in the two programs. We also propose to increase 
funding for Hispanic Serving Institutions by $4 million to a 
total of $72.5 million. These funds would further strengthen 
the institutions' academic programs and their administrative 
and fund raising capabilities.
    In order to take full advantage of the opportunities for 
postsecondary education, many students need additional 
assistance, particularly those students who are economically 
disadvantaged and whose parents may not have attended college. 
In fiscal year 2002, we are requesting an increase of $50 
million for TRIO for a total of $780 million in the TRIO 
program. These funds would support new competitions in Talent 
Search, Educational Opportunity Centers and Staff Training, and 
would enable these programs to provide more intensive services 
to students. Research has shown that the more intensive the 
services provided, the more positive the outcomes are for 
students.
    Our budget would continue at current levels. In addition, 
in order to increase support for areas of greatest need, while 
remaining within the President's limits on discretionary 
funding, our budget is proposing to reduce funding for a number 
of other programs that can be supported under existing 
initiatives or under the President's No Child Left Behind 
education initiative.

                               CONCLUSION

    We believe that our budgetfor postsecondary education 
honors the President's commitment to education by increasing the 
Federal appropriations for postsecondary education, while at the same 
time adhering to the Administration's policy of fiscal restraint.
    My colleagues and I would be happy to answer any questions.
    [The prepared statement of Maureen McLaughlin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. I think we will have Mr. Woods 
testify, then we'll have questions for both of you.

                           Opening Statement

    Mr. Woods. Thank you, sir. I'm delighted to be here to 
support the appropriations request for the Administration of 
the Student Financial Assistance Program.

                           STATUS OF THE PBO

    I can report that the PBO experiment started by Congress 
some time back is going very well in Student Financial 
Assistance. Last year we racked up the Government's biggest 
increase in customer satisfaction scores, mostly because of a 
new attitude toward service, and a new set of high-class 
technology products. Technology is also bringing the unit costs 
down. We'll serve 3 million more students next year without a 
bigger budget.
    Employee satisfaction skyrocketed as well, from 38th place 
in Government to 5th place overall. Again, that's the biggest 
improvement seen any place in Government operations. Since 
we've been a PBO, there hasn't been a single interruption in 
service. No interruption in application processing or Pell 
Grant processing or loan consolidation, nothing like the old 
days.

                          FINANCIAL INTEGRITY

    On top of this, of course, we have to be worthy of trust. 
Our performance plan this fiscal year leads with projects that 
are pointed at program integrity. I think we're perfectly 
positioned to support Secretary Paige's initiative to eliminate 
every trace of fraud, waste or abuse in the system.
    The Inspector General (IG) reported that the Department 
lost some $450 million over three years. That's a potential 
loss estimate, and only part of it is SFA's business. But like 
Secretary Paige, any dollar not going toward students I find to 
be intolerable. In the IG's number, $250 million was associated 
with double payments, $7 million in student aid. We got every 
dime back. It was always some well meaning employee who was 
going and making manual adjustments to the systems in order to 
help out a school or someone else in need. At present, we've 
got a system in place where overrides in a manual fashion on 
our systems require a supervisor's approval and a checklist be 
completed before anything like that goes out.
    $100 million of that was in bankruptcies and claims against 
students. We routinely collect and settle those accounts.
    Another $100 million is associated with IG investigations 
as dollars potentially at risk. This gets everybody's 
attention, and we go after the money.
    Beyond this, we found some employees could write checks or 
use charge cards without a supervisor's approval. There was no 
accusation of fraud here, but no protection was in place. So 
now supervisors sign off or there's no deal.
    We also caught a ring of thieves stealing computers and 
telephones. Seven pled guilty and face jail time. Four more are 
headed for trial.
    In addition, SFA keeps making GAO's high risk list. The 
number one reason is defaults. It's very important, that's why 
the President's made it a high priority in his budget.
    In the PBO we've been able to reverse the growing trend in 
default dollars that caused the President's concern. Our 
collection dollars in the PBO exceed defaults. And with the 
economy weaker, we're strengthening our efforts in this regard, 
finding names and addresses of defaulters among Health and 
Human Services new hires data base. We appreciate the Congress' 
opening the door for us to do that.
    Secretary Paige has made getting a clean audit a top goal. 
And we're putting enough talent on that to make a difference. 
We've got to straighten out the books in order to be worthy of 
trust.

                      FINANCIAL MANAGEMENT SYSTEMS

    We also need a different kind of financial report for you 
to do oversight and for me to manage these operations: 
financials to cover defaults that distinguish what's at risk 
and what's collectible and what we should look at, financials 
that show unit costs of Pell Grants and loans and everything 
else we do. And we're building a financial system to do that. 
It will be ready for 2002. Some of the modules are already in 
place and helping us.
    One of the ways it helps is it's totally integrated with 
our operating systems. I can show you there what I mean. Each 
FFEL guarantor used to have to send us this stack ofpaper in 
order to get their payments quarterly. In payment for response to that, 
we generate this thing and send it back to them. We replaced all of 
this in this new financial system with six web pages they fill out, and 
of course, we make the payments and processing all electronically. 
That's the advantage of the e-commerce strategy we're putting forward.

                          E-COMMERCE STRATEGY

    We're getting e-commerce customers everywhere. A few years 
back, most of the applications for FAFSA were on paper. Now 50 
percent will come in via the web. Online loan consolidations 
have gone from nothing to 75 percent being filed with us 
electronically. We think we've got the best loan servicing 
system in the business. You can do practically anything through 
our Direct Loan site.
    And our schools portal puts everything in one place for 
schools to find us on the web. We eliminated our central data 
system entirely behind the scenes, and that was done with our 
modernization partner for a share of the savings.

                               CONCLUSION

    So our customer satisfaction scores are up, our morale is 
up, the costs are coming down and we believe we're earning 
trust. I'm asking for your continued support for this PBO 
program. Thank you very much.
    [The prepared statement of Greg Woods follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Sounds as if you're having a high 
degree of success.

                             STUDENT LOANS

    What percent of the student loans are coming through the 
Government, of the total? Do you still underwrite some private 
institutions?
    Mr. Woods. Right. There are complementary programs from the 
private institutions.
    Mr. Skelly. Direct Loans are approximately 30 percent of 
our student loan volume.
    Mr. Regula. Thirty percent of the total are directly with 
the Government?
    Mr. Skelly. Thirty percent of the new loans that we make 
each year to students are from the Direct Loan Program, where 
the Government makes the loans. The majority of our student 
loans are still through the guaranteed loan program that's 
called the Federal Family Education Loan Program, where we use 
private lenders who get insured.
    Mr. Regula. Is there any indication or statistics on the 
success of collections in the private versus the public? In 
other words, the underwritten loans versus the ones that are 
directly made by the Government?
    Mr. Woods. Our numbers are very comparable. The idea of the 
defaults and collections is very much viewed as a community 
problem, where there are competitions between direct lending 
and the FFEL program, for example, at the front end, which are 
good for service to schools. At the back end, it's a community 
effort, schools, lenders, guarantors and the Department all 
working together. So our collection rates are comparable. When 
loans get into default they're turned actually back into our 
system. I feel very good about our collection progress. For the 
last couple of years our collections, the dollars collected, 
have actually exceeded the dollars that have gone into default, 
reversing the trend that caused the President to make this a 
priority.
    Mr. Regula. Is the rate the same for both, either way.

                              PELL GRANTS

    I noticed you have a billion dollar increase in Pell 
Grants, yet it only puts a $100 addition, which indicates that 
there's a large body of Pell Grants out there, if it's a 
billion and only factors out to $100 per year increase per 
student. Am I correct on that?
    Ms. McLaughlin. Yes. There's a variety of reasons for the 
$100 increase in the Pell Grants. Out of the $1 billion, $436 
million of the dollars are needed to maintain the 2001 level. 
Last year, the Pell Grants program had a surplus of $319 
million, which we do not have this year. We need to appropriate 
that amount of money simply to make up for the surplus that we 
had last year.
    In addition, we are discovering that there are more 
eligible independent students applying for Pell Grants than had 
been expected when the estimates were done last year. That's an 
increased cost in the program for last year, which also needed 
to be covered. So we needed $436 million just to maintain the 
2001 level.
    In addition, there's another $195 million needed for 
increases in enrollment and eligibility among students that 
also pushes up the cost of the program. The remaining $312 
million funds the $100 increase in the maximum award. So in 
general, the rule of thumb is for each $100 increase in the 
maximum award, between $300 million and $320 million is needed 
in program costs. In this case, funding above $312 million is 
needed for other reasons.

                    INTERNATIONAL EDUCATION PROGRAMS

    Mr. Regula. Do either of you deal with the international 
education and foreign language programs that the Department 
operates?
    Ms. McLaughlin. Yes, these programs are in the office of 
Post-secondary Education.
    Mr. Regula. They're in your section. What's happening on 
that? Because it would seem to me that the increasing role of 
the United States in both international diplomacy, 
international trade, etc., would require that we have more 
young people with foreign language skills. Are we supporting 
these programs at the university and college level?
    Ms. McLaughlin. Our budget would fund our international 
programs at the same level as last year. The international 
programs include 14 specific programs that are geared toward 
the business issues that you raised: toward internationalizing 
curriculum in colleges and universities,toward foreign language 
issues and area studies for particularly unusual foreign languages, as 
well as opportunities for study abroad and opportunities for teachers 
to be involved in activities in other countries.
    There's a wide range of activities in the International 
Education program that are thriving and are funded through 
those 14 specific programs.
    Mr. Regula. Do you think the program with Federal money is 
an incentive for the higher education institutions to offer 
these kinds of courses?
    Ms. McLaughlin. I do. In some cases, particularly in the 
less commonly taught and less commonly studied languages, 
assistance from the Federal Government really helps 
institutions keep those programs and those studies going.

                        TEACHER QUALITY PROGRAMS

    Mr. Regula. Do you fund anything involving teacher 
education? We hear that there will be a shortage of teachers, 
that would encourage universities to offer a wider range of 
courses?
    Ms. McLaughlin. In international or in general?
    Mr. Regula. Domestic.
    Ms. McLaughlin. We have a variety of programs that address 
the teacher issues. For example, we have the Teacher Quality 
Enhancement Grants program. The Administration has proposed 
funding the remaining years of projects already awarded, 
because in the future those activities could be supported by 
programs proposed as part of No Child Left Behind.
    Within the Teacher Quality Enhancement Grants program we 
are funding State programs, partnership programs and 
recruitment programs. We're finding that to bring the Schools 
of Education and Schools of Arts and Sciences together to focus 
on both content and teacher preparation is beneficial and 
improves the quality of teaching.
    Based on what we're seeing in those programs and the 
results we'll have from our program evaluations that identify 
those activities that are successful, we would hope that these 
activities would get picked up by State and local agencies.
    Mr. Regula. Do you have, for lack of a better term, quality 
control mechanisms that ensure that these programs you're 
funding are working?
    Ms. McLaughlin. In most of our programs that are not the 
student aid programs, and definitely in the Teacher Quality 
Enhancement Grants program and Preparing Tomorrow's Teachers to 
Use Technology program.
    Mr. Regula. That's what I was referring to.
    Ms. McLaughlin. The particular projects that we fund are 
selected on a competitive basis. We hold a competition and we 
have three peer reviewers who review each project and rate it. 
Then we fund the highest ranked proposals. The proposals are 
typically ranked on the severity of need in a particular 
project: Is this a highly disadvantaged area with particularly 
strong need for teachers? What is the project? Do they have 
interesting ideas? Do they seem to have the resources and the 
expertise to actually do what they say?
    We fund them through a competitive process and, in most 
cases, we have many more applications than we have funding to 
serve people. Therefore, the proposals that are funded are 
quite good. We also require annual reporting from the projects, 
and then we conduct program evaluations.
    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.

                   THE PRESIDENT'S EDUCATION PROPOSAL

    You're all good public servants. I know you didn't put this 
budget together. You're simply here testifying for the budget 
put together by somebody else. So I don't want to put you on 
the spot. But I nonetheless want to ask a few questions. I'd 
appreciate very short answers, because I don't have very much 
time.
    Your statement indicates that the President is committed to 
making sure every student has the opportunity to attend college 
by helping to make college more affordable for all Americans. 
When I look at this budget for student aid, I don't think it 
meets that standard.
    Your statement also says that the maximum Pell Grant will 
be ``the highest ever.'' That's true, but it is also the 
smallest increase in the last eight years, whether you count in 
percentage terms or whether you count in dollar terms.
    Your statement indicates that two-thirds of Pell recipients 
had incomes of $20,000 or lower. That's also true. The problem 
is that the President's tax package denies any tax cut 
whatsoever to one-third of those families. So that's the 
context in which I put this request. I would simply like to ask 
a series of very quick questions.
    Isn't it true that the Pell maximum grant today covers only 
39 percent of tuition and room and board fees at a four-year 
public institution, compared with 84 percent in 1975?
    Ms. McLaughlin. I don't have those specific figures in 
front of me.
    Mr. Obey. Trust me, that's the right number. [Laughter.]
    Isn't it true that Pell Grant recipients who borrow to 
complete a bachelor's degree graduate with 30 percent more debt 
than their peers?
    Ms. McLaughlin. I have not seen that figure. I'd be 
interested in the source. Borrowing is more likely to occur 
among those who have financial need.
    Mr. Obey. Well, again, I'll be happy to give you the 
source, but trust me, that's a fact. They average $14,383 
versus $11,140 average debt for other college students.
    Isn't it true that the statistics demonstrate that the cost 
of higher education has risen as a percentage of family income 
only for the lowest 20 percent of people by income in this 
country?
    Ms. McLaughlin. The statistics I've seen have increases for 
other income groups, too.
    Mr. Obey. Well, my information is that the cost of higher 
education, as a percentage of family income, has risen only for 
the top 20 percent. In that case, I hope I'm right and not 
wrong, because if I'm wrong, even more families will be put in 
trouble by this budget recommendation than in fact they have.
    I make these points simply to point out that despite the 
very large need, despite the President's telling the country 
that he is putting education first and is providing a 
significant increase for Pell Grants, this budget, in fact, 
provides a token increase in comparison to the increase that 
this Committee has provided in the last five years.
    And I would simply then ask two final questions. What 
percentage of the average cost of attendance at a four-year 
public college will the proposed $3,850 maximum award finance 
in the 2002-2003 award year? Wouldn't it be about 39 percent?
    Mr. Skelly. That's about right.
    Mr. Obey. In other words, we will be providing justabout 
the same percentage of the cost with this budget recommendation as 
provided in the previous year. In other words, this is a status quo 
recommendation.

                               Work Study

    Logic would tell you the only option that many low income 
students have to obtain the additional resources they need to 
attend college would be to work part time or work full time and 
go to school part time or borrow heavily. What does the 
research tell us about the impact of students working more 
hours on the probability of completing college and obtaining a 
degree? Isn't it true that the research tells us that the more 
hours people work, the less or the smaller percentage you have 
of people who actually graduate?
    Ms. McLaughlin. There's some evidence that if people work 
in Work Study jobs on campuses, their retention is better.
    Mr. Obey. Up to a point. But isn't it true that when a 
student works more than, say, 12 hours or so, that the 
completion rate tends to go down? That's my understanding, too.
    I think these points that simply demonstrate that while 
this budget certainly isn't a devastating budget for higher 
education, it is simply a status quo budget with respect to 
student aid. And given the fact that we've got at least $1.6 
trillion in surpluses over the next 10 years by the President's 
reckoning, and maybe more, it seems to me that we could do 
better than this budget recommendation, if we really do mean it 
when both parties claim to want to put education first.
    That's all the questions I had, Mr. Chairman.
    Mr. Regula. Thank you. Mr. Hoyer.
    Mr. Hoyer. I personally felt those were brilliant answers. 
[Laughter.]
    I'm going to associate myself with the remarks of our 
ranking member. You're in a difficult spot, we understand that 
and you understand that. Secretary McLaughlin--sounds good to 
me. I'll write a letter to the White House and see if we can do 
that.

                          Program Eliminatons

    And you may not have the answers to this question. But if 
you don't have, and this is based upon facts that you put this 
together on, I'd like to have the facts. You say on page two, 
we are proposing to eliminate a number of small programs that 
can be supported under existing programs, or, under the 
President's No Child Left Behind education initiatives, or for 
which there is no demonstrated need.
    Can you tell me which programs fall into one of those three 
categories?
    Ms. McLaughlin. Yes. The Thurgood Marshall and the Olympic 
scholarships are programs that provide financial aid that can 
be supported under existing programs. The Learning Anytime 
Anywhere Partnership program, which is a program to support 
distance learning, would receive funding for existing projects 
but not for new projects.
    Mr. Hoyer. Now, if you know, how much was in that program 
last year, how much is the program in which it can be done last 
year and this year? In other words, my question is, if it can 
be funded some place else, what we're doing is putting that 
program in another program at essentially level funding levels, 
so that both programs will be competing for the same resources 
that one had last year?
    Ms. McLaughlin. Right. The Learning Anytime Anywhere 
Partnership projects, those kinds of activities which are 
technology-based distance learning, could be funded through the 
Fund for the Improvement of Postsecondary Education. The 
funding request for the Fund for the Improvement of 
Postsecondary Education would basically level fund the FIPSE 
program and provide the level of funding needed to fund all the 
continuation awards from the Learning Anytime Anywhere 
Partnership program, but not enough funding to do another 
competition.
    Mr. Hoyer. So am I correct in concluding, essentially, what 
we have done is, we said it could be funded someplace else, 
FIPSE, in this case, but we have not added sufficient funds to 
accomplish a baseline for FIPSE, or a baseline for the program 
which is being added? Is that correct or not?
    Ms. McLaughlin. It would not allow for the same level of 
funding in both programs as in 2001.
    Mr. Hoyer. Okay. That's an example. I would like a list for 
the record, if you can give that to me. Secondly, under the 
President's No Child Left Behind, that was your second 
category.
    Ms. McLaughlin. We did not request new funding for 
Preparing Tomorrow's Teachers to Use Technology because of No 
Child Left Behind proposals. In the Teacher Quality Enhancement 
Grants program, we requested funding to continue existing 
projects, but not to bring on new projects. Both of those 
programs, which are related to teacher preparation, support 
activities that could also be done under either the technology 
or the teacher quality programs under No Child Left Behind.
    Mr. Hoyer. If you could also, so we don't waste the time of 
the Committee, and I don't have that much time, if you could 
provide me with a list of that. Obviously what I'm trying to 
get at is, that sounds good on paper. I want to see if the 
resources are there to do it. It's sort of like the largest 
increase ever, or the largest number, not increase, largest 
number ever.
    And lastly, again, for the record, I suppose, I would be 
very interested to know which programs you have identified 
having no demonstrated need. I don't mean you personally, you 
understand.
    Ms. McLaughlin. They are very small programs. One example 
is a program called Underground Railroad, which was supporting 
activities related to education and a display of items related 
to the Underground Railroad. It's a very small program.
    Mr. Hoyer. Without going through the list and testing your 
memory, I'm very impressed that you could come up with two or 
three, personally. But if you could provide that for the 
record.
    [The information follows:]

                     Proposed Program Eliminations

    There are four programs administered by the Office of Postsecondary 
Education for which the President's budget includes no funds because 
their activities can be supported under other, more established 
programs. These programs and the existing programs under which their 
activities can be funded include:

------------------------------------------------------------------------
          Eliminated programs                   Existing programs
------------------------------------------------------------------------
Learning Anytime Anywhere Partnerships   Fund for the Improvement of
 (LAAP).                                  Postsecondary Education
                                          (FIPSE)
Demonstration Projects to Ensure         FIPSE
 Quality Higher Education for Students   Research and Innovation
 with Disabilities.                       (Special Education Account)
Thurgood Marshall Legal Educational      Student financial Assistance
 Opportunity.                             programs
B.J. Stupak Olympic Scholarships.......  Student Financial Assistance
                                          Programs
                                         Byrd Honors Scholarships
                                         Javits Fellowships
                                         Graduate Assistance in Areas of
                                          National Need (GAANN)
------------------------------------------------------------------------

    The activities supported by the Teacher Training in Technology 
program administered by the Office of Postsecondary Education can be 
supported under the consolidated Educational Technology State Grants 
program. In addition, the President's budget includes no funds for new 
awards in the Teach Quality Enhancement Grants program because similar 
activities can also be funded under the proposed State Grants for 
Improving Teach Quality program.
    The Underground Railroad Program and Web-Based Education Commission 
are the two programs administered by the Office of Postsecondary 
Education for which the President's budget includes no funds because 
there is no longer a demonstrated need for their activities.

                        GROWTH IN COLLEGE COSTS

    Mr. Chairman, if I can do one last area, then I'll go back 
on the second round if I'm here. I have a hearing at 3:00 
o'clock and I apologize for having to go. We increased the Pell 
Grant $450 last fiscal year, from $3,300 to $3,750. We've 
increased it $100 this year, or proposing to increase it to 
$3,850.
    Mr. Obey asked for a number of comparisons, the 39 percent 
of cost as opposed to 84 percent of cost originally. My 
question to you is, in the last year, what is the average 
escalation of college costs across the country? Do you know 
that?
    Ms. McLaughlin. I have the latest figures, but they would 
not pertain to the same year as that maximum award increase.
    Mr. Hoyer. What I'm getting at is the comparison between 
the $100 increase on $3,750, which is about 3 percent, less 
than 2.7 or 2.8 percent, and the increase, the average increase 
to tuition costs across the country, which my presumption is 
are substantially higher than 2.7 percent.
    Ms. McLaughlin. The last year for which we have the data, 
the increase at private institutions would have been slightly 
higher. I think it was 3.5 percent; the increase at public 
institutions was approximately 2 percent. Increases in tuitions 
have been slower than they have been in the past.
    Mr. Hoyer. So am I correct, and I'll end, Mr. Chairman, 
that it is your premise therefore that the purchasing power of 
the $3,850 kept even with the purchasing power of the $3,750 or 
just a little bit head?
    Ms. McLaughlin. The truth is, we're mixing apples and 
oranges, because they're different years. The tuition data are 
in the past, and the maximum award is looking forward to next 
year.
    Mr. Hoyer. If you could get me as current information as 
you have on that issue, as to whether or not we are keeping a 
Pell Grant student even with the increased costs at $100. I 
think we did at $450, clearly, but I'm not sure we are at $100. 
Thank you very much.
    [The information follows:]

                         PELL GRANT MAXIMUM AWARD AS A PERCENTAGE OF COST OF ATTENDANCE
----------------------------------------------------------------------------------------------------------------
                                                                        Average One-Year     Pell Maximum Award
                                                                       Cost of Attendance   As Percentage of COA
                        Award year                          Maximum  -------------------------------------------
                                                             award     Two-year  Four-year   Two-year  Four-year
                                                                        public     public     public     public
----------------------------------------------------------------------------------------------------------------
1997-98..................................................     $2,700     $4,509     $7,673         60         35
1998-99..................................................      3,000      4,601      8,024         65         37
1999-00..................................................      3,125      4,722      8,265         66         38
2000-01..................................................      3,300      4,879      8,664         68         38
2001-02..................................................      3,750      5,041      9,081         74         41
2002-03..................................................      3,850      5,209      9,519         74         40
----------------------------------------------------------------------------------------------------------------
Notes: Cost of attendance includes tuition, fees, room, and board. Data for award years 1997-98 through 1999-00
  from FY 2000 Digest of Education Statistics. Award Year 2001-01 data were estimated using The College Board's
  reported inflation rates for those years; 2001-02 and 2002-03 were estimated using The College Board's
  inflation rates for 2001-01 compared to 1999-00.


    Mr. Regula. Interesting observation, because they seem to 
track, and I sometimes think a cause and effect comes intoplay 
on this.
    Mr. Hoyer. Right.
    Mr. Regula. Mr. Wicker.

                  EFFECT OF PELL INCREASES ON TUITION

    Mr. Wicker. I think that is a good point for you to follow 
up on. Do the increases in student aid each year simply amount 
to a transfer payment between the Federal Government and State 
governments who raise tuitions accordingly? There's at least a 
perception out there that that is what is going on, that the 
colleges and universities see a raise coming and they view that 
as an opportunity to raise tuition. Would you like to comment 
on that?
    Ms. McLaughlin. Sure. In the Pell Grant program, about one 
out of every four undergraduate students receives a Pell Grant. 
That means that if an institution looked at the increase in the 
Pell Grant and then increased its tuition by a similar 
percentage, 75 percent of people who did not receive a Pell 
Grant would not stay even. It would be only the 25 percent who 
did receive a Pell Grant.
    With respect to the Pell Grant program, that tie between 
increases in our aid and increases in tuition, which many 
people do ask about, I think really isn't there. If the percent 
of students who received a Pell Grant was much higher, close to 
100 percent, it would be more likely to have that kind of a 
situation occurring.
    Mr. Wicker. Twenty-five percent of college undergraduate 
students receive Pell Grants, am I correct?
    Ms. McLaughlin. Yes. Actually, 25 percent of full time fall 
enrollment would be receiving a Pell Grant.
    Mr. Wicker. Fall enrollment?
    Ms. McLaughlin. Fall enrollment.
    Mr. Wicker. What percentage of American college students 
receive some form of aid from the programs that you talked 
about today, a much larger percentage?
    Ms. McLaughlin. Yes, much larger percentage.
    Mr. Skelly. It's over 60 percent, Mr. Wicker, that get 
either our student loans or Pell Grants or other campus based 
program aid.
    Mr. Wicker. Well, let me just say that actually, answering 
Mr. Obey's questions was easy today, because he's sometimes a 
lot harder, when he doesn't supply you the answer. [Laughter.]

                    DEVELOPMENT OF BUDGET PROPOSALS

    He's trying to make his point, and that's great. I just 
wonder, one premise for his initial statement was to let you 
off the hook as not having anything to do with having had any 
input on this budget. Is that true? Did any of you have any 
input with the Administration in putting this budget together?
    Mr. Skelly. Yes, Mr. Wicker. Many of the career employees 
worked with the new Secretary and the career people at the 
Office of Management and Budget and other places, to work out 
the details of the President's budget proposal. That's what 
always happens, year in and year out.
    Mr. Hoyer. Will the gentleman yield?
    Mr. Wicker. I'll yield if I've got the time. And I think 
the Chairman's going to give me a little more time.
    Mr. Hoyer. Very well.
    Mr. Wicker. Well, I would just observe, I won't go back and 
quote my friend, the ranking member. But I think what he said 
was none of you had anything to do with these figures.
    Mr. Hoyer. No, they didn't make the decisions. I think we 
know what he meant.

                           COLLEGE ENROLLMENT

    Mr. Wicker. I appreciate that clarification. I also just 
wonder, and I'm asking questions really that I don't know the 
answer to, as opposed to 1975, how many more American students 
are going to college today? Does anybody have that figure? 
We've made great strides in that regard, have we not?
    Ms. McLaughlin. Yes, we have. I don't have the exact 
numbers.
    Mr. Skelly. We can get you that number.
    Mr. Wicker. Mr. Skelly was about to take a stab at that, 
but----
    Mr. Skelly. I decided it would be smarter not to. 
[Laughter.]
    Mr. Regula. Will you yield?
    Mr. Wicker. Yes, I'd be glad to yield.
    Mr. Regula. Were you asking that in terms of the total 
population? Or in terms of just raw numbers?
    Mr. Wicker. Well, frankly, both items of data would be 
good.
    Mr. Skelly. The Federal aid programs have helped a number 
of students attend college who otherwise wouldn't have been 
able to go. Students who have a demonstrated need for financial 
aid have been able to get aid from the Government through Pell 
Grants or through the subsidized loan programs, the Perkins 
Loan program and our Work Study Programs. We have helped 
students go to college who otherwise wouldn't have been able to 
attend. Roughly 18 million students are fall freshmen, and they 
were considerably less than that back in 1975, but I don't have 
the exact number.
    Mr. Woods. It's not just college. We're talking about 
schools at all levels, three year schools, proprietary schools, 
and all kinds of training programs. When you look at that 
total, you find a huge, huge increase. On a percent basis and 
gross numbers. We'll get you the right numbers for the record.
    [The information follows:]

                                 ENROLLMENT IN INSTITUTIONS OF HIGHER EDUCATION
----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                              Year                                 Total Fall         U.S.          Population
                                                                   Enrollment      Population        Enrolled
----------------------------------------------------------------------------------------------------------------
1975...........................................................      11,184,859     215,973,199             5.2
1997...........................................................      14,345,416     267,783,607             5.4
----------------------------------------------------------------------------------------------------------------
Sources: For enrollment, Digest of Education Statistics, 1999; National Center for Education Statistics. For
  population, Population Estimates Program, Population Division, U.S. Census Bureau.


    Mr. Wicker. Okay, that would be helpful. And I would simply 
note that the ranking member acknowledged that this is not a 
devastating budget for higher education, and that's a start. 
But let me just let you respond to the charge that he did make. 
Is this nothing more than a status quo budget forour college 
students?
    Ms. McLaughlin. There is an increase between last year and 
this year in the amount of aid that would be supporting 
students in terms of the dollar value of Pell Grants and the 
dollar value of loans. Not an enormous increase, but there is 
an increase in the amount of aid available for students to be 
able to pay for college between those two years.

                           TITLE III PROGRAMS

    Mr. Wicker. Let me, if I could, Mr. Chairman, ask one more 
question. You have within your jurisdiction a program commonly 
called Title III, Aid for Institutional Development accounts, 
the program entitled Strengthening Institutions. I have your 
budget justification for this in front of me. These are for 
poorer colleges and community colleges. Eligibility is based 
upon market value of endowment funds for full time equivalent 
student. Funds are available to plan, develop and implement 
activities and encourage faculty and academic program 
development, improvement in funds, and administrative 
management, joint use of libraries and laboratories, 
construction and maintenance of instructional facilities and 
student services. And there's even an opportunity to strengthen 
an institution's technological capabilities.
    Now I'm informed that each and every community college in 
the State of Mississippi is eligible for this funding, but not 
one is currently receiving funding from the program, because it 
is so complex. Administrators complain that the application 
project is such that they need a professional grant writer 
simply to be able to apply for this one program.
    And I just wondered if any person within the Department 
shares this concern. Is it something that's been brought to 
your attention? I would appreciate a response, either today or 
on the record, of what the Department is doing to ensure that 
these funds are going to the most needy institutions, and that 
we don't make the application process so difficult that they 
just throw their hands up in despair.
    Ms. McLaughlin. The Title III program that you mentioned, 
particularly Part A, has been in existence for a long time, and 
provides assistance through a competitive process to 
institutions who are developing and strengthening, and ones who 
are poor institutions and need additional assistance.
    I haven't heard complaints that the process is too complex 
or too difficult. But we would be more than happy to talk with 
representatives from your institutions and see what their 
concerns are, and see if it's anything that can be addressed. 
It is a competitive program, so we fund the projects that rank 
the highest when they're read by peer reviewers. The ranking is 
based on the need of the institution combined with the proposal 
that's put forth.
    We'd be glad to talk in more detail with you or your staff 
or members of the institution.
    Mr. Wicker. I appreciate it. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Mr. Peterson.
    Mr. Peterson. Thank you, Mr. Chairman.

          THE ROLE OF EDUCATION IN PREPARING TODAY'S WORKFORCE

    Welcome. I guess I'd like to ask you a question first. I 
think we talk a lot about how much we spend, but I don't 
sometimes think we talk enough about how we spend it, what our 
priorities are. Is it the role of your agency to evaluate what 
we're turning out in this country, what we're funding, what 
kind of students we're preparing for the work force today, and 
where the needs are and where the oversupply is? Is that kind 
of data used by your department much?
    Ms. McLaughlin. In the postsecondary education office, we 
have one program which is called Graduate Assistance in Areas 
of National Need. This program funds areas where we think we 
have a shortage of students who are trained at the graduate 
level. We also try to target it on under-represented groups.
    That's the main program where we have some kind of focus 
like that, specifically. In the student aid programs, we fund 
students who have financial need, who are at risk and who 
really need assistance from us.
    But when you look across all the student aid programs, you 
see that we're funding many kinds of education. We're funding 
students at community colleges, and we're funding students at 
community colleges who are in vocational technical oriented 
kinds of programs. We are funding students who are taking 
courses to get ready to transfer to a four year institution. We 
fund people in proprietary institutions, which tend to offer 
vocationally oriented kinds of training. We also fund 
individuals who are in four year colleges and universities.
    Within the whole budget for student aid, which is quite 
significant, we're providing about $50 billion of aid for 
students this year. We fund many types of students in many 
kinds of education. We don't make those decisions, though, as 
to where somebody should go for education or what kind of 
education they should choose. We fund them where they choose to 
go.
    Mr. Peterson. Did you have latitude to do that on your own, 
or do you have to have legislative language?
    Ms. McLaughlin. If we wanted to target the assistance to 
particular areas, that would absolutely require a statutory 
change.
    Mr. Peterson. When you look out there, we have a shortage 
of primary care physicians. We have a shortage of all the 
nursing fields. All the engineering fields are down and are 
being filled with foreign students, if they're filled at all. 
Math and science teachers, information technology. The areas 
that are driving the economy of this country, very important in 
my view, are for some reason undervalued by the public.
    How can we attract people into those fields where really 
the better paying jobs are?
    Ms. McLaughlin. With regard to math and science teachers, 
the Administration's budget does provide for increased loan 
forgiveness for teachers in math and science who teach in high 
poverty areas. That's one way that the budget tries to reward 
and encourage people to go into teaching in more difficult 
areas and, in particular, math and science.
    Mr. Peterson. But if we want to attract people into certain 
fields, or certain underserved parts of the country, we need to 
do that legislatively?
    Ms. McLaughlin. Yes, sir.

                      DIRECT LOAN ORIGINATION FEES

    Mr. Peterson. You don't have that kind of latitude today.
    On the Direct Loan program, for a while there was a 1 
percent discount that I thought was attracting people to that 
program over the private sector. Is that still in effect today?
    Ms. McLaughlin. The reduction in the origination fee?
    Mr. Peterson. Yes. So there's actually an advantage to go 
to the Government Direct Loan program.
    Ms. McLaughlin. Part of the reason that the Administration 
put in the discount in the Direct Loan program was to level the 
playing field, because many of the guarantee agencies and 
lenders in theFederal Family Education Loan program were 
offering reductions in insurance fees and therefore, offering lower 
costs to their students than the Direct Loan program was able to.
    Mr. Peterson. Why does Government have to be competitive 
with the private sector if the private sector is doing it? I 
don't understand that thinking.
    Ms. McLaughlin. The leveling of the playing field was for 
the purposes of student benefits, that when the two loan 
programs were created, well, when Direct Loans was created, in 
addition to the FFEL program, it was stated that the terms and 
conditions on the loans should be the same for the students, 
whichever program they chose. So that whether your school was 
in the bank-based program or in the Direct Loan program, that 
the benefit that you would get as a student, the interest rate, 
the fees, etc., would be the same. That was sort of the level 
playing field issue.
    From the students' perspective, so that they would have the 
same benefit in either program.
    Mr. Peterson. But there were many advantages originally 
built into the system that tracked you to the Direct Loan 
program. If you wanted to consolidate your loans, you had to go 
to this--I'm going on memory here--you had to go to the Direct 
Loan program to consolidate. So we stacked the deck. I just was 
amazed to find out that we're stacking the deck to a Government 
program to take the place of private sector program. I guess 
I'm never for Government doing something if the private sector 
can do it for the same price. We shouldn't be doing it. That's 
what my theory is.
    Ms. McLaughlin. We do not view it as stacking the deck. We 
give students similar terms and conditions. In fact, if you 
look at the calculations of the cost for a loan in the Direct 
Loan program, those estimates would be slightly less than the 
FFEL program.
    Mr. Peterson. You say if you'd looked at the actual cost, 
it would be slightly less?
    Ms. McLaughlin. In the Direct Loan program, the cost to the 
Government is less. The cost to the taxpayer of the subsidies 
entailed in the Direct Loan program would be slightly less than 
the subsidies in the bank-based program.
    Mr. Peterson. Okay. Thank you.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.

                    LANGUAGE PROFICIENCY IN THE U.S.

    With respect to the Chairman's question on language 
proficiency in American students, I can't help but remember 
that when the Russians invaded Afghanistan, none of our own 
Government's broadcasting agencies had a single person who 
could speak the language of the country that was being invaded. 
So in the end, they did their broadcasts in Farsi, which was 
helpful in Iran. [Laughter.]

                      CONTEXT OF BUDGET PROPOSALS

    Let me simply make a couple of observations, commenting on 
Mr. Wicker's comments on my comments. I would simply note that 
I think it's important to place this budget in context. The 
fact is, and this is not a partisan statement because it 
addresses policies that were pursued by the previous 
Administration, that in the last two or three years, the 
largest increases in Federal support for education, which came 
very significantly in the form of tax credits, did not provide 
most of the benefits to low income people as the Pell Grant 
program would, because for a variety of reasons, many low 
income families were not eligible for some of those tax 
provisions.
    Secondly, I would say that I think there's considerable 
reason to share Mr. Wicker's concern about institutions of 
higher education that jack up tuition as we increase student 
aid. I'm not convinced that there is a ``direct link,'' but I 
think there is some incentive, frankly. I would point out, 
however, that that's not the situation we face now. In fact, 
right now, we have some 37 States who are facing budget 
deficits. And many, including my own, have talked to me about 
significant tuition increases in order to make up for those 
budget deficits.
    My State did last year what the Federal Government's going 
to do this year, they blew the money on a one-year tax cut. And 
this year, they are wondering what they're going to do by way 
of cutting back on education and health services in order to 
deal with the budget deficit. I think we're going to see a 
significant running in the other direction on the part of 
States this year.
    Thirdly, it's my understanding that new grant aid at the 
State level has shifted steadily in favor of merit-based aid, 
rather than need-based aid over the past two years. We have 
made considerable progress since 1975 in seeing more students 
go to college. But there is still a disturbing difference in 
terms of who can afford to go to college. If you look at the 
numbers, you see that 67 percent of highly qualified high 
school students from high income families actually enrolled in 
a four-year college, as opposed to 47 percent of highly 
qualified students from low income families.
    So it seems to me that there is still a considerable gap 
which programs like Pell Grants are designed to fill. I think 
that requires more than a status quo budget request.
    Lastly, to put your response to the Chairman in a little 
different way, he asked you about the billion dollar increase 
for the Pell Grant Program and the $100 increase in the Pell 
maximum grant. As I understand the numbers, and these may have 
changed slightly, the request includes indeed a $1 billion 
increase for the Pell Grant program, but much of that increase 
is needed to backfill an expected $117 million shortfall in the 
2001 program, and to fully fund in 2002 the existing maximum 
grant award level for a growing number of students. In 
addition, there are prior year surpluses which have been 
exhausted.
    As a result, as I understand it, only about $370 million of 
the $1 billion requested increase will actually support program 
growth in the maximum award. I think that makes it clear that 
the billion dollar increase is certainly needed to fill holes, 
but it's not going to do a whole lot in order to add any height 
at all to the pitcher's mound for those kids.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wicker.

                             TRIO PROGRAMS

    Mr. Wicker. Dr. Belle, I just want to give you an 
opportunity to tell us what progress we're making in the TRIO 
program. And tell us how we can quantify that.
    Mr. Belle. Well, in terms of the current budget, we're 
talking about a $50 million increase. We're anticipating 
providing more grants to Talent Search and EOC, Educational 
Opportunity Centers.
    As you know, last year, we did try to bring some of the 
Upward Bound programs up to speed in terms of technology. As 
you wellknow, there is a great need in terms of this digital 
divide. We awarded $10,000 to every Upward Bound project. And we plan 
to make similar awards to other TRIO programs this year, to enhance 
their technology capability, to either be able to buy hardware, 
software, or conduct training.
    There was a new program, what originally was called College 
Completion Challenge Grants. It allows a grant to be awarded to 
Student Support Services students. Those are students who are 
currently enrolled in college. This is the first time we've 
ever been able to award a grant to students under a TRIO 
program.
    Last year, we were able to conduct what we called a special 
initiative for Upward Bound. This is access to those students 
who are low-income and, a significant portion of whom are in 
free lunch programs. So we anticipate providing more money to 
be able to continue that program.
    We think that we're making progress. Certainly the need is 
great. I get out to colleges and universities and programs, and 
I was in California this past week. The need is great in terms 
of low-income students being able to go into higher education.
    We will work with the $50 million and if there's more, 
we'll work with that. But the need is great.
    Mr. Wicker. The answer to the question dealt with a program 
expansion. Do you have any information for the Subcommittee on 
results of actually getting more low-income students into 
college and helping them in that respect, over the life of the 
TRIO program? How is it helping?
    Mr. Belle. It depends on the program, sir. This year, the 
Office of Management and Budget approved not too long ago a 
performance report for Upward Bound. Upward Bound is a long 
process. You have students who may start as freshmen in high 
school who then go through high school and on to college.
    We did have a longitudinal study which showed how Upward 
Bound students fared. Boys who participated in Upward Bound did 
very well. The length of time that they were in Upward Bound 
had an impact on their ability to go to college.
    All of our programs are required to submit performance 
reports. We can provide those to you. There are some that we 
are updating now, based upon this last year's data: Talent 
Search, EOC, McNair. So we can provide those to you, sir. They 
are in what we call performance report profiles.
    Mr. Regula. Mr. Peterson.

           EDUCATING THE PUBLIC ABOUT WORKPLACE OPPORTUNITIES

    Mr. Peterson. I want to come back at this issue again. 
Whose role is it in Government to educate the public? Be it the 
Congress, be it the educators back in the districts? My 
guidance counselors don't know where the jobs are. That's my 
theory. And most of them admit it to me. They don't really 
know, I'm a very rural district in Pennsylvania, they don't 
really know where the jobs are.
    How do we get the message out there of where the jobs are, 
which programs, education programs you take that will lead you 
to a leading job of today, an expanding marketplace? I think we 
get on an educational track too often, and we may turn out 
50,000 X every year and there's only 20,000 jobs. We just keep 
doing it, because kids sign up, we fund them with the money, 
and then they have to go out and somehow re-put their lives 
together, figuring out, doing something other than what they 
were educated to do. I don't think you'll argue against me on 
that.
    But isn't it somebody's role in Government to say, here's 
the unmet needs in this country where there's good paying jobs, 
and we need students? I mean, that information is not readily 
available. People are way behind the curve. I guess I always 
assumed educational institutions, since I've worked with them 
for 20 some years. Most of them are on a track, and as long as 
they can fill a class, they'll fill a class and crank out the 
kids.
    There's no accountability to will they get a job. Do we as 
Government, who in Government should be saying, here's where 
the unmet needs are, here's the jobs that are not being filled. 
They're good paying jobs, they're great opportunities. Whose 
role is it to determine the need for higher education?
    Ms. McLaughlin. Regarding your specific question whether 
anybody predicts where there are expected to be needs for 
particular jobs, the Department of Labor does do some 
predictions about where they expect to have job openings and 
what the job supply looks like. So it allows you to see, in a 
very overarching way, what kinds of jobs there are that are out 
there, what the outlook and the prediction for the future is 
about those jobs and the number of people that are expected to 
be trained for those jobs.
    I am fairly sure that the Labor Department provides this 
information but on a more regional basis also. However, it's a 
tricky endeavor to predict who's in the pipeline being trained 
for certain types of jobs, what jobs are opening and what the 
over-supply or under-supply is for particular areas.
    In a lot of the employment and training programs, and 
counseling programs, the people who are doing the counseling 
use these projections to guide people toward jobs that have a 
shortage of qualified workers.
    This information may not get down to your specific local 
area, but it would provide a sense for people of where the 
likely openings would be in the future.
    Mr. Peterson. I recently met with all of the deans of the 
engineering schools in Pennsylvania, the whole State. Every one 
of their programs are down in numbers. They're all half foreign 
students, or they would be way down. Then we will be issuing 
HB1 visas to keep them here.
    I just think that's a train wreck coming. Nurses, there's 
nobody arguing that we're going to have enough nurses to staff 
our hospitals and nursing homes. It's already a shortage. The 
number coming out of the system is shrinking. The need is 
growing. It's an obvious problem.
    Airline pilots, primary care physicians, the list is fairly 
long. But it seems to me that it's somebody's role, the Labor 
Department predicts. But then why shouldn't your Department 
measure where people last year who graduated were able to go to 
work in the field they went in? Why shouldn't somebody measure 
that? Is there anything wrong with that accountability?

                             JOB DECISIONS

    Ms. McLaughlin. People make their own individual decisions. 
Our system, in terms of higher education at the Federal level, 
is really one of providingequal access and equal opportunity 
for individuals to be able to pursue an education. We do this by 
providing student aid or support services such as those in TRIO, GEAR 
UP, and other kinds of programs. But individuals make their own 
decisions, at a State and local level, about where to go.
    Mr. Peterson. I understand that. We don't want to take away 
the private choice. We don't want to touch that. But young 
people who have good information, you know, I think a popular 
TV program can put more people into a certain field than good 
dollars. A couple of years ago, every young girl I talked to 
was going into criminal justice. It was a group of TV programs 
that they were all wanting to go into criminal justice, this 
exciting field. Having looked at that field a bit, I said, why 
would you want to do that?
    But it was television prompted. But young people need to 
have, I don't think local educators know adequately where the 
jobs are. Parents don't know to help their kids make the 
decisions. Some parents do, but I'm talking in general. You 
take a family for the first time somebody's entering higher 
education, no one in that family has ever, and that's still 
going on very much across America. First member that's going to 
go to higher education. They don't understand this higher 
education system. They don't know the options that are out 
there, where the good jobs are, where the marketplace is.
    I just think somebody, I know the State doesn't do it, but 
it seems like somebody ought to be doing that, publishing the 
success rate of people graduating with this degree and getting 
a job in that field. What would be wrong with, I guess, do we 
have to legislate for you to do that?

                          College Information

    Ms. McLaughlin. We collect data through the National Center 
for Education Statistics, which looks longitudinally at people 
who graduated from high school, go on to college and what they 
do when they leave college. There are data available and 
information available on people as they move through the 
pipeline. It's not done on a yearly basis, however. It's done 
every several years, because it's extraordinarily expensive to 
do those kinds of data collections.
    Mr. Peterson. Do you think we adequately inform the public?
    Ms. McLaughlin. I think there could always be more 
information. Certainly people are making very important 
decisions, and the more information they have to base those 
decisions on, the more that helps them to make an informed 
decision.
    Mr. Peterson. In my view, there are certain areas, and I 
have mentioned some of them, not all of them. But if we don't 
crank it up, we're going to have huge problems running our 
country. Because we're not going to have the minds that are 
going to be necessary to fill those positions to keep us on the 
edge that we should be on with what we spend and our emphasis--
I think I see an answer coming over here.

                           Lifelong Learning

    Mr. Skelly. It wasn't as much an answer as an additional 
comment. Students can go back to school if they decide that 
they want to get retrained for a certain technical field or a 
certain kind of job. Some of our programs would enable them to 
get money to do that. In addition, the tax credit that I think 
Mr. Obey referred to, the Hope and Lifelong Learning tax 
credits encourage students to continue pursuing education 
throughout their lives.
    We had a study some years ago that indicated that on 
average, a person would have seven jobs over a lifetime, seven 
different career lines. People don't just decide they are going 
to go to college and then move to a certain area and stick in 
that job for 30 or 40 years until they retire. The trend now is 
to keep changing. Some of our programs and the tax credits that 
we have would encourage people to do that, so that they can 
respond to the changing economy.
    I think you or Mr. Jackson were saying last week that you 
recognized that the economy was evolving, and that jobs that 
were there 10 years ago are not there now. So people have to be 
able to go back to some kind of education to upgrade their 
skills so they can move on.
    There's information available in things like the want ads. 
Maybe not in your area, but our paper comes each weekend in the 
Washington area, and it's got pounds and pounds of ads. That's 
the old fashioned way of finding a job. Maybe the Government or 
Department of Labor could make the information more widely 
available.
    Mr. Peterson. Well, in rural America, we don't take city 
newspapers. The jobs are not the kind of jobs that you get with 
a college education, most of them aren't. And that's true. I 
get the Pittsburgh Post Gazette and it's interesting to look 
through there and see what jobs are available in the Pittsburgh 
market. And that's true. But don't forget rural America, where 
information is not as readily available.

              AVAILABILITY OF INFORMATION ON FINANCIAL AID

    I want to follow up on one more point. We look at the 
system of aid. It's designed for a young person leaving high 
school going to college. But I want to ask you the question, is 
it user friendly for a 25 year old adult, a young woman that 
has two children, has to maintain a job and start her education 
part time? Is the Pell Grant loan system usable for someone who 
has never used it, never had a dollar out of it? Is it user 
friendly for a part time student that's trying to start their 
educational process? And I'm going to tell you I don't think it 
is. Would you disagree with that?
    Ms. McLaughlin. Well, I think that the programs were 
initially designed for people who are going to school full 
time, in the traditional mode, etc. However, if you look over 
time at the people who are participating, both in higher 
education as well as in our student aid programs, an increasing 
share of the individuals in higher education and in our 
programs, including Pell Grants, are financially independent, 
over 22 years old, and some of them are enrolled part-time. So 
I think we've seen that the programs in fact are used quite a 
bit by people who are not what we think of as the traditional 
college student. They are older, financially independent, may 
have children. So I think that the programs do work for those 
kinds of people.

                        STUDENT AID INFORMATION

    Finding the information and finding out how to get started 
is probably the most difficult part for somebody who has never 
had any experience with college. In many cases, going to the 
local community college and sitting down with a counselor helps 
them to at least figure out, how do I start, where do I think 
about it, how do I go from here.
    Mr. Woods. And the tools we have today to get information 
in the hands of people are improving dramatically.
    Mr. Peterson. That's true.
    Mr. Woods. We have a student help line that handles six 
million calls a year. We have mailings and directcorrespondence 
that goes to high school counselors about how these aid programs will 
work and how to get people into them. The advent of the World Wide Web, 
of course, while not accessible to each and every person, is often 
accessible to libraries and whatever, information we have up on the web 
is light years better than what we were able to provide three or four 
years ago.
    In addition, we have a growing number of public-private 
partnerships, where the private sector is actually financing 
outreach mailings, some of which are directed at particular 
population groups. It would seem to me that we've only begun to 
scratch the surface of what we can do there.
    The shortages you talk about are shortages in particular 
industries. My background is as a business person in the IT 
sector. And I was always struggling to find the right kind of 
people. If anybody gave me half a clue on where to look, I 
would be all over that, with my money to do that. What we're 
trying to promote through these awareness programs is more of 
those partnerships.
    So we can do some things with the authorities we have now. 
The analysis is an expensive proposition. But these companies 
are in touch with what their shortages are, and it almost begs 
the need for the analysis. If we can marshall enough of those 
forces, we can make a dent in the problem.
    Mr. Peterson. I would agree with you with corporate 
America. But you go to the individual, growing small business, 
which is where all of our growth is, they don't have that staff 
and those educational people and personnel people. So we must 
look at those who have the most difficulty using the system, 
the new businesses, the growing businesses. They don't have the 
ability to educate their own, they don't have the ability to 
analyze what all is out there.
    But that's the future of America, is a small business that 
becomes a large business. Corporate America can work it out. 
They know the system and they can make it work.

                        USER FRIENDLY AID SYSTEM

    But that's not who I'm defending. I'm looking out for the 
people, the businesses who need these employees that I'm 
speaking of, but also the people who for the first time are 
going to reach up and get on that ladder of higher education. 
Those are the people that will make that decision whether the 
system's user friendly or not, of whether they ever try to 
climb the ladder. And the community college ladder is the only 
ladder that reaches the ground.
    Unfortunately I have a 17 county district and don't have 
any, in Pennsylvania, don't have any. So I don't have a ladder 
that reaches the ground in my district. We've formed five 
higher education councils trying to take the place of where 
colleges is used, local community centers, to allow people to 
get on the ladder. We offer from GED clear up to MBAs in those. 
It's a unique situation. But it was a matter of need in my 
district, because we didn't have community colleges.
    So to assume that everybody can reach the ladder once 
they're 24 or 30 years old, when they didn't take advantage of 
their high school education, didn't have the stimulus to go on 
to college at that time, there's a lot of bright young people 
who make bad decisions and mistakes when they're young. The 
thing is, we have to make it so that they can reclimb that 
ladder, or when their job goes away, they can get back on the 
ladder. I guess that's the point I'm trying to make with you.

                          VOCATIONAL EDUCATION

    Mr. Regula. Following up on that, a couple of things. I was 
just looking at a list of the breakdown on vocational versus 
technical. As I understand it, each State determines how to use 
the vocational funds, as to whether or not a percentage will be 
assigned to technical education versus vocational, is that 
correct?
    Ms. McLaughlin. That would be the State vocational money. 
That's not within postsecondary education.
    Mr. Regula. So you don't have any of that to deal with in 
your departments?
    Ms. McLaughlin. No. We do fund significant amounts of 
vocational technical training when people decide to go to a 
vocationally oriented institution.
    Mr. Regula. But technical education is postsecondary.
    Ms. McLaughlin. Yes. But we don't fund the institutions 
themselves. We fund students who take the money and attend 
there.
    Mr. Regula. And they can get the Pell Grants for a wide 
variety of things, truck driving, I suppose.
    Ms. McLaughlin. Virtually. I think everything that Mr. 
Peterson mentioned would well be covered by a Pell Grant at a 
proprietary institution or a community college.
    Mr. Regula. I'd be interested in what percentage of Pell 
Grants in dollars go to non-university college programs.
    Ms. McLaughlin. There are about five and a half million 
students in community colleges, and about a quarter of them say 
they are there for job skills. But we could look and see 
further about Pell Grants.
    [The information follows:]

                        ESTIMATED PELL GRANT RECIPIENTS AND AID AVAILABLE FOR AY 2002-03
                                             [$3,850 Maximum Award]
----------------------------------------------------------------------------------------------------------------
                                                            All       Percent of                      Percent of
            Type and control of institution              recipients     total       Aid available       total
----------------------------------------------------------------------------------------------------------------
Public 4-year schools.................................    1,317,356         32.7     $3,309,101,474         34.6
Public 2-year schools.................................    1,466,439         36.4      3,231,878,615         33.8
Private 4-year schools................................      616,601         15.3      1,550,051,061         16.2
Private 2-year schools................................       83,321          2.1        195,205,804          2.0
Proprietary schools...................................      548,711         13.6      1,275,376,817         13.3
                                                       ---------------------------------------------------------
    Total.............................................    4,032,428        100.0      9,561,613,771        100.0
----------------------------------------------------------------------------------------------------------------

                     AVAILABILITY OF VOCATIONAL AID

    Mr. Regula. I think Mr. Peterson's point is that they don't 
know necessarily about the availability of this kind of help. 
You have a website, obviously, but still I suspect a lot of 
young people don't realize that they're eligible for a Pell 
Grant in cosmetology or whatever.
    Mr. Woods. The way the system works, Mr. Chairman, is that 
the school is actually packaging financial aid from a variety 
of sources. And of course, they're keenly aware of these 
programs and how to make them work. We spend a lot of time in 
training and education with them.
    The point where the system doesn't have an active solution 
which is what I think that the Congressman was referring to, to 
get that student in contact with the school to begin with. Of 
course, the schools are recruiting, companies are recruiting, 
and there's where this, I think this gap lies, rather than in 
the institutions. If you contact the institution, they'll tell 
you how to get a Pell Grant.
    Mr. Regula. We've had some bad experiences historically 
where fly-by-night schools, basically the student wakes up with 
nothing except a debt. Have you gotten some controls to 
preclude that from happening?
    Mr. Woods. Absolutely. You can't absolutely preclude it, 
but we sure worked the problem over the past eight years or so, 
there's been a reduction in the number of schools in the 
program of about 1,000, for a round number. We have case teams 
that regularly review the status, the eligibility of these 
schools under regulatory and statutory criteria. We've been 
through a top-to-bottom recertification.
    Mr. Regula. So a student who was contemplating a so-called 
non-academic could check with your website as to whether or not 
a school that that particular individual was looking at is 
qualified?
    Mr. Woods. Yes, they would be able to tell whether they're 
qualified. We certainly publish that data. We have a search 
site that students can go through for a particular location, 
whether it's a two year school or a four year program that 
they're looking at, and get choices. They can get samples of 
aid packages that might be received.
    Again, it's getting the student to the website that's the 
big challenge.
    Mr. Regula. Right. Do you advertise, or does anyone put 
this information in a type of publication?
    Mr. Woods. You won't let me advertise, sir, but we do the 
best we can. These public-private partnerships that I'm talking 
about do involve the private sector stepping up supporting us 
with mailings directly to seniors and to their families using 
their own money. We have outreach programs, mailings, and we 
train high school counselors around the country. So we promote 
awareness of our programs with a lot of help from the private 
sector.

                            GEAR UP AND TRIO

    Mr. Regula. You haven't mentioned GEAR UP. Is that not--
it's somewhat related to TRIO, but in a lower grade level.
    Mr. Belle. GEAR UP is not a part of TRIO. It works with 
those students who are in a cohort of sixth graders and up. 
Talent Search, which might be comparable, we're working with 
individual students. But GEAR UP is a separate program, it's 
not a part of TRIO.

                          COLLEGE PREPAREDNESS

    Mr. Regula. One of the complaints that we get would be the 
fact that students arrive at college or university without 
adequate preparation. In fact, I was talking to an individual 
who manages a law firm with about 1,000 lawyers and said, one 
of our problems is we get lawyers that aren't necessarily good 
at grammar. That is a problem for colleges and universities.
    Where does TRIO play into that, if at all?
    Mr. Belle. It does, sir. A number of the programs such as 
Upward Bound, Talent Search and EOC, provide information about 
college and about financial aid at a very early age. These 
programs also let students know what the requirements are if 
they want to go to college, so they can take the appropriate 
coursework in high school.
    In a program like Upward Bound, part of the summer program 
and also during the academic year you're ensuring students are 
tutored and provided with academic course instruction. There is 
an attempt not only to inform students about the access issue, 
but also to help with skill development.
    I would say that those students who participate in a 
program like Upward Bound and Talent Search, are going to know 
about Pell Grants. Many students who are low-income and first 
generation, have never been on a college campus. Getting them 
on a college campus for a tour, gives them the opportunity to 
see what the campus is like, to talk with admission counselors, 
and to talk with financial aid officers. So therefore, they 
become enlightened about the possibility.
    Mr. Regula. And this is done by TRIO?
    Mr. Belle. That's correct.
    Ms. McLaughlin. Similar kinds of activities are going on 
with GEAR UP in terms of starting with somebody in the sixth or 
seventh grade and working on improving the academic courses 
they're having, improving the quality of the teaching, taking a 
whole class of students and working with them, starting in 
middle school all the way through high school to be sure that 
their chances of going to college are improved by virtue of the 
kind of education they've gotten, whether they've taken the 
right math sequences--as Bob mentioned--mentoring them, 
providing them information about what kind of aid is available.
    Mr. Regula. Who directs these students to TRIO? Is that 
kind of up to a teacher?
    Mr. Belle. It could be a teacher, it could be a counselor. 
It could be a minister, a former TRIO student. It could be any 
number of vehicles in terms of the way a student can find out 
about a TRIO program.

                            TEACHER QUALITY

    Mr. Regula. Teacher Quality Enhancement, one of the 
difficulties or the challenges that confronts us as aCommittee 
is to know what programs work and those that do not work or do not at 
least achieve the desirable goals that we would hope. Have you 
evaluated the teacher quality enhancement program? Does it work? Are we 
getting results?
    Ms. McLaughlin. The Teacher Quality Enhancement program is 
a relatively new program. The first grants in the program were 
made in 1999. We have some descriptive data in terms of what's 
happening in those projects, what they're doing. The longer 
term data on the ultimate effects is not available because it's 
just too early to have those data. We are conducting an 
evaluation and we expect we will have some more information.
    Unfortunately, in some cases, we just haven't had enough 
time elapse to be able to see the full effect of what we think 
will happen.
    Mr. Regula. Dr. Paige, when he testified, I believe it was 
last week, made the point that in the final analysis, the 
teacher is the key to a successful experience for students. You 
can talk about bricks and mortar and talk about textbooks, but 
it's the teacher that's the key. Therefore I think this program 
would be extremely important, particularly as we face teacher 
shortages.
    Ms. McLaughlin. Absolutely. I think that what the Teacher 
Quality Enhancement Grants program has tried to do is to bring 
the schools of education into partnerships with elementary and 
secondary schools and others, to really have all the people and 
entities and parts that are involved in teacher preparation 
working together.

                            TEACHER SUPPORT

    Mr. Regula. I was at a conference that Aspen sponsored. 
What came out of that, one of the problems is that the teacher 
education programs do not do enough follow-up, they don't 
provide support for that new teacher that could help that 
individual be successful, and that they tend to just say, 
you're on your own. Does this program try to address that 
problem?
    Ms. McLaughlin. It is absolutely true that one of the 
biggest problems is the first few years of teaching, how you 
get somebody into the first few years of teaching and support 
them. That is when you lose a large share of your teachers.
    In the Teacher Quality Program, it's talking overall on how 
you trained. But the training also includes what happens as you 
leave the school, as you leave the college and go into the 
classroom. There's also a recruitment piece about how you bring 
people into teaching that would get them to be able to stay in 
the programs. There are a variety of programs that are not in 
postsecondary education that also deal with those particular 
issues that would be in elementary and secondary education.
    Mr. Regula. Could you fund a program where a teacher 
education college would do follow-up with the teachers? There 
would be some expense involved in that, obviously. They'd have 
to pay the individual that was doing the follow-up, the 
professor. Would that be something that could be funded under 
this?
    Ms. McLaughlin. Well, we won't be holding any new 
competitions.
    Mr. Regula. So all your grants are competitive?
    Ms. McLaughlin. In that program, yes.
    Ms. Cichowski. Mr. Chairman, under the recruitment 
component of the Teacher Quality Enhancement Grants program 
that Maureen was describing, the grantees were authorized to 
provide follow-up services to scholarship recipients for up to 
three years. And that will be something we'll be looking at in 
the evaluation of that program, that is, what impact follow-up 
has on teacher retention.
    Mr. Regula. Well, I'm appalled when I hear the statistic, I 
don't know how accurate it is, that half the new teachers that 
start out leave at the end of five years. Is that a reasonably 
accurate statement?
    Ms. McLaughlin. That general order of magnitude is correct. 
Yes.
    Mr. Regula. That's a great loss of skilled people, 
particularly when we're faced with apparently a shortage coming 
down the road.
    Ms. McLaughlin. I think we already have the shortage. But 
those first couple of years are crucial to whether a new 
teacher decides to stay in the profession or not.
    Mr. Regula. A lot of young people in this country are 
depending on you to do these programs well.
    Mr. Peterson, anything further?
    Mr. Peterson. No, Mr. Chairman.
    Mr. Regula. Thank you for coming. You have quite a 
challenge, because you're part of the Nation's legacy to the 
future. Thank you.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 24, 2001.

                           HOWARD UNIVERSITY

                               WITNESSES

H. PATRICK SWYGERT, ESQ., PRESIDENT, HOWARD UNIVERSITY
VINETTA JONES, DEAN OF THE SCHOOL OF EDUCATION, HOWARD UNIVERSITY
MAUREEN McLAUGHLIN, DEPUTY ASSISTANT SECRETARY FOR POLICY, PLANNING AND 
    INNOVATION
CAROL CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION AND RESEARCH ANALYSIS, BUDGET SERVICE
JACK KEMP, MEMBER, BOARD OF TRUSTEES, HOWARD UNIVERSITY
    Mr. Regula. Okay. We will get started here. I would like to 
stay on time, and I just met with the folks from the Heart 
Association. There is a lot of interest in what we do. Okay.
    We are happy to welcome Mr. Swygert, the President of 
Howard University. We are pleased to have you join us, and your 
statement will be made a part of the record. We will appreciate 
if you can condense a little so we have time for questions.
    Mr. Swygert. Thank you very much.
    Mr. Hoyer. Mr. Chairman.
    Mr. Regula. Yes.
    Mr. Hoyer. If I might, I know we have a distinguished new 
chairman of the committee, not new to the Appropriations 
Committee, been a member of the Appropriations Committee for 
many years, extraordinarily able. President Swygert has done an 
extraordinarily good job at Howard, as you know. It went 
through some tough times, has had some challenges. He came on 
board, and he has done an extraordinary job, Mr. Chairman, and 
he is talented enough to overcome Jack Kemp, who is saying he 
is a member of the board, and the president has faced a number 
of challenges. That is, of course, among them, but he is 
overcoming.
    Thank you, Mr. Chairman.
    Mr. Regula. Quarterbacks----
    Mr. Kemp. Is this Saturday Night Live?
    Mr. Regula. Quarterbacks are good at telling others what to 
do.

                       Introduction of Witnesses

    Mr. Swygert. Mr. Chairman, Mr. Hoyer and Mr. Jackson, it is 
so good to see all of you this afternoon. I would like to, if I 
may, reintroduce to you a dear colleague and a great champion 
of Howard University, Mr. Jack Kemp, who would like to share a 
comment on behalf of the Board of Trustees of Howard 
University.
    Mr. Regula. Okay.
    Mr. Kemp. Thank you. President Swygert and Chairman 
Regula--pleasure to call you Chairman. And as for you, Steny 
Hoyer, you said one time that I talk too much. I want to say, 
``How else will you ever learn?'' Jessie, pleasure to be with 
you.
    Let me say, I don't know of an issue facing our country 
today that has more bipartisan support than does education, 
both K through 12 as well as higher education. It has been my 
pleasure to serve on the Board of Howard University since 1993 
when I left Housing and Urban Development. It has been a 
blessing to me, anyway. I have served on the Board with Colin 
Powell, Vernon Jordan and Earl Graves of Black Enterprise 
magazine, who are among very distinguished men and women, and I 
am very proud of our president who has absolutely just turned 
Howard into a world-class university.
    I use the word bipartisan because Andrew Johnson, Vice 
President under Lincoln, became President after the tragic 
assassination. He vetoed the first Freedmen's Bureau which the 
first Republican Congress overrode. And it was really our 
party, Mr. Chairman, who gave Howard a fighting chance. Because 
in 1867, Congressman Cramton of Michigan made Howard--well 
almost--a national treasure in terms of its appropriation.
    So Howard has had Democratic support and Republican 
support. It has overcome a lot of obstacles. And I am very 
pleased that it was founded on the principle started by Abraham 
Lincoln that there had to be a bureau set up in the White House 
under his administration to advance the cause of racial 
reconciliation in America subsequent to the Civil War. His 
tragic death left us in a vacuum, but Howard has been at the 
forefront of educating young men and women in a world-class 
way.
    I am very proud of Pat Swygert. He was at the State 
University of New York at Albany after Temple University. He 
was there for 4 years. He came to Howard in 1995, and we are 
very proud of him. He is a distinguished scholar, was chief of 
staff to Charlie Rangel for several years here on the Hill; and 
I am very proud to call him a friend and president of Howard 
University, Pat Swygert.

                           STUDENT ENROLLMENT

    Mr. Regula. What is the enrollment?
    Mr. Swygert. Our enrollment is approximately 10,000, 
slightly more than 10,000.

                           Opening Statement

    Mr. Chairman, if I may, I want to again thank you and 
Congressman Hoyer and Congressman Jackson for giving us this 
opportunity to appear before you this afternoon on behalf of 
Howard University.
    Mr. Hoyer. Excuse me. Mr. Sherwood--Congressman Sherwood is 
here, a new member of our committee but very able member.
    Mr. Swygert. Congressman Sherwood. I have had the pleasure 
of meeting with him earlier today. And again, Congressman, 
thank you for your time; and I hope we can visit with you again 
some time soon as well.
    I would like to, if I may, Mr. Chairman, begin by taking up 
where Mr. Kemp left off, and that is to extend to you and to 
all the members of the committee an invitation to visit Howard 
University. I hope your schedule will permit you to do so. I 
think you will find it a worthwhile visit.
    Mr. Chairman, in light of the time and your suggestion that 
I share with the committee highlights so we can maximize the 
amount of questions and my responses to questions which may be 
asked, I will do just that, and with your permission I would 
like to submit my written statement for the record.
    Mr. Regula. Without objection.
    Mr. Swygert. Thank you, sir.
    If I could just highlight one or two matters, I would like 
to do so at this time.

                      History of Howard University

    As Mr. Kemp indicated, in 1867 Howard University was 
founded to provide a higher educational opportunity for newly 
freed slaves. It wasn't happenstance or just circumstance. It 
was quite purposeful. The founding of Howard University as a 
national university--indeed, our charter was issued not by 
locality, not by State, but by the Federal Government itself. 
We are a congressionally chartered institution. We are very 
proud of that and very appreciative and thankful for the 
support we have received over 134 years. Throughout that time 
we have sought to make real our motto of Veritas et Utilitas, 
truth and service.
    If you look closely at our alumni, over the 134 years of 
our existence, you will find within its ranks some of the most 
well-known, distinguished Americans of the last century; and we 
are very proud of that. But as proud as we are of our history, 
Mr. Chairman, we are prouder still of what we are doing today 
and what we hope to contribute in the future.
    If I may, I would like to highlight one or two things that 
we are doing today that we are proud of; and I think all the 
Members of the Congress should feel that your investment over 
time really has been worthwhile.

                        Recent Student Scholars

    As Mr. Hoyer knows and as Mr. Jackson knows, over the last 
2 years, Mr. Chairman, if you recall, Howard University has 
produced a Rhodes Scholar, Carla Peterman, who appeared before 
the committee 2 years ago.
    Most recently, within the last several weeks, we have been 
notified that two of our undergraduate students have been 
selected as Fulbright Scholars, and I am very proud of that as 
well. We have produced Wilson Scholars, Gold Order Scholars, 
Eisenhower Scholars. We have more than 100 National Achievement 
Scholars on campus.
    But all of this academic success and achievement of our 
students really pales in comparison to what we are proudest of, 
namely, of our ability to provide leadership for America. Our 
graduates are known far and wide for their commitment to public 
service, their commitment to civic and social life around and 
throughout the country; and we are very, very proud of that 
indeed.

                     Critical Research Initiatives

    Mr. Chairman, we also have been a leader in the area of 
research, particularly as it relates to those diseases and 
pathologies that have a particular presence in the African 
American and minority serving communities. We are proud of the 
work that we have done, whether it is the pioneering of blood 
plasma work performed by Dr. Charles Drew before, during and 
immediately after World War II, or whether it is some of the 
more recent work that is being done in the human genome led by 
Dr. Georgia Dunston.
    Mr. Chairman, last year, Dr. Dunston appeared--and Dr. 
Dunston, as the members of the committee know, is a colleague 
of Dr. Francis Collins who leads the Federal Human Genome 
Project. Howard University is intimately involved in an area of 
research that is very, very important to us, namely, the 
exploration of those diseases that have a particularly high 
incidence of presence in the African American community. Adult 
onset diabetes is one example; hypertension is another.
    So much is taking place at the University today, all in 
anticipation of the leadership that we hope to continue to 
exercise in the future. We are dedicated to that.

                  Restructing of Schools and colleges

    Congressman Hoyer observed in his remarks that 6 years ago, 
when I became president, the University confronted a number of 
challenges. We made a number of very tough decisions, Mr. 
Chairman, including a reorganization of our schools and 
colleges. I am one of the very few presidents, Mr. Chairman, 
who is alive and well enough to tell you that I began with 17 
schools and colleges at Howard; and we reorganized ourselves so 
that we now have 12; and I am still here to talk about it. I am 
here because of the faculty who worked to make it happen and 
the students and the alumni.
    But it was a very difficult, stressful and painful time all 
around. But we made those hard decisions because we wanted not 
just the same university but an even better university.

                    Strategic Framework for Action I

    All of that came in the context of our first strategic 
planning program called Strategic Framework for Action I. Mr. 
Chairman, we are circulating today for the committee's review 
of the Strategic Framework for Action II; and if I may, I would 
like to conclude my remarks by saying a word or two about our 
new strategic planning program.
    Our first program was designed to deal with some very 
pressing and difficult issues confronting the University, both 
structural issues and issues having to do with, quite frankly, 
in my view a kind of drift that took place at Howard University 
as it has taken place at other institutions when you try to do 
all things all the time for all people. We became far more 
disciplined and far more focused 6 years ago. We have continued 
to do so.

                   STRATEGIC FRAMEWORK FOR ACTION II

    Our new strategic framework seeks to build upon the lessons 
that we learned in that first exercise and also to rededicate 
ourselves to the core sciences and disciplines that I think 
will determine the future of our institution and leadership in 
American higher education generally, biomedicine being one 
area, computational science and engineering being another.

         Interdisciplinary Science and Engineering Center (ISE)

    In that regard, we have been talking for 4 years now, and 
sharing with the committee our hopes and vision for the 
Interdisciplinary Science Center. This science center, Mr. 
Chairman, will provide us with a new School of Engineering, a 
new facility for biological sciences for mathematics, physics 
and chemistry. We desperately need this new center. The 
facilities that house these functions at Howard University--the 
newest facility would be our School of Engineering. Our School 
of Engineering was designed in the late 1940s, funding was 
finally obtained in the 1950s, and the facility was built in 
the late 1950s. It is in desperate need of replacement.
    Our chemistry building, where a great deal of terrific 
chemistry has been taught and chemistry explored as a research 
discipline, the building itself was built in 1936, our physics 
building was built in 1935. We believe that it is past due that 
those buildings and facilities be replaced.
    We have a rather, we think, exciting, ambitious and 
eminently doable scheme and framework to replace those 
facilities. We call it the Interdisciplinary Science and 
Engineering center.
    Mr. Chairman, I want to thank you for this opportunity, and 
the members of the committee. As I said a moment ago, I was 
very, very pleased and delighted that Congressman Sherwood 
found time to permit me to visit with him today. I very much 
appreciate it. And just yesterday, Congressman Hoyer, who is a 
great champion of Howard University, found time for me as well. 
Thank you again for doing so. And we very much appreciate the 
insight and the support that Congressman Jackson has provided 
us as well.
    Thank you, Mr. Chairman.
    [The prepared statement follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   Howard University Board of Trustees

    Mr. Regula. Mr. Kemp, does your Board cover a broad sweep 
of the United States, or is it pretty much narrow?
    Mr. Kemp. No, it is very broad. The Board has people in and 
out of academia and the business community. It represents 
ethnic and racial and demographic diversity, and it is led, of 
course, by our chairman, Frank Savage, the CEO, I think, of 
Alliance Capital. So it is a fabulous Board. I think it is one 
of the best boards, other than my attendance, that I could 
possibly think of. And I think we have got the best president--
I can't think of a president in the United States in academia 
today better suited for this job of taking Howard University 
here at the dawn of the 21st century into that century better 
than Dr. Swygert.

                         Student Body by State

    Mr. Regula. The student body is also from more than just 
this area.
    Mr. Swygert. We have----
    Mr. Kemp. Every State in the Union, as I understand.
    Mr. Swygert. Every State, Mr. Chairman, is represented in 
our student body; and every State is represented in our alumni 
base; and we have students from 101 countries from around the 
world.
    Mr. Regula. One hundred and one countries.
    Mr. Swygert. One hundred and one, Mr. Chairman.
    If I could say just one other word about our board of 
trustees. Our Board of Trustees is made up of distinguished 
citizens from around the Nation, as Mr. Kemp indicated. Also, 
we have, as ex officio, the Secretary of Education. Secretary 
Paige is also a member of our Board and is represented here 
today as well.

                     Graduation and Retention Rates

    Mr. Regula. What percent of your students graduate that 
start?
    Mr. Swygert. Well, we are very, very pleased to report that 
our numbers are not only competitive but I think are growing 
and quite attractive. When you speak of graduation for our 
generation, Mr. Chairman, graduation meant 4 years. Today, the 
benchmark is 5 and 6 years. Five and 6 years out, more than 60 
percent of our students graduate; and that is a very, very 
significant number in American higher education today.
    But, in addition to that, we have been making some progress 
in an area that I think is very, very important. When I 
appeared before the committee for the first time 6 years ago, 
we talked a fair amount about graduation rates and retention. 
Are we retaining our students from first year to second year? 
Because if you can't get them from the first to second year in 
undergraduate education--well, our retention when I came was 
about 79 percent; and as one of our exhibits indicates in my 
testimony, we are now up to nearly 85 percent. So we are moving 
in the right trajectory, and we are very excited about that as 
well.

                           Graduate Programs

    Mr. Regula. You have a number of graduate programs, I 
assume.
    Mr. Swygert. Yes, sir.
    Mr. Regula. Medicine, law.
    Mr. Swygert. Medicine, law, dentistry, the graduate school, 
the MBA program in business, allied health and nursing. We have 
26 Ph.D. programs, and last year we awarded more Ph.D.s to 
African Americans than any other institution in the Nation. We 
awarded 91 Ph.D.s last year.

                          Teacher Preparation

    Mr. Regula. There is a shortage of teachers. Do you do 
teacher education?
    Mr. Swygert. In fact, the Dean of Education, Dr. Vinetta 
Jones, is with me today. We have a distinguished faculty in 
education.
    There are two areas in education, Mr. Chairman, as you 
know. One, classroom teachers; and certainly we desperately 
need more competent and committed classroom teachers. And we 
have teacher education.
    Secondly, we need more well-trained and committed school 
administrators. And one of the things that Dean Jones is 
doing--and this is her second year as dean and one of the 
reasons why we are so excited about her--is that she is 
emphasizing both classroom instruction and trying to bring both 
to the local community and nationally, the best pedagogy and 
techniques in terms of school administrators at the principal 
level, the department level, and certainly the superintendent 
level, as well.
    Mr. Regula. I have a number of other questions but probably 
will put most of them in the record because of time 
constraints.
    Mr. Hoyer.

                         Funding for ISE Center

    Mr. Hoyer. Thank you very much, Mr. Chairman.
    Mr. President, you mentioned--talked about at the end of 
your opening comments, I know one of your priorities is an 
Interdisciplinary Science Center.
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. Can you--my understanding is you need $23 
million.
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. Can you tell the committee whether or not that 
can be phased, whether we need to do it all at one time, 
exactly what the financing necessity is?
    Mr. Swygert. Well, Mr. Hoyer, we certainly would appreciate 
whatever the committee can do. The $23 million would permit us 
to get in the ground within the next 9 months.
    We have assembled the land. There are no site acquisition 
costs. There are no apparent zoning issues orcommunity 
opposition issues. We have the land assembled. We have the zoning in 
place. We have the support of the school district, the support of the 
mayor, the support of the community groups. The $23 million would 
permit us to get into the ground.
    The total projected cost, looking out over the next three 
and a half years of construction is roughly $146 million. But 
the $23 million would permit us to get going. We believe that 
part of the facility will be financed through partnership with 
the private sector.
    As one example, to build this science center we will 
require a fairly substantial garage to make it work. We are 
very confident that we will be able to enter into a public-
private partnership with a parking operator or consortium of 
operators here in Washington to help us build a new garage. 
That is the kind of expense that goes into that $146 million. 
We think we can reach that.

                     LIBRARY CONSTRUCTION PROJECTS

    As you know, our confidence in Congressman Hoyer is perhaps 
awfully high today, Mr. Chairman, because we just completed 
construction of two new libraries, a health sciences library 
and a law school library. And, again, I want to especially 
thank Congressman Hoyer for his support. Both projects came in 
on time and at budget. So we think we have the capacity on 
campus now to make a project of this size a reality.

                            ISE PROJECT COST

    Mr. Hoyer. So we understand when we get to markup we are 
talking about a need for $23 million this year.
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. For fiscal year 2002. What would be your 
projection of a balance that would be necessary, that you would 
rely on the Federal part of this partnership?
    Mr. Swygert. We think that we can do--through public-
private partnerships--we think that we can do about half of 
that cost ourselves. Part of the equity we bring to the table 
is the ground that we currently own. We own three city blocks. 
We have amassed--assembled three city blocks over a number of 
years in anticipation of this project. That is part of our 
equity participation.
    Secondly----
    Mr. Hoyer. If I can interrupt, Mr. President, do you know 
what the value of that property is? You are starting with a 
capital asset of how much?
    Mr. Swygert. Oh, my gosh, three blocks in Washington, D.C., 
in northwest Washington, I would like to give--have an 
opportunity to submit something for the record.
    Mr. Hoyer. If you could.
    [The information follows:]

                             Property Value

    The value of the property owned by Howard University within a 
three-block radius in Washington, DC, is in excess of $20 million.

    Mr. Hoyer. My point being, obviously, that is a very 
substantial portion of the project that is being contributed or 
already assembled by the University.
    Mr. Swygert. It is. It has been assembled, and it is clear. 
It is now being used for surface parking. It has taken the 
University nearly 20 years to assemble this ground, but we now 
have it.
    Mr. Hoyer. So this is a 20-year effort that we are now 
culminating?
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. So we are talking $146 million. Half of that is 
73. If we did 23 this year, a balance of 50 that you would 
need. Would you need that in 2003 or phased in as well?
    Mr. Swygert. We need that phased out over the next 3 years. 
We believe that you are looking at about a three-and-a-half 
year window for construction. So 4 fiscal years is how we 
would----
    Mr. Hoyer. So approximately 25 or 23 and then 20, 20, 20, 
somewhere in that nature?
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. Thank you very much, Mr. President. Thank you.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman.

                      UNIVERSITY'S STRATEGIC PLAN

    President Swygert, last year you provided the subcommittee 
with a status report on your progress with respect to your 
strategic plan. As I understand it, the current plan ends this 
year. Today you are providing the committee with some aspects 
of the new strategic plan. I was hoping if you could briefly 
describe the difference between the first 5-year plan formerly 
introduced to the committee and the new one.
    Mr. Swygert. Well, thank you very much for the opportunity 
to do so.
    The first plan that we presented to the Congress was a 
plan, quite candidly, that was designed to deal with some of 
the challenges that Mr. Kemp referred to in his opening 
comments. Those challenges had to do with an organization of 
academic programs that in our view was inconsistent both in 
terms of our student population and the resources we had to 
adequately service that organization.
    Put another way, Congressman Jackson, we had 17 schools and 
colleges, and our conclusion was that that was just too much, 
too much overhead, too much administrative attention devoted to 
the way we were organized.
    Secondly, the first plan was designed to deal with a very, 
very pressing need to restate the core values of the 
institution, to really get busy again regarding recruitment, to 
emphasize research and excellence at the University. Andthen, 
of course, we had many nuts and bolts kinds of issues, a substantial 
catalog of deferred maintenance on campus, a host of issues.
    This plan seeks to build upon the success we have enjoyed 
over the past 5 years with your support and the committee's 
support, and the success I think has been measurable, and it is 
available to you to see and to judge, to build upon that and to 
enhance science and research at the University.

                     MEDICAL AND SCIENCE FACILITIES

    We do have, Mr. Chairman, a medical school. We have a 500 
bed hospital founded in 1863. We have an outstanding dental 
school, and an engineering school. We have all of the sciences 
schools. Now it is time to build on those sciences.
    Mr. Regula. Excuse me, is the hospital open to the public?
    Mr. Swygert. Oh, yes, sir.

                    FISCAL YEAR 2002 BUDGET REQUEST

    Mr. Jackson. Mr. President, I have one final question. I 
notice that your budget request of $232.5 million is level with 
last year's request. Many of the other entities that are 
covered in the education bill that have come before our 
committee are seeking essentially the same increase that the 
overall Department is seeking, roughly a 6 percent increase. I 
am wondering, one, why Howard has chosen to offer a level 
request and not increase it in keeping pace with the overall 
increase being requested by the overall Department; and if in 
fact Howard did pursue such an increase, which apparently you 
are not, I am wondering what you would use the extra funds for 
if you were pursuing it?
    Mr. Swygert. Well, Congressman, let me be quick to add that 
the budget mark before you is OMB's budget mark. We certainly 
have no intention not to ask for and earnestly petition the 
committee for our fair share.
    Secondly, were we to receive a 6 percent increase, we have 
still an enormous catalog of deferred maintenance. We have 
faculty salary compression issues to deal with. We have a host 
of issues that those dollars could certainly be placed next to, 
including support of those distinguished faculty members such 
as Dr. Georgia Dunston who appeared before the committee last 
year. And Dr. Dunston and her colleagues in the Human Genome 
Project at the University certainly can and would, I am sure, 
put those resources to good use.

                       FACULTY SALARY COMPARISON

    Mr. Jackson. Let me ask one final question, if I might, Mr. 
Chairman. You raised the question of faculty salaries. 
President Swygert, I am wondering how does Howard University's 
pay scale and pay grade for faculty members compare with local 
institutions--George Washington, Georgetown and other schools--
that might be competing for faculty in the same market? Is 
Howard competitive and are there ways in which Howard's 
competition could be strengthened?
    Mr. Swygert. Well, Congressman, thank you very, very much 
for that question; and I am sure all my faculty colleagues 
appreciate that question as well.
    Six years ago, Mr. Chairman, when we put before the 
committee our first strategic plan we did something that the 
committee I think found as a very good way of assigning 
benchmarks to our performance. We agreed that there were four 
peer institutions that we would look to from time to time in a 
sense to see how we are doing, Georgetown here locally, 
University of Maryland at College Park, University of Virginia 
and Vanderbilt as well. We selected these institutions because, 
though they may differ from us in size, in terms of complexity 
of organization and research missions and research initiatives, 
they looked more like us than not in that sense.
    The only area in which we are competitive, Congressman 
Jackson, in terms of faculty salaries today, in spite of our 
best efforts over the last 5 years, is at the assistant 
professor level. If you look at assistant professors among us, 
generally we are competitive. That is to say, we are in the 
market for assistant professors along with all other 
institutions, and at that entry level we put competitive 
packages together. But once on campus and once the professor is 
engaged at the University, the disparity grows immediately; and 
it becomes more pronounced as you go up into the ranks. 
Associate professor and most assuredly at full professor, that 
gap has grown; and that makes it very, very difficult to 
retain. We can recruit. It is the retention, and retention many 
times comes down to not simply benefits. We are fairly 
competitive with benefits and competitive with quality of life, 
but it is salary. It is what you take home, and that is where 
the disparity shows up.
    Mr. Jackson. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman.
    Dr. Swygert, I certainly enjoyed the time we spent this 
morning, and that was good for me.
    Mr. Swygert. Thank you, sir.
    Mr. Sherwood. I have two questions, one of you and one of 
Dr. Jones. You talked about the University's work in adult 
onset diabetes and hypertension----.
    Mr. Swygert. Yes, sir.

                 DISSEMINATION OF RESEARCH INFORMATION

    Mr. Sherwood [continuing]. And we are all aware of how 
important that work is and how vitally needed it is in our 
society. But what I started to worry about lately is that this 
work is being done and how do we get to the health care 
delivery system--I worry that so often throughout the country 
as a whole we don't get the latest techniques delivered because 
we don't have a good system to get that information 
disseminated. Can you help me with that?
    Mr. Swygert. That is a very important observation. 
Dissemination of new-found knowledge is taking place in I think 
two primary ways today. The first is rather traditional, 
through health care professionals themselves, through 
established networks, through typical educational protocols 
that we see both informal and formal around the country.
    But there is another way in which the dissemination of new-
found knowledge is taking place, and that is matching it to 
emerging technologies. So that today, as an example, at our 
medical school, distance learning is being used through the 
Internet and the Worldwide Web to get information out faster 
and quicker and in a more precise way than ever before.
    There is also a field that has developed--and if it sounds 
as if it is more academic than not, you will forgive me, but 
the notion of translational research. And translational 
research seeks to take clinical research and clinical practice 
and trials and peer research, bench research and scientific 
inquiry and to see how that research really operates and 
functions in a significant assessment mode where it is supposed 
to do the most good.
    Howard University is emerging as a leader in that regard, 
and we are continuing our support, and indeed we have been 
funded fairly substantially because of what we are doing in 
terms of awareness programs. And what I would like to do,Mr. 
Chairman and Congressman, if I may, I would like to add to the record 
at the conclusion of my remarks a brochure which describes a project 
under the direction of Dr. Lena Austin, Department of Microbiology at 
the University, where we are trying to do just this very same thing. 
Dr. Austin has been rather handsomely funded by NIH to carry out this 
project, and I find it absolutely fascinating, and it is certainly 
something that I think the committee may find of interest as well.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Sherwood. Thank you very much.
    Mr. Swygert. Thank you, sir.
    Mr. Sherwood. NIH testified in front of this committee and 
one of the things that they told us that was interesting was 
that the term ``adult onset diabetes'' is almost a misnomer and 
they almost have to change the definition because of diet and 
obesity, how we are having that younger and younger; and I 
think it is an awareness program that we certainly need. Thank 
you for that.

               SHORTAGE OF QUALITY SCHOOL ADMINISTRATORS

    Dr. Jones, prior to coming here I had 20 years on the 
public school board. The shortage of talented available school 
administrators is one of the great problems in the country, I 
think; and I wanted to ask you if you think you have sufficient 
candidates. And then I want to ask you how you are teaching 
them to cut through the inertia of the system and get results.
    Ms. Jones. Well, thank you for that question. We are 
preparing administrators to draw from the best practices and 
use in a variety of communities and diverse populations, 
preparing them to be effective principals. We know the research 
that says that the principal is so important in the effective 
learning and teaching within schools; effectiveness of a school 
and then in the preparation of leaders in whole school systems. 
We have a doctoral program--a new doctoral program this past 
year in preparing superintendents and curriculum specialists 
and trainers of teachers for urban and other diverse 
communities, rural communities and so on; and we are looking at 
expanding that opportunity by establishing a Center for the 
Preparation and Renewal of Urban Leaders. We are focusing very 
much on this area. We know that it is in crisis in this 
country, and we have requests from districts around the D.C. 
area; and we know that throughout the country this is an issue 
of working with them. We are looking, too, to using technology 
to be able to expand our outreach beyond just those who can 
come to our campus, of providing some of the ongoing, in-
service continuing education for them.
    Mr. Sherwood. Thank you. It has been my experience that all 
enterprise needs management, and nothing needs more management 
than a public school, and it is very difficult to come by. 
Thank you.

                             ALUMNI SUPPORT

    Mr. Regula. What kind of support do you get from your 
alumni, both financial as well as recruiting students, in 
supporting the school generally?
    Mr. Swygert. Our goal that we set out in our first 
Strategic Framework was to have approximately 20 percent alumni 
participation rate at this time. We believe we will be able to 
report to the Congress at the end of this year a rate of about 
15 percent. The national norm is about 16 percent. So we have 
made some considerable progress. When I became President, Mr. 
Chairman, our alumni participation rate was not in the double 
digits. It was in the single digits. So we have made some 
movement there.
    I am very, very pleased to report at our last Charter Day 
Dinner, a dinner that we hold each year to celebrate the 
granting of our charter by the Congress, the chairman of the 
Board of our Trustees, Mr. Frank Savage, who is chairman of 
Alliance Capital International, made a gift of $5 million to 
the University which sort of sets a nice table for other 
alumni, a nice floor. And we will be announcing, Mr. Chairman, 
in March of 2002, our Capital Campaign; and it will be a rather 
ambitious goal that we set for ourselves. But we are very 
excited, and we believe we have more than a fair opportunity to 
raise a substantial amount of money.

                      STUDENT ENROLLMENT BY STATE

    Mr. Regula. What percent of your students are not from the 
greater Washington, D.C., area?
    Mr. Swygert. I would say that outside of Washington we have 
got about 45-46 percent. But the number is not what it seems to 
be because, what happens, a lot of our students come from all 
over the country and in a sense take up residence in either 
southern Maryland or northern Virginia and that becomes their 
residence, certainly during their undergraduate and 
professional education, but if you look at the point of origin, 
where they come from initially as first-year students, and look 
at the undergraduate program, a substantial majority come from 
all over the country.
    Mr. Regula. Mr. Hoyer.
    Mr. Hoyer. Looking at this enrollment by State, it would 
appear from this from Maryland and Virginia, although District 
of Colombia is not listed here, maybe I am missing it, so I 
don't know about Washington, D.C., the States are listed. But 
there are 2,500 from Maryland and Virginia, which would be a 
fourth of the 10,000. So whatever you add to the District of 
Columbia--so it might be more than 50 percent from outside the 
region.
    Mr. Swygert. Yes, yes, we have it in the--to my left, Mr. 
Chairman, to your right [Refers to Exhibit 2].

                       BOARD OF TRUSTEES CHAIRMAN

    Mr. Hoyer. Mr. Chairman, I think I am right on this. Frank 
Savage is about 60.
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. He graduated from Howard.
    Mr. Swygert. Yes, sir.
    Mr. Hoyer. Mr. Chairman, I like this job. I want you to 
know that. When I was 18 I was recruited out of Suitland High 
School to work at CIA, and I worked there 8 to 12 at night and 
went to the University of Maryland my first year. Then my 
second, third and fourth year I worked 3:30 to 12 at night at 
CIA, and we didn't want to work 3:30 to 12. And they eliminated 
the 8 to 12 shift, and none of us could afford to go to college 
without working. One of my coworkers at CIA was Frank Savage, 
and we called him Frank Sa-vage.
    Mr. Swygert. Savage.
    Mr. Hoyer. Because he was dressed as coolly as these four 
gentlemen in front of me and President Swygert. He was 
absolutely the best dresser that we had in our crowd of about 
18 college students who worked at night as file clerks. We 
thought it was--we now all have been replaced by computers, of 
course, that recalls the information instantly. But he went 
right and I went wrong, apparently, Mr. Chairman.
    Mr. Swygert. Well, Congressman Hoyer, if I may, I think 
both Congressman Hoyer and Frank Savage, Mr. Chairman, and the 
other members of the committee really represent what this 
Nation is about, really two great American success stories. It 
is interesting that Congressman Hoyer referred to Frank Savage 
as Frank Sa-vage.
    Mr. Regula. Well, for $5 million he should.
    Mr. Swygert. Well, the chairman of our Board of Trustees, 
Frank Savage's mother owned and operated a very small beauty 
parlor near our campus on Georgia Avenue; and the name of the 
beauty parlor was Madame La Savage. That was the name. And I am 
sure the Chairman will very much appreciate that 
acknowledgment, that two young fellows, one could be a senior 
Member of the United States House of Representatives and the 
other the chairman of Alliance Capital, both great successes.
    Mr. Regula. Mr. Jackson, do you have anything further?
    Mr. Jackson. Mr. Chairman, I do not.
    Mr. Regula. Well, thank you very much for coming; and I am 
sure we will have a number of questions for the record.
    Mr. Swygert. Yes, sir.
    Well, Mr. Chairman, let me again renew my invitation to you 
to visit the campus; and we will try to find some time, Mr. 
Chairman, at your convenience to come to Howard. We really 
would love to have you and Congressman Sherwood and all the 
other members of the committee.
    We have been blessed with the presence of Congressman 
Hoyer, and our students again thank you for Truth Hall and 
Crandall Hall. Thank you so very much.
    And Congressman Jackson--so much involvement and interest 
in research at the University. We thank him as well.
    Mr. Chairman, thank you so much on behalf of all of our 
colleagues; and especially our faculty and students thank you, 
sir.
    Mr. Regula. Thank you.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 24, 2001.

                          GALLAUDET UNIVERSITY

                               WITNESSES

I. KING JORDAN, PRESIDENT, GALLAUDET UNIVERSITY
FRANCIS V. CORRIGAN, DEPUTY DIRECTOR, NATIONAL INSTITUTE ON DISABILITY 
    AND REHABILITATION RESEARCH, OFFICE OF SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE

                        Introduction of Witness

    Mr. Regula. Okay, we will change here to Gallaudet, Dr. 
Jordan.
    Mr. Hoyer. Mr. Chairman, if you can--I want to hear Dr. 
Jordan's testimony. Then I am going to have to leave right 
away. And I don't want to interrupt after his testimony, but I 
have got--I am supposed to leave 5 minutes ago, but I want to 
hear Dr. Jordan's testimony.
    Mr. Jackson. Mr. Chairman, I associate myself with Mr. 
Hoyer.
    Mr. Regula. Okay. Before we do start, we have the three 
witnesses, but I would like to note that Frank Corrigan, the 
Deputy Director of the National Institute on Disability and 
Rehabilitation and Research, is here on behalf of the 
Department of Education; and your statement regarding the 
administration's request for the Special Institutions Panel 
will be made a part of the record.
    Mr. Corrigan. Thank you, Mr. Chairman.
    Mr. Regula. Thank you for coming.
    Dr. Jordan.
    [Clerk's note: Opening Statement of Francis V. Corrigan is 
located on page 414.]

                   Opening Statement--I. King Jordan

    Mr. Jordan. Mr. Chairman, thank you very much. I also would 
like to submit my written testimony for the record and make a 
few oral comments.
    It is a pleasure to appear before you, sir. I am glad to 
have followed Howard University.
    Gallaudet also has a long and distinguished history with 
the United States Congress, in fact, 3 years more than Howard 
University. We have been located in the same place, in 
Washington, D.C., since our charter was signed in 1864 by 
President Abraham Lincoln. Actually, Congress' relationship 
with the University goes back even further, to the Columbia 
Institute for the Deaf and Dumb, which was established in 1856. 
I did some research, and I believe that makes Gallaudet the 
third oldest educational institution that is supported by 
Federal appropriation, following only the United States 
military and naval academies. That is very important.
    Gallaudet was established around the same time that the 
Congress was establishing the land grant colleges and 
universities. Also, it is when the HBCUs were being 
established, which obviously includes our sister institution 
here in Washington, Howard University. This is not a 
coincidence. Just as barriers continue to exist for people of 
color in the United States, so do they for deaf people. So 
Gallaudet and the HBCUs continue to serve a very vital 
function.

                           TYPES OF PROGRAMS

    Gallaudet is also more than just an undergraduate program. 
I listened with interest to Howard University's testimony. 
Gallaudet also has four doctoral programs and about 20 masters 
level programs. We have an educational administration program 
that trains Ph.D.-level individuals to become superintendents 
and administrators at schools for the deaf.
    Congressman Sherwood, I am sure you know that the 
Pennsylvania School for the Deaf in Scranton is one of the 
strong, good schools for the deaf and is in your congressional 
district, sir.
    Congress also authorized our graduate school in 1891. So, 
for more than a hundred years Gallaudet has been the leading 
provider of teachers of deaf children in the United States. 
But, the graduate school offers a lot more than just education.
    Also, we have a high school, the Model Secondary School for 
the Deaf, and an elementary school, the Kendall Demonstration 
Elementary School, both of these chartered by the Congress to 
serve as model schools to help improve education of deaf 
children throughout the United States. Thus, we serve deaf 
people from infancy through adulthood, from preschool programs 
through Ph.D. degrees.

                             ALUMNI SURVEY

    Our record of success is enviable. Recent alumni surveys 
show that about 40 percent of our BA graduates go on to earn 
advanced degrees. This is about twice the national average of 
BA graduates. Also, about 4 percent or less of our graduates 
are unemployed and seeking work. With graduate degrees, that 
number is 2 percent.
    Alumni also report a very high level of satisfaction with 
our internship programs. A large majority of our students 
participate in one or more internships when they are pursuing a 
degree.
    I asked two of our interns to join me today, so with your 
permission I would like to introduce those two individuals.
    Kelly Carragher is a senior majoring in communication 
studies. She has a grade point average right now of 3.91. She 
is doing an internship now in a place called D.C. United where 
she is planning special events.
    Travis Bastow is a sophomore. His major is chemistry with a 
minor in math. His GPA right now is 3.98. Last summer, he did 
an internship at Duke University where he did research on water 
disinfection.
    I hope you and the other members of the committee have an 
opportunity to talk to those two because they can tell you much 
better than I why Gallaudet is a special place.
    Our Laurent Clerc National Deaf Educational Center has 
cooperative programs at 98 sites in 46 States. One of the most 
exciting programs is called Shared Reading. Shared Reading is a 
program that teaches strategies to parents of young deaf 
children to help them enhance the literacy skills of those 
children.
    Obviously, I am very proud of our long and rich history, 
but I would be remiss if I didn't mention two terrible 
tragedies that hit our campus in the last several months. Two 
of our students were brutally murdered on campus. This, of 
course, has refocused our attention on safety and security on 
the campus.

                             Budget Request

    The administration budget put forth for Gallaudet 
University for fiscal Year 2002 is $89.4 million, the same 
level as appropriated last year.
    While Congress was very generous to Gallaudet throughout 
the years, I need also to mention some of the challenges we 
face.
    First, we must very publicly and very visibly increase our 
commitment to the safety and security of our campus. We need to 
do that by increasing the staff and increasing our use of 
technology to monitor the campus. Inflation in the economy is 
now about 4 percent. The salaries of our dedicated faculty and 
staff have to keep pace.
    While I am talking about faculty and staff, I have to 
mention here the remarkable job they did during the crisis. 
They came in evenings and weekends. They were willing to put 
themselves in potential danger when we didn't really understand 
the nature of the risk on campus. They are really fine people, 
and we have to maintain competitive salaries.
    Also, we have to keep pace with changes in technology. No 
single factor is more important for deaf learners than advances 
in computer technology. When you sit in front of a computer 
screen and you type on a keyboard, it really doesn't matter if 
you can hear or speak. We have made major investments in 
computer technology in recent years, and the need to do that is 
obvious.
    Finally, as I am sure all the committee is aware, energy 
prices continue to skyrocket. We will be paying substantially 
more for our electricity, our gas, our oil.
    I think it is important for me to note, as did Howard 
University, that during my presidency we have made substantial 
reductions in both faculty and staff numbers and in 
administrative structure and number of schools. Recently, we 
went from nine separate schools to three. Fewer people are 
doing more, but obviously you reach a point where, if you try 
to reduce further, there will be a significant negative impact 
on programs.
    I can also point with pride to fund-raising. We have been 
very successful in fund-raising. One of the really important 
aspects of fund-raising is the Federal endowment matching 
program. This program was established by Congress in 1986 in 
the Education of the Deaf Act. In the 14 years since 
appropriations have started, we have matched$1 million every 
year, except twice when we actually matched more than a million 
dollars. That fund now has a market value of about $50 million. That 
has been the engine that has driven our endowment from about $10 
million when I became president to about $150 million now.
    If the budget doesn't increase in fiscal year 2002, I am 
concerned that I might have to suspend the contribution to this 
very, very successful program.

                            CAPITAL CAMPAIGN

    Last year, I reported to the committee the status of our 
first-ever Capital Campaign. At the time I testified last year, 
we had raised $22 million toward our goal of $30 million. I am 
very happy to report to the committee now that we have 
surpassed our goal. We have raised about $32.5 million as of 
the beginning of April, and the campaign doesn't conclude until 
December 31st of this year.
    One component of the Capital Campaign has been to raise 
funds for a new high-tech student academic center. This 
building will be constructed without Federal requests. This is 
the second building during my presidency that we have 
constructed without asking Congress for support. We have used 
private funds.

                          ACCREDITATION REVIEW

    I think that is very significant. Note that I do see the 
challenges that Congress is facing. But having said I see the 
challenges that Congress is facing, I also have challenges; and 
if we are expected to carry out the national mission that 
Congress has given us, then we will need continuing investments 
from the Federal Government.
    With your permission, sometimes it helps to have a little 
distance from the University to get a perspective on what is 
going on at Gallaudet; and the students, I said, could tell you 
better about what is happening at Gallaudet than I.
    Also, we recently had a visit from the Middle States 
Association, the accrediting group that accredits Gallaudet's 
programs. That group of eight distinguished academicians was 
led by the President of Morgan State University, Dr. Earl 
Richardson. They came to Gallaudet to decide whether or not we 
were carrying out our mission. I want to read the postscript 
from their oral report, if I may.
    Now, this is from the Middle States Association, a very 
important independent group: ``Many American universities spend 
a great deal of time these days fabricating reasons to declare 
themselves unique. Gallaudet University, the MSA team is 
convinced, truly is unique. Gallaudet is unique in its student 
body of deaf and hard of hearing students, unique in the deeply 
daunting challenges which those students present to the 
administration, to the staff, and the faculty; and unique in 
the very real diversity those students bring to the 
institution. Gallaudet's achievement of a minority population 
of 24 percent is an extraordinary accomplishment, one your 
visiting colleagues, from the vantage points of our 
institutions, can only envy. We envy as well the very 
substantial contribution the University is making to improve 
the lives and futures of deaf and hard of hearing individuals. 
Every college these days has a mission statement. Gallaudet 
actually has a mission. It has been the MSA team's great 
pleasure to spend 2 days within the deaf culture of Gallaudet 
University, meeting with administrators, faculty and students, 
learning a few basics of the incredibly intricate art of 
signing and gaining a profound respect for the dedication of 
the professionals here who have committed their lives to 
validating a proposition that deaf students can become anything 
they aspire to be, here and around the world.''
    Thank you, sir. I am very grateful for the opportunity to 
speak on behalf of Gallaudet University and would be happy to 
respond to questions you have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula.  Mr. Hoyer.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    I am not going to ask questions, but, Mr. Chairman, you 
probably recall at the time Dr. Jordan took the presidency of 
Gallaudet he was the first nonhearing or hearing impaired 
president of the University. He has acquitted himself 
extraordinarily well and has not only brought pride, I know, to 
all of the graduates of Gallaudet but has brought great pride 
to anybody with a disability, hearing or otherwise, and has 
given them an inspiration, I think, to participate as mightily 
as Dr. Jordan has.
    The chairman, I will tell you, Mr. President, is someone 
that we are very fortunate to have in the leadership of our 
committee: very committed to education, very committed to 
investment, as you point out, and I know that, to the extent 
that resources are available, we are going to work very hard to 
make sure that you keep even with inflation at least and help 
you retain as well as recruit the kind of faculty and the kind 
of quality that we need at Gallaudet to maintain its status.
    Thank you very much.
    I apologize for having to leave, but I have a 2:45 meeting. 
I am a little late. Thank you, Mr. Chairman.
    Dr. Jordan. Mr. Hoyer, before you leave, can I thank you, 
sir, for your leadership with the Americans withDisabilities 
Act and for your leadership with all Americans? I am very grateful for 
your personal support and interest in the University. Thank you.
    Mr. Regula. Thank you.
    Mr. Sherwood.
    Mr. Sherwood. Dr. Jordan, thank you so much for your very 
nice introduction for us of your university.
    I grew up in the Scranton area; and my wife grew up not far 
from, as it was called in the old days, the oral school, the 
Scranton School for the Deaf. The school board of the 
Tunkhannock Area School District, we took students there for 
education, and it has done a wonderful job in northeastern 
Pennsylvania. It is a venerable institution with a great, great 
deal of respect; and the graduates do so well.
    I appreciate today what you have told us. You can be 
assured that we will be paying attention to your budget 
requests.
    Dr. Jordan. Thank you, Mr. Sherwood. You will be happy to 
know that many of the graduates from the Scranton school come 
to Gallaudet. I can and will look into the numbers and the 
individuals. I can give you some really good success stories of 
people who grew up in Scranton, went to school there, came to 
Gallaudet, earned degrees, and went on to help change the 
world.
    Mr. Sherwood. I have a young friend there at the present 
time, a young man by the name of Boyce, who is about 13 or 14 
years old, and I have watched his progress through the school 
system, and they are doing a fine job.
    Dr. Jordan. I gave you a packet of information about 
Gallaudet. I would be happy to give you two so you could give 
one to Boyce. I would like to see him come to Gallaudet.
    Mr. Sherwood. That would be fine.
    Mr. Regula.  Doing a little recruiting today.
    Dr. Jordan. That is my job.

                ELEMENTARY AND SECONDARY SCHOOL SERVICES

    Mr. Regula.  That and raising money.
    I am interested in the services you provide for elementary 
and secondary school students. Would you just tell us briefly 
what those involve?
    Dr. Jordan. Yes, sir. It starts with the two model schools 
that are located on the campus. We have an elementary school 
and a high school, both located on the campus. The elementary 
school is a day school.
    Mr. Regula.  This is for deaf students?
    Dr. Jordan. Just for deaf students, yes, sir. The 
elementary school is a day school that serves students from 
nearby areas in Virginia, Maryland, and the District of 
Columbia. In fact, we are the only school for the deaf in the 
District of Columbia, so most students who are deaf in D.C. and 
need a free public education come to Gallaudet.
    Our high school is a residential school. We have students 
from all over the United States who come to our high school. 
The elementary school has about 140 students, and the high 
school has about 200, plus or minus. In those schools, we 
develop curricula materials and instruction methodology that is 
used around the country to help further education of deaf 
students all over.
    We are especially interested in different populations of 
deaf students--people who are not high achieving academically, 
people from minority cultures, people whose first language is 
not English, people from rural areas, people with secondary 
disabilities. We have what we call a national mission that is a 
congressional mandate that we serve not only the students in 
the schools but develop programs to serve students around the 
United States.
    I reported in my remarks that we have 98 programs going on, 
cooperative programs in 46 States. I had tried to see if we 
could get just four more States before I came so that I could 
say we had the whole map covered. Next year, when I come back, 
I am going to tell you we have programs in all 50 States.

                            GRADUATION RATE

    Mr. Regula.  Well, thank you. What percentage of your 
students complete their work there, graduate, in other words? 
Do you have a pretty high percentage of those who finish?
    Dr. Jordan. High--as you heard from President Swygert in 
the Howard testimony, high is a relative term. Our percentage 
is lower than Howard University's percentage. There are a 
couple of important reasons for this, I think.
    One is that we accept students who I call ``at risk''. When 
you are born deaf and grow up deaf, you learn English 
differently if you can hear. Many of our students have 
significant English deficiencies when they enroll at Gallaudet, 
but they also demonstrate the potential to have successful 
collegiate careers.
    The second factor that I think is very important, is that, 
while we are very flexible in admissions and admit students who 
have potential but maybe not the achievement levels we want, we 
are very rigorous in our exit requirements. So, to earn a 
degree at Gallaudet University you must satisfy all of the 
graduation requirements; and, therefore, some of the students 
who we think have potential and would love to see succeed, do 
not.
    I am not satisfied. I want to do a lot more. We are going 
to do more direct tutoring, more intervention. We want everyone 
who comes to Gallaudet to succeed.
    Mr. Regula. Well, thank you for coming. We will have 
questions for the record.
    And we thank your two students. They obviously are good 
examples of those who have succeeded extremely well, and I am 
sure they will be great champions and missionaries of Gallaudet 
as they go into the adult world. I thank both of you for coming 
and also you, Mr. Jordan.
    Dr. Jordan. If I may do one more thing. I am reminded of 
the second time I testified, back in 1989. On that day, it was 
snowing, and so my wife, who was a schoolteacher at that time, 
did not have to go to work. And Congressman Silvio Conte sat up 
there and observed that the chairman of my board and my wife 
were both in attendance at the hearing. He said, ``It's good to 
see that both of your bosses are with us this morning.'' I am 
happy to say both of my bosses are here this morning.
    Mr. Regula. It is not snowing.
    Dr. Jordan. No, it is not snowing. They both came anyway.
    Dr. Glenn Anderson, Chairman of the Gallaudet Board, is a 
professor at the University of Arkansas and happened to be in 
town. Dr. Anderson is an outstanding chairman and very, very 
helpful and supportive of the University. And next to him my 
good wife, my second boss.
    Thank you, sir.
    Mr. Regula. Okay. Well, thanks for coming, and thank both 
of you for coming.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 24, 2001.

               NATIONAL TECHNICAL INSTITUTE FOR THE DEAF

                               WITNESSES

ROBERT R. DAVILA, VICE PRESIDENT, NATIONAL TECHNICAL INSTITUTE FOR THE 
    DEAF, ROCHESTER INSTITUTE OF TECHNOLOGY
WENDELL S. THOMPSON, DIRECTOR, GOVERNMENT AND ADMINISTRATIVE AFFAIRS, 
    NATIONAL TECHNICAL INSTITUTE FOR THE DEAF, ROCHESTER INSTITUTE OF 
    TECHNOLOGY
FRANCIS V. CORRIGAN, DEPUTY DIRECTOR, NATIONAL INSTITUTE ON DISABILITY 
    AND REHABILITATION RESEARCH, OFFICE OF SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES
 CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. Our next witness will be the National Technical 
Institute for the Deaf, Dr. Davila. Am I saying that correctly?
    Dr. Davila. In Spanish, it is pronounced Davila, but most 
people say Davila in English.
    Mr. Regula.  Whatever you say.
    Dr. Davila. Davila is fine.
    Mr. Regula.  We are happy to have our colleague, Ms. 
Slaughter, who will introduce our next witness.

                  Remarks by Hon. Louise M. Slaughter

    Ms. Slaughter. Thank you very much. I do want to introduce 
my constituents from Rochester who represent the National 
Technical Institute for the Deaf. I want to express my profound 
thanks to all of you on this committee for the work you have 
done in the past in supporting NTID.
    These gentlemen represent an institution that I know is 
very special. Dr. Robert Davila is their vice president, and he 
has visited the committee for the past 5 years. Mr. Wendell 
Thompson is the director of their government relations and 
administration and has been here more than either one of us can 
remember. Many of you remember seeing Dr. Davila testify before 
the committee as assistant secretary for the Office of Special 
Education and Rehabilitative Services from 1989 to 1993, or 
earlier in the 1980s as the vice president of Gallaudet 
University.
    NTID is fortunate to have Dr. Davila at its helm because of 
his 40 years in education as a high school math teacher, an 
assistant principal, a K-12 superintendent, a college 
professor, a college administrator, and university vice 
president. All those things have prepared him well for his 
current responsibilities and role, not to mention the 4 years 
he served as assistant secretary.
    NTID uses Federal money extremely well. It has achieved 
tremendous success in preparing deaf people to enter society 
and the workplace to compete on par with their hearing peers. 
Over the past 33 years, nearly 95 percent of NTID's 4,500 
graduates have been placed in technical and professional jobs 
commensurate with the level of their academic training; of this 
total, the vast majority employed in business and industry.
    I would like to bring to the committee's attention a recent 
study conducted in collaboration with the Social Security 
Administration. The study involved data on over 7,500 graduates 
and withdrawals revealing important information that indicates 
the return to the public for its investment in the education of 
deaf and hard of hearing students at NTID, and Dr. Davila will 
share that information with you. But I will say the study 
shows, in comparison to students who do not complete a degree, 
NTID students over their lifetimes are employed at a higher 
rate, earn substantially more, pay significantly more taxes and 
participate in much lower levels in Federal transfer programs.
    I assure the committee that I know they take good 
stewardship of the money which you allocate to them. I 
appreciate, as I said before, your past support and look 
forward to working with you this year; and I thank you very 
much, Mr. Chairman, for allowing me this time.
    Mr. Regula. Well, thank you. I am interested that there is 
a technical program. I started the one in our county. It was 
for all students but very important because it creates job 
opportunities.
    Ms. Slaughter. The success rate of the graduates is nothing 
short of phenomenal. You do not often find 95 percent of 
graduates from anywhere being employed at the high levels they 
are.
    Mr. Regula. Ninety-five percent.
    Ms. Slaughter. And paying back in taxes.
    Mr. Regula. Well, that is terrific. We look forward to your 
testimony, Dr. Davila.

                           Opening Statement

    Dr. Davila. Thank you, sir.
    First, let me tell you it is really a pleasure to be here 
testifying before you for the first time in your role as 
chairman of this committee.
    I have been coming before this committee for several years 
now. Today, I am here to present testimony related to our 2002 
request.
    The National Technical Institute for the Deaf enrolls 
approximately 1,100 students, and it is one of the eight 
colleges of the Rochester Institute of Technology. RIT enrolls 
more than 13,000 hearing students, so we are an integrated 
program within the RIT university community.
    NTID was established by Congress 33 years ago. Thirty-three 
years does not seem to be very long after hearing Howard and 
Gallaudet explain how they have been in business for 100 years. 
We are fairly new, but I believe our record of achievement, the 
outcomes that have come from our efforts to create educational 
and career opportunities for deaf people, have been 
outstanding.

                             Budget Request

    The President's budget for fiscal year 2002 for NTID is 
$52.57 million, which includes $48 million for operations and 
$4.57 million for the third and final phase of the dormitory 
renovations project. The overall cost of our dormitory 
renovations project is $14.971 million. We anticipate 
completing the dormitory project by December of 2001.

                          BENEFITS TO STUDENTS

    Mr. Chairman, as I mentioned, I have been appearing before 
this committee for years. As always, we have tried to 
demonstrate the good faith that this committee and the Congress 
have placed on us by bringing before you good data that show 
how we produce outcomes that the Congress expects and requires 
of us in our progress to help young people whoare deaf and hard 
of hearing to achieve high levels of education and employment.
    As Congresswoman Slaughter mentioned, 95 percent of our 
graduates who seek employment immediately after graduation 
enter employment in fields that are commensurate with their 
level of training and education. We are very proud of that. It 
is very hard to match that. And almost 70 percent of that 
number are in business and industry, fields that for many years 
in the past, before NTID, were largely closed as opportunities 
for deaf people.
    Also, as Congresswoman Slaughter mentioned, we recently did 
a study in cooperation and collaboration with the Social 
Security Administration. We put together 16 years of economic 
and education information on our graduates, their earnings, 
their employment rates, and their taxes paid and the extent to 
which they continue participation in Federal transfer programs; 
that is Supplemental Security Income (SSI) and Social Security 
Disability Insurance (SSDI). I would like to share some of that 
information with you.
    NTID graduates who obtain baccalaureate degrees will earn 
68 percent more over their working lives than students who 
attended, but did not complete the requirements for their 
degree. Students with associate degrees will earn 29 percent 
more than those who do not complete the program. Furthermore, 
our data indicate that persons who leave without graduating 
experience three to five times more unemployment than 
baccalaureate graduates and nearly twice that of Associate 
Degree graduates. Students who withdraw from NTID before 
obtaining a degree are twice as likely to continue receiving 
benefits from either SSI or SSDI beyond the college years.
    From a return on investment perspective, male graduates pay 
back over 150 percent of the cost of their NTID education in 
the form of taxes over their working lifetimes; and female 
graduates also pay a significant share of their educational 
investment through their working lives. When we combine the 
savings that come from their reduced dependency on entitlement 
programs like SSI and SSDI, then you can see that that Federal 
investment in NTID returns significant dividends to the public.
    So, in summary, you can see that it is in the best interest 
of our students to graduate. Toward that end, we provide them 
with substantial support services to enable them to succeed not 
only at NTID at the associate degree level, where the students 
are all deaf, but at RIT, where they are integrated into 
classrooms with hearings students pursuing bachelor and 
master's degrees. A little over 40 percent of our students are 
now enrolled in the seven other colleges of RIT, and most of 
them started at NTID and continued on to RIT.
    What is significant about that accomplishment is that years 
ago, we did not envision that more than 10 or 15 percent of our 
student body would ever be able to attend regular programs at 
RIT. But I guess we have learned much from our experience. We 
have become good at what we do. We can help a young person 
succeed in a very demanding environment.
    Because we fully understand that degree attainment is 
strongly correlated with employment success beyond school, we 
continue to do intensive market scanning and explore ways by 
which we can identify potential areas of employment for our 
students and incorporate them into our curriculum so that we 
can maintain state-of-the-art programs available to students so 
they can leave the University with the type of skills and 
knowledge that will serve them well in the world of work.
    More recently, in the last 3 years, we have added four 
important programs at our associate degree level. They include 
computer-aided drafting technology, industrial computer 
electronics, laboratory science technology, and automation 
technologies. Other associate degree programs will follow. Our 
research further shows that an associate degree from a high-
tech area often results in higher earnings than some bachelor 
degree programs in liberal arts.

                            STUDENT FEEDBACK

    I believe that the best measure of evaluation for any 
academic program is the feedback that one can get from 
graduates of the program. Recently completed surveys conducted 
as part of NTID's performance indicator process showed that, 
first, deaf students are more satisfied than RIT hearing 
students about the quality of life on the RIT campus; second, 
98 percent of our alumni are satisfied with their educational 
preparation; and, third, 94 percent would recommend NTID to 
other future prospective students.

                   ROCHESTER INSTITUTE OF TECHNOLOGY

    In closing, I want to make a few remarks about our host 
institution, the Rochester Institute of Technology. RIT was 
established over 170 years ago, and it is one of the Nation's 
pioneers in co-op education, the practice of providing hands-
on, paid work experience for students while they are still in 
school and making that part of their requirement for 
graduation. That same requirement applies to almost all of the 
NTID student body as well; and this kind of experience enhances 
entry into the world of work because, in many situations, co-op 
arrangements lead to permanent employment. By the same token, 
it provides extensive employer education to people who 
otherwise have not had a lot of experience working with deaf 
individuals.
    The support and assistance that NTID receives from the rest 
of the University is not only valuable, but is outstanding and 
enables us to remain really current with our knowledge in our 
efforts to provide a quality technical education to deaf and 
hard of hearing students. RIT is ranked very high as a 
comprehensive university in the northeast area of our country. 
And as a part of that university, as one of the colleges that 
comprise that university, we also bask in the glow of the high 
achievement the University has brought to all of us in its 
efforts to serve students.
    Mr. Chairman, again, let me tell you how much I appreciate 
being before this committee. We hope that in your travels you 
may someday find yourself in Rochester. We will surely fill up 
your time, if you happen to be there. Thank you very much.
    Mr. Regula. Well, you have an eloquent spokesman for you 
now in Ms. Slaughter.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                   RESPONSIVENESS TO COMMUNITY NEEDS

    Mr. Regula. Do you tailor your programs to the community 
needs so that graduates are likely to get jobs? Is your 
curriculum tailored to what opportunities exist in the 
community?
    Dr. Davila. Definitely, sir. Many NTID faculty really are 
outstanding individuals who may first develop expertise and 
work experience in their fields and, when hired, go back to 
school and earn advanced degrees. We have many doctorates 
represented among our faculty. In addition, we use various 
strategies to keep faculty current in their fields, including 
sabbaticals and other leaves, where we allow them time off to 
work in industry where they continue to upgrade and add new 
skills. So, the training our students receive is state-of-the-
art.
    Changing technology is really an issue with us because of 
the cost involved. We get many large donations of equipment, 
but it is almost impossible to stay current with all of the 
technological changes. We do a lot of market scanning to study 
the conditions of employment, the skills and knowledge people 
must have, and new and emerging technologies.
    We also have a very large and active employer education 
program. We have a number of training packages that help 
employers understand how they can include deaf and hard of 
hearing people on their teams, on the job.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Thank you very much, Dr. Davila. We are very 
interested in the work at Rochester, and we will pay attention. 
It was very interesting testimony. Thank you, sir.
    Dr. Davila. You are welcome, sir.
    Mr. Regula. Mrs. Northup.
    Mrs. Northup. Mr. Chairman, no questions at this time.

                            GRADUATION RATES

    Mr. Regula. Well, thank you for coming. I notice that your 
graduation rate is a little on the low side. Is there any 
particular reason for that?
    Dr. Davila. Oh, thank you for asking. Actually, it is not 
that low. Our overall graduation rate, when you combine 
students in the associate degree programs with students who are 
in baccalaureate programs at RIT, is 52 percent. However, the 
interesting point here is that the graduation rate for deaf 
students who are able to go on to RIT and are fully integrated 
with hearing students is over 60 percent, which is better than 
the rate for hearing students. And that is interesting because 
RIT programs are very tough and demanding programs. As I 
mentioned in my opening statement, this is one of NTID's 
greatest achievements.

                   Geographic Background of Students

    Mr. Regula. Do you get students outside of the community?
    Dr. Davila. We are a national, international program, like 
Gallaudet University.
    Mr. Regula.  So you do get students from a wide area 
geographically?
    Dr. Davila. All over.
    Ms. Slaughter. Internationally.
    Dr. Davila. For your information, sir, 2 weeks ago we had 
an open house for prospective students, and several parents in 
Ohio brought 50 young high school students to Rochester so they 
could visit with us for 2 days and learn about the programs and 
options available for them.
    Mr. Regula. You are probably the only institution that 
meets this particular need that is in the United States, am I 
correct?
    Dr. Davila. Well, in a manner of speaking, yes. You should 
understand also that NTID was established by an act of Congress 
because a national study conducted in the 1960s indicated that 
over 80 percent of deaf people in the country were working with 
their hands in manufacturing jobs. Gallaudet University, which 
I attended myself as a young person, was one of the only higher 
education opportunities available to deaf people at that time. 
The Congress was concerned about the unemployment and 
underemployment of deaf people who did not have opportunities 
for training in other areas, such as technology. So that is why 
NTID was established.

                       NUMBER OF DEGREE PROGRAMS

    Mr. Regula. How many different curricula offerings, how 
many tracks do you offer, how many different courses of study?
    Dr. Davila. There are over 200 bachelor, masters, and 
doctoral degree programs at RIT fully accessible to deaf 
students. Within NTID itself, we have 20 programs at the 
diploma and associate degree level.
    Mr. Regula. So that gives students a pretty good selection, 
depending on their interest?
    Dr. Davila. Oh, yes, definitely.
    Mr. Regula. Well, thank you very much for coming and giving 
us the benefit of your information. And, Ms. Slaughter, we 
thank you for bringing this team.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 24, 2001.

                 AMERICAN PRINTING HOUSE FOR THE BLIND

                               WITNESSES

TUCK TINSLEY, III, PRESIDENT, AMERICAN PRINTING HOUSE FOR THE BLIND
FRANCIS V. CORRIGAN, DEPUTY DIRECTOR, NATIONAL INSTITUTE ON DISABILITY 
    AND REHABILITATION RESEARCH, OFFICE OF SPECIAL EDUCATION AND 
    REHABILITATIVE SERVICES;
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND RESEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. Our next group is the American Printing House 
for the Blind.
    Mrs. Northup, would you like to introduce our speaker?
    Mrs. Northup. I would love to.  Thank you, Mr. Chairman.
    Mr. Chairman, it gives me great pleasure to introduce Tuck 
Tinsley, who not only is from my district and just been an 
outstanding leader of the American Printing House for the 
Blind, but he is also a friend and somebody that I have had a 
close association with over many years.
    Mr. Tinsley was born in Kentucky, but he was educated in 
Florida. He was at the Florida School for the Deaf and Blind 
for years as a mathematics teacher and then as the assistant 
principal and, finally, the principal. In 1989, he became 
president of the American Printing House for the Blind, which 
is located in Louisville.
    Mr. Tinsley has published 17 professional monographs and 
articles. He has a number of professional affiliations and was 
given the 1997 Distinguished Alumni Award in Business and 
Industry by Florida State University. Additionally, in 1994, 
the Council of Schools for the Blind presented him with the 
William H. English Leadership Award.
    I want to just say also that the American Printing House 
for the Blind is an institution in Louisville that is beloved 
by our community. I am sure Mr. Tinsley may say so in the 
course of his testimony, but Louisville has a higher per capita 
number of blind than average populations, probably because our 
community has great services for the blind, but probably one of 
the signature institutions of this country is the American 
Printing House for the Blind. Tuck Tinsley, who has headed that 
up since 1989, is an ambassador for that school and the blind 
community as a whole.
    It gives me great pleasure to introduce him to the 
committee today. Welcome.

                           Opening Statement

    Dr. Tinsley. Thank you very much, Congresswoman Northup. I 
would just like to say that the Commonwealth of Kentucky is 
extremely fortunate to have a leader like you in Washington, 
and the blind people throughout the country who we represent 
certainly appreciate your leadership in providing services for 
them. Thank you very much.
    Mr. Chairman, if I may, before I start, I would like to 
introduce two colleagues who accompanied me from Louisville. 
Nancy Lacewell is our Director of Community and Governmental 
Relations, and Gary Mudd is our Vice President of Public 
Affairs.
    Mr. Chairman, Congresswoman Northup and Congressman 
Sherwood, it is an honor for me to present the President's 
budget for fiscal year 2002 for the American Printing House for 
the Blind. APH was founded by the Commonwealth of Kentucky in 
1858; and because of our reputation for providing quality 
products for the blind, Congress passed the Act to Promote the 
Education of the Blind in 1879, which designated APH as the 
official source of educational materials for precollege level 
blind students.
    The availability of these materials is critical to the 
State's provision of an appropriate public education for blind 
students. It serves a Federal objective by supporting the 
Federal mandate that all children receive a free appropriate 
public education, as required by IDEA, the Individuals with 
Disabilities Education Act, and following the President's 
directive that no child is left behind.
    The Act designates a Board of Ex Officio Trustees, 
currently 156 professionals, to assure that funding for the Act 
is used to produce and distribute specially designed 
educational materials that are not otherwise available. The Ex 
Officio Trustees, representing all 50 States and our U.S. 
possessions, include the heads of the residential schools, 
representatives of State departments of education, and heads of 
instructional materials centers.

                             BUDGET REQUEST

    The total request for the Act to Promote the Education of 
the Blind for fiscal year 2002 is $12 million, the same as the 
2001 appropriation.
    In 2002, the request includes $8.6 million for educational 
materials for 57,500 legally blind students, the same funding 
as fiscal year 2001.
    Funds for educational materials are used to produce and 
distribute textbooks in Braille and large type, tangible 
teaching devices, educational tests, and special instructional 
aids, tools and materials for precollege level blind students.
    The 2002 request includes $225,000 for advisory services. 
The appropriation for advisory services supports a variety of 
activities that are necessary to administer the act. These 
activities include the annual census of legally blind students 
throughout the country and other activities which ensure that 
the research and development of the products produced address 
students needs.
    The request for advisory services also includes funding for 
eight initiatives: the Electronic File Repository, the Expert 
Database, the Louis Student-Use initiative, the National 
Instructional Partnership; Product Information and Training 
Materials initiative; the Louis Database of Accessible 
Materials, APH Web Site and Research Library; and the 
Accessible Textbook Initiative and Collaboration.
    The request also includes $1.5 million for educational and 
technical research. This $1.5 million includes $250,000 for 
fiscal 2002 to continue a tests and assessment initiative which 
was begun in 2001. The purpose of this project is to have a 
central location for adapting and developing tests for blind 
students.
    In 2002, educational and technical research will focus 
onmaterials for learning Braille, increasing literacy, educational 
software for visually impaired students, assuring that current and 
future technology is accessible to blind students, adapting and 
developing educational measures for blind students, materials and 
equipment to assist low-vision students, and materials for visually 
impaired students who are multi-handicapped.
    In providing needed materials for a very low incidence 
population, the act is structured and administered to maximize 
Federal resources in the service of local needs, as follows: 
First of all, the needs are identified at the local level. 
Experts in the field serve as project consultants and 
evaluators, and last year we had 137 consultants from local 
programs working with projects. The research is conducted to 
identify the most effective methods of addressing the needs, 
and then prototype aids and materials are developed and pilot 
and field tested. Then they are produced and distributed and 
periodically reviewed and revised as necessary. This past year, 
fiscal year 2000, we had 65 new products, compared to 44 in 
1999 and 35 in 1998.
    The Act to Promote the Education of the Blind is a program 
that works, and the key is continuous input from direct service 
providers at the State and local levels, with all the obvious 
benefits of grass-roots involvement. I think this is the 
premier institution as far as getting input from the field and 
having the voice of the customer at hand. With 156 Ex Officio 
Trustees representing every State and covering all visually-
impaired students throughout the country, and with the number 
of consultants we use, we are very close to the needs of the 
students.
    Mr. Chairman, I should have said, first of all, that I 
would like to submit my statement for the record. This was just 
a brief overview of it. So I would be pleased to answer any 
questions you may have, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                  REMARKS BY HONORABLE ANNE M. NORTHUP

    Mr. Regula. Mrs. Northup, I will give you the first chance 
here.
    Mrs. Northup. Thank you. Mr. Chairman, I do invite you to 
look at some of the figures as they are broken down for the 
budget and expect, as I said last year, that you will be very 
surprised at these numbers and probably think there are three 
zeros missing from the back of the numbers.
    The Web site that they maintain, so important to the blind 
community, is not as much as most campaign Web sites cost. As 
you look at consultants and travel expenses, they are 
minimal.The dollars that the American Printing House for the 
Blind stretch to provide new services, new equipment, new ways 
of serving a community cannot possibly be provided for in the 
private sector because the numbers are not large enough to 
invite the sort of research done by the American Printing House 
for the Blind and in a way that is so fiscally responsible and 
with so few dollars compared to what we are so used to seeing 
in our budgets. So I think you will be surprised as you look at 
numbers. How often do you see under $100,000 for total new 
projects that are being made available to these students?
    I would like to ask Mr. Tinsley a couple of questions.
    Last year you were starting to work on the Accessible 
Textbook Initiative and Collaboration Project. Can you tell us 
why that project is so essential and what progress has been 
made?

            ACCESSIBLE TEXTBOOK INITIATIVE AND COLLABORATION

    Dr. Tinsley. Yes, ma'am. Thank you for the question.
    In the late 1950s, most visually impaired students were in 
the residential schools for the blind. There are currently 48 
residential schools for the blind in the country. The 
residential schools would select textbooks, and those textbooks 
would be produced by the American Printing House for the Blind. 
For instance, there would be one eighth-grade science book used 
by all the blind students.
    We then started to see students mainstreamed into the 
regular public school programs, and currently only 8 percent of 
the students are in residential schools. The other students are 
in regular public programs. Textbook selection has been 
decentralized to the point that textbooks are not selected just 
by the schools, but they are selected by individual teachers. 
So, you may have two different students in two different civics 
classes in the same school using two different textbooks. With 
approximately 3,000 textbooks produced each year by the 
textbook publishers, it is impossible for one organization, or 
all current Braille producers combined, to meet the need.
    So what we did, we asked for funds from Congress, and 
Congress was very open in seeing the need and assisting us. 
What we have done is train people throughout the country to 
transcribe textbooks. We bring them in and provide training, 
and then we outsource the material. Therefore, if a student 
needs a book tomorrow, we can provide 10 pages tomorrow. But 
within a couple of months, we will have the entire textbook, 
and that is accomplished by outsourcing, using people 
throughout the country.
    Since last April, we have produced 69 titles, and 8,500 
volumes. The average cost is about $250 per copy. In 
Mississippi, 2 years ago they paid $25,000 to have one book 
transcribed because they would pay anything to get the book in 
Braille. And a person worked on the book for a year and a half 
and produced it. The real concern is not the cost. The concern 
is making these textbooks available and accessible, and this 
accessible textbook program has allowed us to branch out and 
outsource this material and get it to the kids, as necessary.
    Mrs. Northup. What happens if a child in California needs a 
book, or five students need it in California and a student in, 
say, Mississippi needs it? Are you all a repository then of 
that information, making that available?
    Mr. Tinsley. What we do is outsource the translation. Then, 
with the disk, that data can be e-mailed to us and we can 
emboss as many copies as we need and send them out. It may not 
be bound in a hard cover; it may be in a soft cover. But, it 
gives them something so that the student has text in front of 
him or her when that curriculum isbeing addressed.

                         PER STUDENT ALLOTMENT

    Mrs. Northup. In the President's budget you have been flat 
funded, and I think the explanation is that the number of 
students is the same, 57,200. Can you explain why that is going 
to create a problem?
    Dr. Tinsley. The President's budget will result in $150 per 
student. Our request was for the additional money to go to 
educational materials for kids and would result in $198 per 
student. When you look at a single textbook, which costs an 
average of $250, you can see why the funding is needed.

               ACCESSIBLE FORMATS FOR STANDARDIZED TESTS

    Mrs. Northup. Finally, let me ask you about the whole focus 
on education today, and what we are talking about in the 
President's program is testing students, following their 
progress from year to year so that their parents can hold 
schools accountable and so that they know whether they are on 
track or not and so that we know what schools are successful 
and what approaches are successful and which ones are not. Do 
you anticipate that the responsibilities for accessible testing 
tools will also impact you?
    Dr. Tinsley. Yes, ma'am. The trustees' two advisory 
committees just met, and they have a great concern about 
leveling the playing field for visually impaired students. The 
focus is on accountability of educational programs and using 
achievement tests for students throughout the school programs. 
If the tests are not adapted and presented appropriately, the 
blind students will not be evaluated appropriately and will 
fail when they actually may have the knowledge.
    I had an opportunity 2 weeks ago to present an award to a 
young lady in Jackson, Mississippi. She is a senior in a public 
high school. She is a young blind lady who was taking her third 
administration of the ACT. If she scores two points higher, she 
would get a $5,000 scholarship. She had scored 33 in English, 
both the literature and the communications. She had scored 21 
in the math and science.
    I taught math for a number of years to blind students, and 
I asked her questions. She is very bright. I said, well, why 
are you scoring low? She said, because I can make nothing out 
of the graphs. She said, I know when a good graph is presented, 
a bar graph and a broken line graph, but the way they are 
presented in the test, I just have to guess. And I apologized 
to her. Please note, those test were not produced by the 
American Printing House for the Blind.
    The trustees are calling for us not necessarily to produce 
all the tests that will be used to assess children in grades 3 
through 8 and in other areas, but to make sure that there is a 
standardization and it is coordinated and we are training 
people to edit the tests appropriately and write the teachers' 
notes appropriately. In editing the tests, you use common 
sense. If the question is, who is taller, the man or the woman, 
and you have two pictures, a picture of a man and a picture of 
a woman, in a tactile format, you are really assessing whether 
the child can differentiate between somebody's picture of a man 
and somebody's picture of a woman, rather than the concept. You 
have to go through these tests. Which is longer, the green line 
or the red line? In tactile form, there is no color.
    In the higher level functions, she had the geometry 
questions. In figuring the volume of a cube, you are given a 
picture, a two-dimensional picture or, really, it is raised. 
However, nothing exists unless it is three dimensional, so 
really it is three dimensional. But it is a two-dimensional 
representation of a three-dimensional figure. So, if you ask 
the volume of a cube, and it is 3 units by 3 units by 4 units, 
and you say that, the student could probably say 36 units. If 
you have a drawing and you are trying to show the third 
dimension on a plane, it is just very difficult unless it is 
done appropriately. That is the focus.
    Mrs. Northup. Yes, that is great.
    Thank you, Mr. Chairman. I am sure you can see why we are 
so impressed in Louisville by the American Printing House and 
by our leader.
    Mr. Regula. Justifiably so. Do you prepare textbooks that 
cover the whole range of first grade through 12?
    Dr. Tinsley. Yes, precollege level textbooks.
    Mr. Regula. Very interesting.
    Mr. Sherwood.
    Mr. Sherwood. No questions, Mr. Chairman. Thank you.

                           COST FOR TEXTBOOKS

    Mr. Regula. Do the States or the local schools reimburse 
for part of the cost of the textbooks, or do they purchase them 
normally?
    Dr. Tinsley. The Federal appropriation covers an allocation 
per student, $150 with this request. If you have 100 students 
in your program, that would give you $14,900 to spend on 
educational materials. Once that is spent, then the States do 
use their own money, including IDEA funds, to purchase 
materials from the Printing House.
    Mr. Regula. So the school that would purchase, say, 100 
textbooks, would get reimbursed up to the level of $150?
    Dr. Tinsley. Yes, sir.
    Mr. Regula. And, beyond that, the States or the locals 
would come through.
    Dr. Tinsley. They use their own money, yes, sir.
    Mr. Regula. How many schools do you serve? Do you have any 
idea?
    Dr. Tinsley. We have 156 Ex Officio Trustees from the 
States, including the 48 residential schools for the blind. 
Within a State, for instance Florida, you have a person over 
visually impaired students in all public schools in Florida. 
That is Suzanne Dalton at the Florida Instructional Materials 
Center. As Congresswoman Northup mentioned, this is the 
repository concept, which I did not address very well. In 
Florida, they will order materials; we will send them, and at 
the end of the year, or the end of the quarter, they come back 
to the Instructional materials center so they can be used by 
other students.
    So she is serving all 2,300 or so blind students in Florida 
who are in all 69 districts in the State. I am not sure of the 
total number of schools. All the students are registered with 
APH, and they are all legally blind. We know how many are 
served from the Florida Instructional Materials Center, but we 
do not know the number of schools the students attend.

                          INTERNATIONAL SALES

    Mr. Regula. Do any of our materials go beyond the shores of 
the United States? Do other countries at all use them?
    Dr. Tinsley. They do, but not with Federal funds.
    Mr. Regula.  No, no, I understand.
    Dr. Tinsley. Yes, sir.
    Mr. Regula. It would seem to me other countries would want 
to purchase these materials.
    Dr. Tinsley. Yes, sir. The textbook part is not the largest 
portion of our operation. We have over 325 unique products for 
the blind, and those are the things that are purchased 
worldwide; the products, the uniqueproducts. For example, they 
might order a take-apart topographical map of the United States; sense 
of science, a science curriculum; or literary and literacy programs.
    Mr. Regula. So it is a broad range of products.
    Dr. Tinsley. Yes, sir.
    Mr. Regula. Any further questions?
    Well, thank you very much for coming. It is very 
interesting. You just do not think about these things normally 
unless it is brought to your attention because most of us have 
gone to schools where there are no blind students, yet 
obviously you meet a very important need.
    Dr. Tinsley. You have a great school in Columbus, also. Lou 
Mazzoli is our trustee from there.
    Mr. Regula. Very good. Thank you. Thank all of you for 
being here today.
    With that, the committee is adjourned.
    [The following questions were submitted to be answered for 
the record:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 26, 2001.

 SPECIAL EDUCATION AND REHABILITATION SERVICES AND DISABILITY RESEARCH

                               WITNESSES

FRANCIS V. CORRIGAN, DEPUTY DIRECTOR, NATIONAL INSTITUTE ON DISABILITY 
    AND REHABILITATION RESEARCH
PATRICIA GUARD, DEPUTY DIRECTOR, OFFICE OF SPECIAL EDUCATION PROGRAMS
BEVERLEE J. STAFFORD, ACTING DIRECTOR, PROGRAM ADMINISTRATION DIVISION, 
    REHABILITATION SERVICES ADMINISTRATION
CAROL A. CICHOWSKI, DIRECTOR, DIVISION OF SPECIAL EDUCATION, 
    REHABILITATION, AND REASEARCH ANALYSIS, BUDGET SERVICE

                       Introduction of Witnesses

    Mr. Regula. We will get the hearing started. I think we 
will probably be interrupted here for a vote before too long, 
but at least we will get started. Sometimes the plans to have a 
vote get derailed by some speeches. So it is always hard to 
plan.
    We are pleased to welcome today, Mr. Corrigan, the Deputy 
Director of the National Institute on Disability and 
Rehabilitation. We look forward to your testimony. Your full 
statement will be made a part of the record, and you can 
summarize as you choose.

                           Opening Statement

    Mr. Corrigan. Thank you very much, Mr. Chairman. We 
appreciate the opportunity to present and discuss the 
President's fiscal year 2002 budget request for the Special 
Education and Rehabilitation Services accounts administered by 
OSERS, the Office of Special Education and Rehabilitative 
Services.
    As you know, persons with disabilities continue to strive 
for the same goals as other Americans, a high quality 
education, meaningful employment and active lives within their 
community.
    In today's global economy, America must be able to draw on 
the talents and creativity of all of its citizens. The 2002 
budget request that I present today supports the goals of the 
Administration's New Freedom Initiative, which is committed to 
that principle, as well as to supporting its commitment to 
leaving no child behind.
    The proposed budget for this year is $11.4 billion, and it 
represents an increase of $1.1 billion, or 10.8 percent, over 
the fiscal year 2001 budget for the Special Education and 
Rehabilitation Services and Disability Research accounts.
    The request includes the largest single increase ever 
submitted by a President for funding to assist States and 
schools in covering the excess costs of providing special 
education and related services to children with disabilities.
    The proposed budget includes increased funding to 
expandemployment opportunities through vocational rehabilitation and 
through a new program, Access to Telework, that would provide loans to 
individuals with disabilities to purchase computers and other equipment 
needed to work from their homes.
    The request also makes a significant new investment in 
developing assistive technologies, and making them available to 
individuals with disabilities.

                           SPECIAL EDUCATION

    With respect to the Special Education budget, the 
Department is requesting $7.34 billion for the Grants to States 
program to assist the States and schools in covering the excess 
costs of providing special education and related services to 
children with disabilities, ages three to twenty-one. This is 
$1 billion, or 15.8 percent more than the fiscal year 2001 
appropriation of $6.34 billion.
    This level of funding would provide an average of about 
$1,133 for each of the nearly 6.5 million children with 
disabilities who are estimated to require services during 
fiscal year 2002.
    In addition to providing for increased costs resulting from 
more children being served and inflation, the requested 
increase would boost the Federal contribution from 15 percent 
of the national average per pupil expenditure level to 17 
percent. This is the highest level of Federal contribution in 
the history of the program.

            REHABILITATION SERVICES AND DISABILITY RESEARCH

    As regards the Rehabilitation Services and Disability 
Research account, the Administration is requesting $2.9 
billion, a $124.8 million increase, to support two key goals of 
the Administration's New Freedom Initiative: Integrating 
Americans with Disabilities into the Work Force and Increasing 
Access to Assistive and Universally Designed Technologies.
    The Administration is requesting for $2.5 billion for the 
Vocational Rehabilitation State Grants program, to increase the 
participation of individuals with disabilities in the labor 
force. The increase of $81.6 million, or 3.4 percent, is the 
exact amount required to satisfy the statutory requirement for 
an increase of funding in keeping with the change in the 
Consumer Price Index.

                          DISABILITY RESEARCH

    The National Institute on Disability and Rehabilitation 
Research supports research, development, dissemination, and 
other activities designed to develop technology that can 
dramatically improve the lives of individuals with 
disabilities. The request is $9.6 million higher than the 2001 
appropriation for the National Institute on Disability and 
Rehabilitation Research. It would permit expanded support for 
the Rehabilitation Engineering Research Centers (RERCs) 
program, establish the Assistive Technology Development Fund, 
and strengthen the Interagency Committee on Disability 
Research.
    The increase for the RERCs would build upon the major 
investment the Nation has made in the basic physical and 
biomedical sciences, as well as engineering, to promote the 
design and development of innovative technologies to allow 
individuals with disabilities to achieve greater independence 
in all facets of their life.
    Similarly, the $5 million for the Assistive Technology 
Development Fund would help stimulate technological innovations 
in the private sector and strengthen the role of small 
businesses in meeting Federal research and development needs.
    Finally, funding the Interagency Committee on Disability 
Research at a level of $3 million would promote greater 
cooperation and coordination across various Government agencies 
in the development and execution of disability and 
rehabilitation research activities.
    The Administration is also requesting $40 million for the 
Alternative Financing Program under Title III of the Assistive 
Technology Act, an increase of $25 million over the 2001 level. 
Funds for this program will be used to provide grants to States 
to establish or maintain loan programs for individuals with 
disabilities who need technology or related services and may 
find them prohibitively expensive.
    The request also includes $20 million for the Access to 
Telework Fund to increase employment opportunities for 
individuals with disabilities through greater access to 
computers and other equipment needed to work from the home, if 
they so choose.

                    conclusion of opening statement

    Mr. Chairman, we believe this budget request is an 
important step forward in our continuing efforts to improve the 
lives of millions of Americans with disabilities and their 
families.
    The President is committed to ensuring that no child is 
left behind. We must continue to work together to enable 
persons with disabilities to obtain an education, to find 
meaningful work, and to lead fulfilling and independent lives.
    My colleagues, whom I would like to introduce now, and I 
would be happy to answer any questions. On the far left is 
Beverlee Stafford, from the Rehabilitation Services 
Administration; Patricia Guard, from the Office of Special 
Education Programs; and on my right, Carol Cichowski from the 
Office of the Under Secretary Budget Service.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T4834B.108
    
    [GRAPHIC] [TIFF OMITTED] T4834B.109
    
    [GRAPHIC] [TIFF OMITTED] T4834B.110
    
    [GRAPHIC] [TIFF OMITTED] T4834B.111
    
    [GRAPHIC] [TIFF OMITTED] T4834B.112
    
    [GRAPHIC] [TIFF OMITTED] T4834B.113
    
         funding contributed to special needs through medicaid

    Mr. Regula. The committee has been requesting information 
for the past several years on the percentage of funding that is 
contributed to special needs through Medicaid. Do you have any 
information, at this point, on how much Medicaid is 
contributing?
    Mr. Corrigan. Ms. Guard can answer.
    Ms. Guard. Yes, as we have indicated to the committee, we 
are conducting a national study on the costs of special 
education. We have a finance center conducting that study.
    Because the data is not in yet, we have tried to figure out 
how to be responsive to the committee. Last year, our finance 
center worked with the National Association of State Directors 
of Special Education to conduct a survey. We provided the 
committee with the preliminary results of that survey. At that 
time, I think we had only 10 or 12 States in. We now have 
completed that survey, so I can give you the results of that 
survey.
    We found that, of the 34 States that reported their total 
expenditures for special education, 24 of those States were 
able to talk about how much Medicaid funding could be spent on 
special education. But I have to say, these are estimates only. 
What they found was that-- in estimating the total national 
spending for meeting the excess costs ofspecial education for 
the 1998/1999 school year--the total cost was $46 billion, and Medicaid 
accounted for approximately $1.9 billion, or 4.1 percent of that total.
    Mr. Regula. That is not a lot.

                       REHABILITATION TECHNIQUES

    As part of your programs, do you help schools develop 
techniques to rehab individuals? I mean, I think vocational 
rehabilitation would cover a wide variety of challenges, and 
probably a wide variety of techniques. Does your department 
develop techniques that will be useful to schools, that you can 
pass on to them?
    Mr. Corrigan. Well, there are a couple of different ways, 
and I would ask my colleagues to join on this one, too.
    The National Institute on Disability and Rehabilitation 
Research, for example, does conduct some research and provide 
technical assistance through its Research and Training Centers 
and other sources to address everything from technology needs 
to curriculum materials that might be necessary.
    The Vocational Rehabilitation program has a nice mesh with 
the Office of Special Education Programs and the programs 
administered at the State level, because rehabilitation begins 
to address transition needs, as students come into the junior 
high/high school arena and start thinking about postsecondary 
education and work.
    In special education, in the earlier years, the focus is on 
instruction and education; and in the later years, the focus is 
on looking at outcomes beyond high school, like postsecondary 
education and employment.
    Do you want to add anything?
    Ms. Stafford. Well, just to add a few things. Both of the 
laws, the IDEA and the Rehabilitation Act, in the 1990s, have 
strengthened requirements with regard to transition.
    At the Rehabilitation Services Administration, we have had 
an initiative for quite a few years now to work with youth. 
There is a mandated agreement required at the State level 
between the State Vocational Rehabilitation Agency and the 
State Educational Agency to work closely on the transitioning 
of kids from the school into the world of work. So we are 
getting involved earlier and there is much more activity.
    Mr. Regula. You might help an agency doing the rehab with 
techniques, dealing with the challenges they face?
    Ms. Stafford. I suppose you could say it that way. But we 
are involved earlier, so we are working together with the 
special education teacher to assist in the transition of that 
individual. But in terms of best practices, that is probably an 
area where we could devote some more attention.
    Ms. Guard might like to talk about what we are doing in 
special education for technical assistance. Do you have time 
for that?
    Mr. Regula. Well, I think what we will do is recess. We 
have two votes, and then I will come back and we will get 
yours.
    [Recess.]

                      TECHNICAL ASSISTANCE EFFORTS

    Mr. Regula. We will reconvene. I think you were in the 
process of answering.
    Ms. Guard. I was, yes, thank you.
    You had asked what our Office is doing to provide technical 
assistance to States and local school districts.
    Mr. Regula. Right.
    Ms. Guard. We believe that it is a critical Federal role to 
ensure that States and school districts have research-based 
practices to improve results for students with disabilities. 
Many times, this improves the results for all students, because 
when teachers have effective practices that work for students 
with disabilities, all students benefit.
    We have a Special Education Technical Assistance and 
Dissemination Network that we fund. There are over 40 projects. 
Our budget request for 2002 is $53.5 million.
    There are a variety of approaches to this technical 
assistance. We have some Centers that provide technical 
assistance based on the age ranges of students. For example, 
one Center provides technical assistance to States and local 
districts about the needs of students in elementary and middle 
schools. We fund another that provides technical assistance on 
secondary school programs and transitions from school to 
postsecondary education, work, or adult services. We also have 
a number of Centers that provide technical assistance on 
specific topics. One example is the Center for Positive 
Behavioral Interventions and Supports. You hear a lot today 
about school violence and discipline problems in schools.
    Mr. Regula. Right, right.
    Ms. Guard. We know that learning cannot take place in 
classrooms where there is not order. This Center is providing 
technical assistance to States and local districts on school-
wide models of positive behavioral supports. What they are 
looking at is how to improve, or what strategies can be used 
for improving, the behaviors of all students in that school. We 
have had some really dramatic results where schools have 
implemented these strategies, in terms of a reduction in the 
numbers of referrals for detention and suspensions. That, in 
turn, increases the amount of time they can spend on 
instruction, and it improves academic results. We have some 
good data from the schools.

                            TEACHER TRAINING

    Mr. Regula. Do you work at all with the institutions that 
do teacher education? Because it seems to me, in 2001, the 
ability to manage a classroom; i.e., personalities and students 
is certainly very significant.
    Ms. Guard. Absolutely.
    Mr. Regula. There was a time when children went to school 
and knew that they were expected to be disciplined, but that is 
not quite the style today. Just management of the classroom 
seems to be a challenge. Do you get involved in that kind of 
thing?
    Ms. Guard. We do, yes. Actually, this Positive Behavior 
Support Center has developed training programs on effective 
practices for classroom management. We are actually funding a 
teacher training program called the On-Line Academy at the 
University of Kansas.
    The Academy has taken research-based practices in three 
critical areas. One is in the area of behavior that we are 
talking about, one is in reading, and the other is in the use 
of technology to enhance the learning of students with 
disabilities.
    They have developed curricula in those areas, and those 
have been put on-line for teacher training programs to adopt 
into their curricula. We now have over 150 universities that 
have adopted the curricula, so they are using research-based 
practices in their teacher training programs.
    We are also using the On-line Academy for in-service 
training. We are working on this one now. State educational 
agencies will be able to accessthese modules for in-service 
training for the teachers in their schools. So that is a major effort 
in this area.
    Mr. Regula. If I was a teacher and had a challenging 
student or students, in terms of social behavior, could I get 
to your web site and try to find ideas, utilizing information 
on the web site?
    Ms. Guard. Yes, you could; the technical assistance centers 
that we are funding, including the one that I just mentioned on 
positive behavior supports, all have their own web sites. All 
of the materials that they have developed are on their web 
sites. So a teacher would be able to go on to the web site and 
learn about effective instructional practices for dealing with 
the behaviors of students.
    Another thing that we have learned about this, from our 
research in looking at school-wide models in behavior, is that 
if you think about a school and levels of intervention that are 
needed, and if you think about a pyramid, about 80 percent of 
the students will respond to interventions that are very, very 
general, like developing rules in the school, so everybody 
knows what is expected.
    For example, there is one school that developed the ``High 
Fives''. The High Fives are for responsible behavior in the 
school. All the students in the school, have been trained about 
what the High Fives are.
    The High Fives are: be responsible, be respectful, keep 
your hands to yourself, follow directions and be on time, and 
be ready. The program looks at the whole school environment and 
not just the classroom, because a lot of these disruptions take 
place when kids are in the hallway or waiting to go into the 
lunchroom.
    About 80 percent of the students respond to that just fine, 
and that helps with the behavior in the whole school. There is 
another percentage of students that need a little bit more 
intervention to make it work. For instance they may need small 
group instruction. Then there is a very small percentage of 
students that need intensive help, and those are typically the 
students that are referred for special education and are 
receiving services under IDEA for emotional problems.
    When you have these school-wide models in place for all 
students, it frees up your time and resources to be able to 
work with that small number of students that need the more 
intense interventions.

                   VOCATIONAL REHABILITATION FORMULA

    Mr. Regula. On vocational rehabilitation, I understand your 
grants are distributed by a formula to the States. Is that 
correct?
    Mr. Corrigan. That is correct.
    Mr. Regula. That is based on per-capita income and 
population.
    Mr. Corrigan. Right.
    Mr. Regula. So the lower income States or the lower income 
would get greater amounts.
    Mr. Corrigan. Per capita income is considered as a 
surrogate for need in the State, because we did not have good 
data on the number of persons with disabilities by State.
    Mr. Regula. Right, right, well, can you explain why there 
seems to be some consternation among some of the States that 
COLAs for these grants are not distributed evenly?
    I know Ohio is one that does not feel that they are getting 
a fair distribution on the grant making process for the COLAs.
    Mr. Corrigan. Under the formula?
    Mr. Regula. Yes.
    Mr. Corrigan. I can start that, and Beverlee probably can 
finish it. But basically, what happens is, there is a certain 
increase, and it is 3.4 percent this year, that is driven by 
the Consumer Price Index for Urban Areas.
    Mr. Regula. Right.
    Mr. Corrigan. Then, when you put that into the formula with 
the population and the income factors, the distribution results 
in some States actually getting less of an increase.
    What the Rehabilitation Services Administration has tried 
to do is, in the re-allotment of funds toward the end of the 
year, to make reallotment funds available to those States that 
received fewer funds than the previous year. It ranges probably 
as much as a percent, does it not?
    Ms. Stafford. Yes, the formula, as it is in statute, is 
based on population, and adjusted by per-capita income. So any 
time a State has a change in either one of those, it is going 
to affect the amount of funds they get.
    Mr. Regula. So if the COLA were 3.4 percent, you would not 
apply that to what the State was already getting.
    Ms. Stafford. Right.
    Mr. Corrigan. Right.
    Mr. Regula. And it might only end up that they get two 
percent, and that is what causes this disparity.
    Ms. Stafford. Yes, if a State had population shifts or a 
change in its per-capita income.
    Mr. Regula. Well, I can understand now why some States feel 
they are getting shorted.
    Mr. Kennedy.

                       EARLY INTERVENTION FUNDING

    Mr. Kennedy. Thank you, Mr. Chairman.
    Speaking of COLAs, I am concerned, overall, about the fact 
that we have not even had a cost of living adjustment for many 
programs that need it in this education budget. In initiatives 
like IDEA Part C, I mean, we need to see that the funding goes 
up, even more than it is.
    How is it that this budget was arrived at, with the freeze 
of Part C, when the whole point of IDEA and the whole point of 
these kinds of programs is to identify kids when they can be 
most helped through intervention?
    Mr. Corrigan. Initially, one of the choices here is a 
priority decision among the various resources being applied. So 
basically, the $1 billion increase that I mentioned at the 
opening was one of the decisions made, in terms of where the 
Administration would put the increase in the budget that we put 
forth, as opposed to the various other parts of IDEA.
    So for Part C, it was determined that this program would be 
level funded, and several of the other categories, as well. It 
was just a choice among them, so the billion dollar increase 
applies to the Part B Grants to States program.
    Mr. Kennedy. Mr. Chairman, I have had a hearing in my own 
State, with local legislators and experts in the field. I did 
not find anyone who did not think that increasing Part C was 
the best thing we could do.
    They are all telling me that is the most cost-effective way 
of addressing, in an early intervention setting with the 
families, who are absolutely crucial to this process of helping 
them understand how they could be better parents and be better 
educators themselves, as the family members.
    This was from folks involved in the area, when they were 
looking at how to get more for less, if you want to look at it 
in really austere terms. They said Part C was the way to go.
    So that is why I find it interesting that Part B is 
increased. While it could clearly probably no doubt use an 
increase, you know, I have also heard how Part B, often there 
is a vacuum here, in terms of Part B.
    In fact, I am thinking of asking for a GAO study of where 
these funds are going. The fact that we do not know how many 
people are disabled in these various States, to me, is 
appalling. I mean, where is our money going?
    If we are going to have such austere budgets, you know, I 
want to make sure that the dollars that we are appropriating 
are going to meet the needs of kids in the classroom who need 
those dollars, and not to re-seed the football field or, you 
know, buy new uniforms for the band. We do not know, in these 
States, where this money is going.
    You know, I have a lot to learn, but I have been around 
long enough to talk to many families of kids who have special 
education needs, and they do not see the money going to their 
kids, that is for sure.
    And for some reason, I am all the way down on this end, and 
it takes me awhile to work up to there. But over time, I look 
forward to being able to learn, myself, where I think I can be 
useful, as a member of this Congress, to help see that the 
money gets to where it needs to go.
    But that is not to say that I do not expect and anticipate 
and do not look forward to working with all of you on this 
issue. It is obviously, I think, probably a frustration for all 
of us, because we all want the kids to get what they need.

                         NEW FREEDOM INITIATIVE

    I salute the President's initiatives, to follow in his 
father's legacy of the Americans with Disability Act, which my 
own father had a great deal to do with, along with my brother, 
Ted.
    The New Freedom's disability initiative, how do you see 
that coming into play, when it comes to the IDEA? How do you 
see this initiative being incorporated into what you are 
talking about today?
    Mr. Corrigan. The New Freedom Initiative, as it applies to 
that?
    Mr. Kennedy. Yes.
    Mr. Corrigan. Well, okay, the New Freedom Initiative has a 
series of initiatives that are focused in part under NIDRR, the 
National Institute on Disability and Rehabilitation Research.
    It includes $5 million addressed to the Small Business 
Innovation Research program, as well as a $25 million increase 
in Title III of the Assistive Technology Act, and $3 million to 
the Interagency Committee on Disability Research to support 
coordination and collaboration among the Federal agencies in 
areas of support for individuals with disabilities getting and 
utilizing more assistive technology devices and supports.
     Going back to that question that you have about the 
special education dollar amount, it is over $1,100 per capita. 
I think, you know, we would all be concerned that it is 
reaching the children, but the increase for part B, this year, 
we think is fairly substantial.
     Going back to the New Freedom Initiative, it includes some 
new loan program authorities, where there would be matching 
grants with the States. There is the telework initiative under 
Title III of the Rehab Act, which would provide support for 
competitive grants within the States. The Access to Telework 
Fund is a $20 million program for purchasing computers and 
related assistive devices for persons who would want to work at 
home.
    There is also a tax-related incentive for employers who 
would provide these devices to individuals with disabilities 
that they might intend to employ. So there is a couple of those 
kinds of things that are inter-related with special education 
and the transition from special education to postsecondary 
education and work.

                         IDEA FUNDING INCREASE

    Mr. Kennedy. Good, and I want to say, it is nice to see the 
President is asking for an increase in IDEA. Obviously, 
Congress is where the real battles are, and we need to work on 
our side to make sure, in the Congress, to see that we increase 
funding for IDEA, and we are going to work to do that.
    I did not mean to disparage the leadership on the 
President's part for doing this. We certainly need more of that 
kind of leadership.
    Ms. Guard. I wanted to comment on what we know about where 
the increased funds are going.
    Mr. Kennedy. Sure.
    Ms. Guard. You mentioned that you often hear that people do 
not see any result of the increased funding. I think in the 
local districts, parents and teachers often do not know what 
the source of funding is.
     We have learned from our basic source, which has been 
State directors of special education, and through them, local 
directors, how States and local districts are using these 
additional funds. Over and over, we hear that they are hiring 
additional personnel, particularly related-services personnel, 
and personnel to work with the transition of students from 
school to adult services.
    They are also using these funds for technology expenses 
related to students with disabilities, and for professional 
development and training. They are putting a lot of money into 
professional development and training.
    Mr. Kennedy. Well, I like that last part, because it seems 
to me, everything I heard was, to the extent you mainstream the 
kids, and you give the support to the existing teachers, in 
terms of the extra training and support services for them to do 
their job.
    Because the specialty and sub-specialty services gobble up 
all the money, and no offense to people who are in those areas, 
but oftentimes, that obviously is not the most effective use of 
the money, when your ultimate objective is to mainstream the 
child, to begin with.
    So to have a whole host of duplicative and redundant 
services, you know, maybe special services are noble, but when 
you are looking for these dollars to be spent in the most cost-
effective way, it does not often make sense. Training the 
teachers was what was related to me as being very, very useful, 
and training the parents.
    Ms. Guard. In another of the President's initiatives under 
``No Child Left Behind'', there is a major emphasis, as you 
know, on reading.
    Many of our students with disabilities--over half of them--
spend most of their time in the regular classroom. So it is 
regular education teachers that are teaching them. A big push 
of the Reading First Initiative, in the President's budget, 
would be to make sure that those teachershave effective 
strategies for teacher training. We do know that there are some 
students who end up getting referred to special education, because they 
did not get effective reading instruction.
    We also know that there are a number of students for whom 
those strategies are not going to be successful, and that is 
who our work focuses on. There are about five percent of 
students that do not respond to those interventions. We have a 
research and training component in our program to help with 
that small number of students.
    Mr. Kennedy. Well, let me conclude by just saying that as I 
said, with Secretary Paige yesterday, you know, cognitive 
development is great, but if you do not have social and 
emotional development alongside of it, and a behavioral 
development type of approach, as well, that is going to be 
money that is going to get lost. All the studies show that, in 
terms of these kids who are at risk.
    I know the President's reading and literacy is very, very 
crucial; but again, I just want to underscore how vital I think 
the programs are that help them with their other social 
emotional development, as well.

                        SERVICES FOR RURAL AREAS

    Mr. Regula. Mr. Sherwood?
    Mr. Sherwood. I commend the Bush Administration for their 
request of a major increase in special education funding.
    You may have heard Congressman Peterson testify or discuss 
this, this morning, that rural school districts really do not 
think that they get any help from the Federal Government.
    I was on the board of a moderate sized rural school 
district. We worked real hard to get the Federal grants. You 
know, it takes a lot of hard work and good management to run a 
local school system.
    You analyze your tax base and your revenue, and then what 
you are going to get from your wealth effect from the State. 
You make all those decisions, and you try to make sure that you 
have the roofs on and the buildings built, and everything is 
safe and in order, and comply with the latest regulations.
    Then it always comes down at the very end, to the heart-
rending decision of, do you put those final funds in IDEA 
stuff, or do you put them in curriculum, or good sound 
academic, because there is never enough to go around.
    So the most wrenching decision, I think, that local school 
boards make are balancing the funds for their special needs 
children, that might make up 10 percent of the district in 
population, with the needs of the other 80 or 90 percent.
    So it is so important that the Federal Government live up 
to the promise that they made years ago of funding special 
education better.
    I think I am pretty conservative fiscally, but that is an 
area that we need more funds. I would like to say that the 
percentage you have asked for is a great help from what we have 
had in the past, but we need to do a little better.
    I would like to know if you have any advice that I can take 
back to my local friends on the school board about where we are 
going to go and how it is going to work.
    Ms. Cichowski. I think I can reaffirm that the President is 
committed to increased funding for IDEA. I think that was 
reflected, certainly, in this year's budget request. This is 
the biggest increase for IDEA ever requested by a President. So 
you certainly can take that word back to your constituents, Mr. 
Sherwood.
    Mr. Sherwood. And as I said from the very start, I have got 
to commend the Bush Administration for that.
    But it is hard, here in Washington, to understand the depth 
of disillusionment over that program, with the people that 
manage local school boards. So you know, anything that you can 
do with that funding will increase the morale of all the people 
that we charge with raising our children, with educating our 
children.
    Ms. Cichowski. Mr. Sherwood, money is important, and we are 
committed to providing more of it. But we also have a number of 
other activities that we undertake at the Federal level that 
are directed at assisting school districts and States 
throughout the country in implementing IDEA, and maybe we 
should speak to that.

                        SERVICES FOR RURAL AREAS

    Ms. Guard. I would like to mention a couple of things. We 
are aware of the challenges that rural districts have. Under 
our IDEA national activity programs, we have research and 
demonstration, teacher training, and parent training programs. 
We have about 115 projects, across our programs, that address 
rural issues.
    Specifically, in Pennsylvania, we have a couple of things 
that you might be interested in. One of the things that we fund 
are parent training centers. We have a network of parent 
training centers.
    In addition to the statewide general parent training 
centers, we have some centers that are providing specific kinds 
of technical assistance. An example is in rural areas. We are 
funding one in Pennsylvania. It is a community parent resource 
center, in a rural area, that is helping the school district 
and parents meet some of the challenges for providing services 
or accessing the kinds of related services that a student might 
need in a rural area because there are teacher shortages. That 
is one example.
    We also have a major program called the State Improvement 
grant program. These are very large grants, from $500,000 to $2 
million, that States can compete for, and 75 percent of those 
funds go for teacher training in the State, to address the 
State-identified needs for personnel.
    Pennsylvania received one of those grants in 1998, and for 
five years, they will be getting about $1.3 million a year. 
With that grant, they will be addressing their needs for 
personnel, because 75 percent of those dollars must go to that.
    Some of the ways they use those funds are looking at how to 
ensure that providers in rural communities have the knowledge 
they need and the training they need. So for example they may 
use distance learning.
    They are also using strategies like encouraging para-
professionals to go on to college, and providing them the 
tuition that they need to go to college, to become teachers in 
the rural community, because we know they are more likely to 
stay in that community. So those are some examples of some 
resources that are going to Pennsylvania from our programs.
    Mr. Sherwood. Well, I appreciate that. You will notice that 
I am not one of the members in Congress that wants to expand 
the role of the Federal Government in education. I do not 
believe you are responsible for building our schools. I do not 
believe you are responsible for hiring our teachers.
    But I do believe you are responsible for keeping your word. 
When a program is instituted, and you say that you will fund a 
certain amount of it, and I mean the FederalGovernment and not 
you folks, and when the Federal Government makes a promise, then I 
believe we need to keep that.
    Where in Pennsylvania is this center that you are talking 
about, this rural center?
    Ms. Guard. It is in Pittsfield.
    Mr. Sherwood. Pittsfield, Pennsylvania?
    Ms. Guard. Yes, is that your district?
    Mr. Sherwood. Thank you very much. [Laughter.]
    Mr. Regula. Mr. Peterson.
    Mr. Peterson. If it was in rural, there is a 50 percent 
chance it is Congressman Sherwood's or mine, because we have 
half the State. [Laughter.]

                     REHABILITATION AND TECHNOLOGY

    Really quickly, and I know your time is late, and we are 
running into the next one, but in the latter part of your 
written piece that you handed out, you talk about vocational 
rehabilitation, and you talk about technology.
    What percentage of your special education population would 
need some vocational rehabilitation, or would technology play a 
role in?
    Ms. Guard. Students with disabilities may move on to the 
Vocational Rehabilitation program after they leave high school. 
That would be the adult employment training program for people 
with disabilities. Many students who are in special education, 
when they leave school, receive services under that program.
    They also can receive services while in high school, 
through the Vocational Rehabilitation program. We try to 
coordinate those services, so if they need some kind of 
vocational training, it is possible that it could be provided 
through the Vocational Rehabilitation program, the adult 
training program.
    For students with disabilities, in school, in terms of the 
use of technology, many of our students spend most of their day 
in the regular classroom. For many of them, it is technology 
that has allowed that to happen for them.
    They may use instructional technology that helps them have 
access to the same curriculum that other students are learning. 
For example, there is technology that has software that would 
measure where a student is performing in mathematics, and then 
introduce new concepts at the level that student is prepared to 
learn them. So it is individualized, and it is interactive for 
the student.
    Those are some examples of how technology is used for 
students with disabilities and allows them to participate in 
the regular classroom.

                          VOCATIONAL EDUCATION

    Mr. Peterson. Well, I know in my rural district, in many of 
my vocational/technical schools, 60 or 70 percent of their 
population are special ed. students.
    But I guess on the vocational rehab., the stronger the 
technical programs that are available in a school, the more it 
enables you.
    Ms. Guard. Right, and for some time, we were concerned that 
students with disabilities did not have access to vocational 
education programs. That really has turned around. Now, 
students with disabilities take more vocational education than 
non-disabled students.
    Actually, we know from a national transition longitudinal 
study that we funded in the late-1980s, that students who 
participate in meaningful vocational education, and have 
content specific vocational education, and participate in 
cooperative work programs, their employment outcomes are much 
better, once they leave school.
    So we have seen a real positive turnaround in students with 
disabilities participation in vocational education.
    Mr. Peterson. As I lobby your peers for an expansion of 
technical education in our overall system, I hope your clear, 
precise voice will be there with me.
    Mr. Regula. Thank you for being here. You have a big 
challenge. There are a lot of people depending on you 
administering these programs well.
    So we will go to the next panel. Thank you.

                  HOW SPECIAL EDUCATION FUNDS ARE USED

    I have a quick question. Do any of the schools gain in the 
system where they try to get the special ed. money and blend it 
into their regular budget?
    Ms. Guard. The special ed. dollars must be spent according 
to the purposes under IDEA.
    Mr. Regula. I understand that is what they are supposed to 
be.
    Ms. Guard. There are statewide audits that are routinely 
performed.
    Mr. Regula. Okay.
    Mr. Kennedy. In that regard, I just met with some of the 
disability folks from around the country. They were telling me 
that we need a GAO study; if you really want to care about kids 
with disabilities, that these dollars stay in their contention 
or not.
    I was meeting with some of the ARC folks, the Association 
of Retarded Citizens, and they do not think that that is the 
case. They do not think there can be justification for where 
these dollars are actually being spent.
    They said, I challenge you to go to them and have them show 
exactly where that money is getting spent in the states. They 
said, they will not be able to tell you.
    Mr. Regula. Well, I think it is a challenge for you to make 
sure those dollars really get to students, and not get blended 
in by an artful superintendent, into the regular budget.
    Mr. Corrigan. Right.
    Mr. Regula. Thank you.
    Mr. Corrigan. Thank you.
    [The following questions were submitted to be answered for 
the record:


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Belle, R.L., Jr..................................................   253
Betka, Sue.......................................................   127
Cichowski, C.A........................127, 253, 321, 355, 375, 405, 429
Corrigan, F.V........................................305, 355, 375, 429
Corwin, T.M......................................................   127
Davila, R.R......................................................   375
Guard, Patricia..................................................   429
Jones, Lonna...................................................127, 227
Jones, Vinetta...................................................   321
Jordan, I.K......................................................   355
Kemp, Jack.......................................................   321
Love, Arthur.....................................................   127
McLaughlin, M.A................................................253, 321
Muller, Robert...................................................   227
Paige, Hon. R.R..................................................     1
Skelly, T.P.................................................1, 127, 253
Stafford, B.J....................................................   429
Swygert, H.P.....................................................   321
Thompson, W.S....................................................   375
Tinsley, Tuck, III...............................................   405
Woods, Greg......................................................   253


                               I N D E X

                              ----------                              
                                                                   Page

                         Secretary of Education

100,000 New Teachers program....................................43, 104
21st century community learning center12, 53, 65, 110-112, 115, 121-123
Accountability.............5, 6, 10-12, 44, 79, 80, 93-95, 97, 104, 109
Achievement gap...................................3, 4, 10, 19, 98, 110
Adult literacy.............................................120, 122-125
After-school programs (see also 21st century centers, child 
  development).................................................111, 115
Alan Bersin, San Diego Superintendent of Schools.................    46
Americans with Disabilities Act/Olmstead decision (see also 
  Olmstead decision).............................................    66
Assessments.5, 6, 10, 18, 44, 47, 51, 79, 84, 85, 96, 102, 104-105, 109
At-risk children and youth.......................................    65
Big Brothers Big Sisters of America..............................   115
Bilingual education budget request...............................    52
Biographical sketch of Secretary Paige...........................    15
Block grants...............................................46, 102, 114
Brown v. Board of Education......................................69, 70
Calculator use in mathematics classes............................   100
CAMP and 21st century programs budget requests...................    53
Chairman's opening statement.....................................     1
Chairman's procedural remarks................................16, 82, 83
Charter schools homestead fund................................... 7, 12
Child development...............................56-62, 82, 115, 122-124
Childcare access means parents in school program (CCAMPS)........   112
Choice and innovation state grants......................5, 13, 104, 116
Class size (see also school construction)...7, 12, 53, 75, 76, 104, 105
Classroom ``out-of-pocket'' expenses--tax deduction proposal.....    13
Cognitive and social-emotional development of a child............    82
College participation rates......................................    98
Comer article on ``Schools that Develop Children''............... 57-62
Congratulations extended to Secretary Paige......................    69
Consolidations (see program consolidations and terminations)
Constitutional limitation on Federal role in education...........    71
Discretionary budget, fiscal years 1995-2002....................99, 100
``Don't Laugh at Me'' project and school safety..................    45
Early educational experience of Secretary Paige..................    75
Early intervention for children with disabilities....101, 119, 120, 123
Early Reading First Program............................11, 16, 121, 125
Education funding (see also tax cuts and education funding.....2, 9, 80
Education is the number one priority..........................3, 69, 82
Education savings accounts....................................7, 12, 13
Education technology..................13, 81, 89, 100-101, 104, 106-107
Educational quality: shared goal with varied paths...............    69
Empowering parents with choices.................................. 7, 12
ERIC Clearinghouse on Assessment and Evaluation..................   102
ESEA reauthorization.............................................86, 97
Even Start program.............................................123, 125
Failing schools (see also accountability, assessment10-11, 76, 109, 110
Family literacy, and extended learning opportunities......120, 122, 123
Family participation in children's education.....................    67
Federal dollars in Pennsylvania classrooms.......................    54
Federal Family Education Loan administration.....................    90
Federal role in education....................53, 54, 71-72, 78, 82, 113
Flexibility for schools.........................7, 11, 12, 43, 104, 110
Full-service community schools.................................108, 110
FY 2002 budget request (see also individual progra3-14, 63, 71, 107-109
FY 2002 initiatives planned for addressing management challenges.90, 91
GAO identified management challenges............................. 90-92
GEAR UP (Gaining early awareness and readiness for undergraduate 
  programs)......................................................   113
Graduate assistance in areas of national need....................   113
Grants for infants and families program and ``Reading First'' 
  initiative....................................................67, 120
Hispanic-serving institutions................................8, 14, 113
Historical inequality in education............................... 60-71
Historically black colleges and universities (HBCUS).8, 14, 98, 113-116
Historically black graduate institutions (HBGIS)................98, 116
Houston experience in meeting academic and fiscal demands........    49
IDEA (See Special Education)
Impact aid.......................................................    13
Javits fellowships...............................................   113
Kentucky school reform...........................................    44
Life-long learning...............................................   125
Loan forgiveness (see student loan forgiveness)
Management excellence--blueprint for achieving...................90, 91
Math test scores................................................. 36-38
Mental health and well-being of our Nation's students...45, 65, 116-118
Military service as a valuable educational venue.................    55
NAEP test scores (see also Rand4, 9, 19, 21, 71, 77, 84-87, 92, 96, 109
``No Child Left Behind''...4-8, 10-14, 85, 86, 93, 95-97, 104, 113, 125
OERI National Center for Research on Evaluation, Standards, and 
  Student Testing................................................   102
Office for Civil Rights..........................................    90
Office of the Inspector General..................................    90
Olmstead decision....................................66-68, 77, 85, 118
Opening remarks of ranking minority member.......................     1
Opening remarks of Secretary Paige...............................     3
Partnerships to improve teacher quality, curriculum..............    17
Pell grants......................................8, 14, 17, 97, 98, 125
Peter Yarrow (see ``Don't Laugh at Me'' project'') Plessy v. 
  Ferguson.......................................................    69
Postsecondary education (see also individual program names)..7, 14, 113
Prepared statement of Secretary of Education.....................     8
Principal quality................................................    86
Program administration...........................................    90
Program consolidations and terminations.....................88, 89, 104
Qualified State tuition plans....................................    14
Rand issue paper on Texas education reform--response............. 39-42
Rand issue paper on Texas education reform................18, 19, 21-35
Rand report...................................................21, 36-38
Reading First program.......6, 11, 16, 87, 101, 103, 120, 121, 124, 125
Ready to learn television program................................    89
Research-based practices in teacher colleges.....................5, 103
Rod Paige Middle School--hero's homecoming for Paige.............73, 75
Safe and drug-free schools program..............................13, 117
Safe schools/healthy students initiative.....................13, 45, 65
Salaries and Expenses (see Program administration
School construction and repair................13, 48-50, 52-54, 72, 108
School improvement and full-service community schools............   108
School reform program (see also Rand issue paper, 5, 8, 17, 18, 43, 116
School size--effect of size and structure on students (see also 
  class size)....................................................    75
Special education...............7, 45, 51, 63, 66-68, 107, 108, 118-121
Special education grants to States......................7, 13, 108, 125
Special education infants and families program..............65, 120-125
Star Schools program.............................................    89
State assessments in reading and math (see also assessments, 
  testing)..................................................47, 96, 102
Statement of Secretary Paige.....................................     3
Student financial assistance (See also Pell grants).......8, 14, 91, 98
Student loan forgiveness......................................... 8, 14
Superintendent of San Diego, California..........................    46
Targeting and consolidation of funds.............................88, 89
Tax cuts and funds for education...........................2, 9, 50, 78
Teacher shortages..............................................107, 108
Teacher training and quality.7, 12, 16, 17, 52, 56, 77, 79, 88, 103-105
Technology (see education technology)
Telecommunications Project for Mathematics.......................    89
Terminations (see program consolidations and terminations)
Testing (see also assessments, accountability)......10, 77, 85, 95, 102
Texas accountability system (see also Rand report, Rand issue 
  paper).....................................................92, 93, 96
Texas assessments and NAEP results--comparison...................    19
Title I, assistive technology State grant program..............106, 107
Title I, education for the6, 10, 11, 45-47, 50, 77, 85, 89, 95, 97, 109
Title III assistive technology loan program......................   106
Transition to teaching proposal..................................    12
TRIO programs and HBCUs........................8, 14, 98, 105, 113, 114
Value of strong teacher relationship with student................    76
Vocational technical training....................................    55
Witnesses........................................................ 1, 51

   Office of Elementary and Secondary Education, Office of Bilingual 
  Education and Minority Languages Affairs, and Office of Educational 
                        Research and Improvement

21st Century community learning centers..........................   224
After school centers.............................................   205
Arts in education................................................   219
Bilingual education professional development.....................   209
Biographical sketch of Arthur Love...............................   141
Biographical sketch of Sue Betka.................................   149
Biographical sketch of Thomas M. Corwin..........................   135
Block grants.....................................................   211
Change in immigration patterns...................................   136
Choice and innovation State grants...............................   224
Civic education..................................................   219
Class size reduction.............................................   196
Closing the achievement gap....................................128, 131
Collaboration between OERI, NSF, and NICHD.......................   220
Community-based technology centers...............................   213
Comprehensive school reform......................................   178
Comprehensive school reform demonstrations.......................   172
Comprehensive school reform packages.............................   223
Comprehensive schools............................................   159
Comprehensive services...........................................   158
Congressional Justifications:
    Education for the disadvantaged..............................   683
    Impact aid...................................................   746
    School improvement...........................................   783
    Indian education.............................................   906
    Education reform.............................................   925
    Reading excellence...........................................   938
    Bilingual and immigrant education............................   944
    Education research, statistics, and assessment...............  1441
Data on schools and students participation in Title I............   195
Differences between State tests and NAEP.........................   150
Dissemination of National Reading Panel findings.................   221
Does the research get to the people who need it most?............   223
Early childhood educator professional development................   203
Educating students who are not college bound.....................   165
Effect of a $1 billion appropriation on bilingual block grant....   210
Effect of FY 2002 request on Title 1 allocations to LEAs.........   194
Eisenhower regional mathematics and science education consortia..   212
Empowering parents with choice...................................   133
English fluency..................................................   155
Estimated by FY 2002 Title 1 grants to LEAs: increases and 
  decreases over FY 2001.........................................   192
Expanding flexibility and reducing bureaucracy...................   132
Federal assistance...............................................   162
Federal dollars in rural school districts........................   165
Federal Government's role in addressing inequalities.............   167
Funding for rural school districts...............................   163
Growth in number of limited English proficient students..........   210
H.R. 1 and testing...............................................   152
Head Start.......................................................   168
History of bilingual education...................................   136
Impact aid.......................................................   170
Improving teachers colleges......................................   222
Inequities in education funding..................................   161
International education..........................................   177
Introduction of witnesses........................................   127
Javits gifted and talented education program.....................   218
Learning two languages...........................................   157
Limited English proficiency....................................139, 156
National Assessment of Educational Progress......................   175
National Board for Professional Teaching Standards...............   212
National teacher recruitment clearinghouse.......................   220
National writing project.........................................   219
NCES data collection and analysis..............................147, 157
No Child Left Behind.............................................   136
OERI dissemination...............................................   174
Opening statement by Arthur Love...............................136, 138
Opening statement by Sue Betka.................................142, 144
Opening statement by Thomas M. Corwin..........................128, 131
Other highlights of the budget request.........................129, 133
Parental centers.................................................   200
Percentage of students who are LEP...............................   156
Politicization of the testing process............................   155
Proposed bilingual education State formula program.............138, 173
Purposes of the State tests and NAEP.............................   151
Reading first....................................................   153
Reading research.................................................   159
Research, development and dissemination........................142, 145
Safe and drug-free schools.......................................   204
School counselors................................................   207
School renovation................................................   189
School size......................................................   159
Selected Program Performance Information:
    Education for the disadvantaged..............................   468
    Impact aid...................................................   487
    School improvement...........................................   496
    Indian education.............................................   529
    Bilingual and immigrant education............................   534
    Education research, statistics, and assessment...............   668
Serving additional Title I students..............................   196
Small schools....................................................   179
Smaller learning communities grantees............................   185
Spanish to English reading initiative............................   222
Special populations..............................................   134
Star schools grantees............................................   216
State standards and assessments................................150, 176
Statistics and assessment........................................   142
Title I..........................................................   189
Title I hold-harmless............................................   172
Title I schoolwide programs......................................   166
Title I targeted grants..........................................   171
Transition to teaching...........................................   202
Women's educational equity program...............................   217

                Vocational and Adult Education Programs

Adult education and family literacy:
    Budget request for FY 2002.................................228, 232
    Eligible population..........................................   248
    Reduction in national activities.............................   249
Congressional Justification......................................  1165
Corrections education..........................................234, 249
English literacy and civics initiative...........................   247
English literacy.................................................   242
Family literacy and children's learning..........................   235
Focus on performance accountability..............................   231
High-tech skills, need for.......................................   236
Illiteracy, problems associated with.............................   243
Incentive grants reserve.........................................   250
National assessment of vocational education (NAVE)...............   245
Occupational and employment information..........................   245
Ohio and vocational-technical education..........................   238
Opening statement of Robert Muller.............................227, 230
Postsecondary remedial education.................................   242
Selected Program Performance Information.........................   614
State accountability.............................................   227
Technical institutions...........................................   238
Technology in the vocational classroom...........................   237
Tech-prep......................................................235, 246
Vocational and technical education:
    Budget request for FY 2002.................................228, 231
    Funds to secondary and postsecondary institutions............   240
    Reduction in national programs...............................   246
Web access to vocational education information...................   243

   Postsecondary Education Programs and Student Financial Assistance

Appropriations Language for FY 2001..............................   317
Budget Proposals, Development of.................................   278
Child Care Access Means Parents in School Program................   308
College Enrollment.............................................279, 300
College Preparedness.............................................   291
Completion Rates for Minority and Non-Minority Students..........   301
Congressional Justifications:
    Student Financial Assistance.................................  1219
    Student Loans................................................  1271
    Federal Family Education Loan Program........................  1292
    Higher Education.............................................  1317
    College Housing and Academic Facilities Loans Program........  1421
    Historically Black College and University Capital Financing..  1430
Debt Burden......................................................   294
Degree Attainment by Income and Race/Ethnicity...................   299
Direct Loan Origination Fees...................................281, 314
Disadvantatged Students, Federal Aid for.........................   300
Fund for the Improvement of Postsecondary Education..............   307
GEAR UP...................................................291, 302, 314
Growth in College Costs..........................................   277
Hispanic Students, Enrollment Rates for..........................   301
Information on College and Financial Aid, Availability of......287, 289
International Education Programs...............................272, 312
IRS Income Verification..........................................   294
Language Proficiency in the United States........................   282
Learning Anywhere Anytime Partnerships...........................   305
Olympic Scholarships.............................................   308
Opening Statement by Maureen A. McLaughlin:......................   253
    Student Financial Assistance...............................254, 256
    Higher Education Programs..................................254, 258
Opening Statement of Greg Woods:.................................   262
    Status of the Performance-Based Organization.................   262
    Financial and Program Integrity............................262, 265
    Financial Management Systems.................................   263
    E-Commerce Strategy..........................................   263
    Student Loan Defaults........................................   265
    Safeguarding Government Property.............................   266
    Improving Loan Discharge Procedures..........................   266
    Student Loans at Foreign Schools.............................   267
    Verifying Student Aid Applicant Incomes......................   268
    Achieving a Clean Audit......................................   268
Pell Grants:
    As a Percentage of Cost of Attendance........................   299
    Budget Request........................................271, 273, 283
Cost Estimates...................................................   317
    Effect of Increases on Tuition...............................   278
    Historical Data..............................................   296
    Maximum Award................................................   295
Program Eliminations.............................................   275
Quality Higher Education for Students with Disabilities..........   303
Selected Program Performance Information:
    Student Financial Assistance.................................   629
    Student Loans................................................   637
    Higher Education.............................................   641
Student Loans....................................................   271
Teacher Quality Programs..................................272, 292, 309
Teacher Support..................................................   292
Thurgood Marshall Legal Educational Opportunity Program........309, 317
Title III Programs........................................280, 295, 318
TRIO Programs...................................284, 302, 313, 315, 319
Underground Railroad Program.....................................   313
Unmet Need.......................................................   299
Vocational Education.............................................   289
Witnesses........................................................   253
Workforce Preparation, Role of Education in....................280, 285
Work Study.......................................................   274

                           Howard University

Accreditation....................................................   329
Alumni....................................................333, 335, 344
Analytical Abstract..............................................   327
Biographical sketch of H. Patrick Swygert, Esq...................   334
Board of Trustees..............................................335, 345
Community service initiatives....................................   347
Congressional Justification......................................  1408
Critical research initiatives....................................   324
Dissemination of research information............................   340
Endowment........................................................   333
Facts 2001 publication...........................................   326
Faculty salary comparison........................................   339
Fiscal year 2002 budget request................................339, 347
Government Performance and Results Act (GPRA)..................328, 349
Graduate programs................................................   335
History of Howard University.....................................   323
Interdisciplinary Science and Engineering Center (ISE325, 336, 337, 349
Library construction projects....................................   337
Medical and science facilities...................................   338
Minority representation in sciences..............................   353
Opening statement..............................................322, 326
Property value...................................................   337
Public television station WHUT-TV................................   352
Recent student scholars..........................................   323
Restructuring of schools and colleges............................   324
Selected Program Performance Information.........................   665
Shortage of quality school administrators........................   344
Strategic Framework for Action............................324, 327, 338
Student data:
    Enrollment.......................................322, 330, 335, 345
    Retention and graduation...................................332, 335
    SAT scores...................................................   331
Teacher preparation..............................................   336
Witnesses........................................................   321

           Special Institutions for Persons with Disabilities

Opening Statement, Francis V. Corrigan...........................   356
Gallaudet University:
    Accreditation review.........................................   362
    Alumni survey................................................   360
    Biographical sketch, I. King Jordan..........................   368
    Budget request.............................................361, 372
    Campus security............................................364, 374
    Capital campaign.............................................   362
    Congressional justification..................................  1153
    Deferred maintenance activities..............................   376
    Elementary and secondary school services...................366, 370
    Endowment Grant program....................................367, 376
    Government Performance and Results Act.......................   365
    Graduation rate..............................................   370
    Laurent Clerc National Deaf Education Center...............366, 370
    Opening statement, I. King Jordan..........................360, 364
    Retention efforts............................................   365
    Selected program performance measures........................   609
    Types of programs............................................   360
    Witnesses....................................................   355
National Technical Institute for the Deaf:
    Benefits to students of getting a degree.....................   381
    Biographical sketch..........................................   389
    Budget request........................................381, 384, 392
    Career development programs..................................   386
    Congressional justification..................................  1137
    Dormitory construction funding.............................387, 405
    Dormitory renovation project cost overruns...................   404
    Endowment grant............................................387, 403
    Enrollment...................................................   385
    Funding from New York State..................................   406
    Geographic backgrounds of students...........................   390
    Graduation rates.............................................   390
    Impact of level funding......................................   392
    NTID's rationale for proposed increases......................   396
    Number of degree programs....................................   391
    Opening statement, Robert R. Davila........................380, 384
    Outreach activities..........................................   387
    Remarks by Honorable Louise M. Slaughter.....................   379
    Research report..............................................   386
    Responsiveness to community needs............................   390
    Rochester Institute of Technology information................   382
    Selected program performance measures........................   605
    Student accomplishments......................................   385
    Student feedback.............................................   382
    Witnesses....................................................   379
American Printing House for the Blind:
    Accessible formats for standardized tests....................   419
    Accessible textbook initiative and collaboration.............   418
    Advisory services............................................   413
    Alternative sources of funding for APH.......................   428
    Biographical sketch..........................................   417
    Budget request.............................................410, 422
    Congressional justification..................................  1125
    Cost and amount of materials produced......................420, 427
    Educational and technical research...........................   415
    Educational materials......................................413, 426
    International sales..........................................   421
    Number of children served....................................   423
    Opening statement..........................................410, 412
    Per Student allotment........................................   419
    Recording for the Blind and Dyslexic, Inc....................   424
    Remarks by Honorable Anne M. Northup.......................409, 418
    Selected program performance measures........................   602

 Special Education and Rehabilitation Services and Disability Research

Biographical sketch of Francis V. Corrigan.......................   437
Budget request for FY 2002.......................................   432
Congressional Justifications:
    Rehabilitation services and disability research..............  1035
    Special education............................................   964
Opening statement..............................................429, 432
Rehabilitation services and disability research................430, 435
    Access to Telework Fund....................................436, 457
    Assistive technology..................................436, 455, 465
    Consumer choice..............................................   452
    Informed choice..............................................   453
    Job retention................................................   454
    National Institute on Disability and Rehabilitation Researc430, 436
    New Freedom Initiative.......................................   443
    One-Stop Centers.............................................   449
    Rehabilitation techniques....................................   438
    Technology.................................................435, 447
    Ticket to Work and Work Incentives Improvement Act...........   450
    Vocational education.........................................   447
    Vocational rehabilitation.............................435, 447, 451
    Vocational rehabilitation formula............................   441
    Workforce Investment Act.....................................   449
Selected Program Performance Information:
    Rehabilitation services and disability research..............   566
    Special education............................................   537
Special education..............................................430, 433
    Diagnostic and screening tools...............................   461
    Early intervention.........................................442, 460
    Federal contribution.........................................   449
    Funding...............................................444, 449, 458
    Grants for infants and families..............................   434
    Grants to States.............................................   433
    Interventions................................................   462
    Mandatory funding............................................   459
    Medicaid.....................................................   438
    Maintenance of effort......................................459, 463
    National activities..........................................   434
    Preschool grants...........................................433, 461
    Rural area services..........................................   445
    Teacher training.............................................   440
    Teacher shortages............................................   464
    Technical assistance and dissemination network...............   439
    Use of funds.................................................   448
Witnesses........................................................   429

                                <greek-d>

</pre></body></html>
